<html>
<title> - INTERNATIONAL MARITIME SECURITY II: LAW ENFORCEMENT, PASSENGER SECURITY AND INCIDENT INVESTIGATION ON CRUISE SHIPS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
INTERNATIONAL MARITIME SECURITY II: LAW ENFORCEMENT, PASSENGER SECURITY 
               AND INCIDENT INVESTIGATION ON CRUISE SHIPS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2006

                               __________

                           Serial No. 109-154

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-532                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2006....................................     1
Statement of:
    Carver, Kendall, Phoenix, AZ; Son Michael Pham, Bellevue, WA; 
      Deborah Shaffer, Tucson, AZ; Janet Kelly, Cottonwood, AZ; 
      Ira Leonard, Hamden, CT; and Brian Mulvaney, Miami, FL.....    30
        Carver, Kendall..........................................    30
        Kelly, Janet.............................................    63
        Leonard, Ira.............................................    69
        Mulvaney, Brian..........................................   117
        Pham, Son Michael........................................    49
        Shaffer, Deborah.........................................    56
    Mandigo, Charley, director, Fleet Security, Holland America 
      Line; and Captain William S. Wright, senior vice president, 
      Marine Operations, Royal Caribbean International, 
      accompanied by James Fox, Northeastern University, the 
      Lipman Family Professor of Criminal Justice................   218
        Mandigo, Charley.........................................   218
        Wright, Captain William S................................   224
    Rivkind, Brett, Rivkind Pedraza & Margulies, P.A.; Ronald J. 
      Gorsline, owner, Secure Ocean Service, LLC; and Lawrence W. 
      Kaye, senior partner, Kaye, Rose & Partners, LLP...........   148
        Gorsline, Ronald J.......................................   162
        Kaye, Lawrence W.........................................   180
        Rivkind, Brett...........................................   148
Letters, statements, etc., submitted for the record by:
    Carver, Kendall, Phoenix, AZ, prepared statement of..........    34
    Fox, James, Northeastern University, the Lipman Family 
      Professor of Criminal Justice, information concerning crime 
      aboard cruise ships........................................   251
    Gorsline, Ronald J., owner, Secure Ocean Service, LLC, 
      prepared statement of......................................   166
    Hastings, Hon. Alcee, a Representative in Congress from the 
      State of Florida, prepared statement of....................    27
    Kaye, Lawrence W., senior partner, Kaye, Rose & Partners, LLP 
      , prepared statement of....................................   183
    Kelly, Janet, Cottonwood, AZ, prepared statement of..........    66
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Information concerning Royal Caribbean Cruises...........   244
        Prepared statement of....................................     8
    Leonard, Ira, Hamden, CT, prepared statement of..............    72
    Mulvaney, Brian, Miami, FL:
        Photograph...............................................   146
        Prepared statement of....................................   119
    Pham, Son Michael, Bellevue, WA, prepared statement of.......    52
    Rivkind, Brett, Rivkind Pedraza & Margulies, P.A.............   151
    Shaffer, Deborah, Tucson, AZ, prepared statement of..........    59
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Prepared statement of....................................     3
        Prepared statement of Terry L. Dale......................    16
        Responses to questions...................................   220
    Wright, Captain William S., senior vice president, Marine 
      Operations, Royal Caribbean International, prepared 
      statement of...............................................   227


INTERNATIONAL MARITIME SECURITY II: LAW ENFORCEMENT, PASSENGER SECURITY 
               AND INCIDENT INVESTIGATION ON CRUISE SHIPS

                              ----------                              


                         TUESDAY, MARCH 7, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Davis, Duncan, Mica, 
Kucinich, Van Hollen, Ruppersberger, and Lynch.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy analyst; Robert A. 
Briggs, analyst; Andrew Su, minority professional staff member; 
and Jean Gosa, minority assistant clerk.
    Mr. Shays. Good afternoon. A quorum being present, the 
Subcommittee on National Security, Emerging Threats, and 
International Relations hearing entitled, ``International 
Maritime Security II: Law Enforcement, Passenger Security and 
Incident Investigation on Cruise Ships'' is called to order.
    Today, we continue our examination of the intricate web of 
treaties, laws, regulations, and industrial practices intended 
to protect lives, rights, and property in the maritime realm. 
As new threats against American citizens and American interests 
emerge in the post-September 11th era, we ask how effectively 
that legal umbrella protects the lives, rights, and property of 
those traveling in international waters.
    As we will hear in testimony today, the answer too often 
depends upon an unpredictable combination of facts, 
circumstance, and happenstance that may or may not mean the 
protections of U.S. laws are available to those in peril on the 
sea. The fate of those gone missing or the rights of those 
against whom a crime has been committed may be determined by 
the nationality of those involved, the ship's national 
registry, or its exact location at the time of the incident.
    Good luck to passengers wishing to understand their rights 
at sea. Even attorneys find it difficult to navigate the 
complex jurisdictional boundaries, statutory definitions, 
treaty provisions, maritime traditions, and fine-print 
liability disclaimers. Even when the law is clear, the 
effective reach of U.S. authority depends on the willingness 
and ability of cruise ship operators to make security a visible 
priority, recognize and report incidents, preserve evidence, 
and conduct thorough onboard investigations.
    Once cast adrift from the familiar moorings of U.S. laws 
and law enforcement, security personnel abroad these floating 
resorts become the only law to which passengers can look for 
help and protection. Are they trained and equipped to provide 
the security passengers have a right to expect? For those 
waiting back on shore, any effort to determine what has 
happened to a friend or relative can also face daunting legal 
and corporate hurdles. A business built on the premise of 
pleasure-filled conveyance has little incentive to inform third 
parties when the trip goes wrong. Time, distance, and legal 
uncertainties work to keep worried survivors at arm's length. 
Some portray it as a stiff arm at bat, extended in the interest 
of denying, delaying, or discounting information about the 
inherent risks of sea travel.
    Unlike shore-bound contracts for accommodation, the pact 
between cruise lines and their passengers should be read to 
include a duty to preserve evidence and provide information 
about the fate of those, however few, who have come to harm in 
isolated, unforgiving ocean environs.
    After our previous hearing on these issues, the 
subcommittee requested information on reports of crimes and 
missing persons from cruise ship operators. The information 
received so far suggests cruise travel may be statistically 
safe in terms of the number of serious incidents reported by 
the total number of passengers carried in any given year. But 
we look to our witnesses to put those numbers in context so the 
subcommittee and the traveling public can make informed 
judgments about the relative security of an ocean voyage.
    Today, we will hear from three panels of witnesses: cruise 
passengers and family members, maritime security experts, and 
cruise line operators. Welcome to all our witnesses. We look 
forward to their testimony.
    At this time the Chair would want to note that the chairman 
of the full committee is in attendance, and we will call on him 
after we call on the ranking member, Mr. Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.001
    
    [GRAPHIC] [TIFF OMITTED] T8532.002
    
    Mr. Kucinich. I want to thank the chairman.
    Out of respect for the Chair being here, I would be happy 
to yield to the Chair of the full committee.
    Chairman Tom Davis. I will just be brief. Mr. Shays, thank 
you.
    I want to thank Mr. Shays for holding this hearing. It is a 
continuation of the important focus on the security of American 
citizens wherever they are in the world.
    This hearing is significant because cruises are an ever 
more popular vacation choice for American families, and 
ensuring traveler safety should be a priority for all of us.
    I am not an expert on the industry. I know there have been 
some very high-profile incidents aboard cruise ships in recent 
months, and I think if there is reason to believe safety and 
security are being shortchanged, we need to understand that. We 
also need to understand the notification procedures, which is 
one of the shortcomings we have. In spite of some of the good 
news--and some of the good news is that this industry is built 
on customer service. I have seen statistics showing that in 
2005 approximately 55 percent of all passengers were repeat 
guests. So a lot of people appear satisfied with their 
experience as well.
    Now, this subcommittee has spent a lot of hours looking 
into the industry, and I want to commend Chairman Shays and his 
staff for these efforts. I think that sunshine is the best 
disinfectant. What has emerged, we get a picture of an industry 
that is conscious of its public images, its understanding that 
customer service is its lifeblood. They are grasping the need 
to cooperate with a large number of U.S. Government agencies in 
the performance of its service.
    The data do show, as the chairman noted in his remarks, 
that cruise ships are relatively safe places to be, for the 
most part. According to FBI stats reported at the December 
subcommittee hearing, the FBI opened 305 cases of crime on the 
high seas over the past 5 years, during which time there were 
40 million cruise ship passengers. If those numbers are right, 
that is pretty good odds of a safe voyage, certainly a lot 
safer than a lot of counties and cities across the country.
    But I know one thing. One concern about these statistics is 
that many crimes may not be reported, and I hope that is 
something that this subcommittee is looking at as well.
    Two thousand people are reported missing every day in the 
United States. In contrast, over the past 2 years, the 
equivalent of one person per one million passengers went 
missing on a cruise ship, which is less than the national rate. 
A cruise ship is regulated by both the Federal and State 
governments, and criminal offenses on board ships, regardless 
of their nation of registry, are expressly subject to U.S. 
jurisdictions when committed by or against an American.
    Having said this, this is an industry that is not used to 
visible consumer complaints, and as the industry continues to 
grow, they will need to find a more uniform standardized 
security standard. No loss of life or crime is ever acceptable, 
and I understand the anger and the frustration of crime victims 
and their families and loved ones having difficulty pulling 
information out. I hope that the industry will address some of 
the issues that are highlighted today.
    There are compelling questions to be asked, including how 
conflicts and overlaps between domestic law and international 
treaties affect our ability to monitor and enforce criminal 
conduct at sea. I look forward to working with the subcommittee 
to ensure the security of our citizens as they take cruises and 
we try to maintain better reporting to loved ones and others 
who are having difficulty getting information.
    I want to thank Mr. Shays for his important oversight. 
Thank you.
    Mr. Shays. I thank the chairman very much, and at this time 
the Chair would recognize Mr. Kucinich and thank him for 
yielding to the chairman.
    Mr. Kucinich. Of course.
    Mr. Chairman, before I begin, I want to say that 
immediately after my statement, I have to go to the floor of 
the House to enter a statement in opposition to the PATRIOT Act 
authorization, and then I will return.
    Mr. Shays. I think I would like to keep you here. 
[Laughter.]
    Mr. Kucinich. Thank you, Mr. Chairman.
    Good afternoon and thank you to the witnesses for appearing 
today. I know it is extremely difficult for some of our 
panelists today to relate the tragic experiences of their loved 
ones, but I hope that your testimony will help us avoid future 
tragedies aboard cruise ships. Each year, some 10 million 
passengers take trips aboard the 300 large cruise ships that 
comprise the worldwide cruise ship fleets. These trips generate 
tens of billions of dollars in leisure spending, and more than 
half of these passengers embark from North American ports.
    Twelve companies account for the majority of cruise ship 
activity in the United States, but two companies--Carnival 
Corp. and Royal Caribbean--dominate the U.S. market. Carnival 
owns 79 ships and has a dozen more in the pipeline. Royal 
Caribbean has 19 ships. Most of these vessels sail under 
foreign flags and do not have to comply with U.S. labor, 
environmental, and other regulations.
    Many Americans embark on a cruise as a romantic honeymoon 
or on a long-needed family vacation, hoping to travel to exotic 
destinations and enjoy the many amenities these cruise ships 
have to offer. They are offered almost limitless amounts of 
food and entertainment. Alcohol is plentiful and easily 
accessible. It is truly a 24-hour party atmosphere on board the 
ships. Yet instead of relaxing and enjoying their vacation, 
this subcommittee has heard of a disturbing trend: a growing 
number of passengers disappearing while on board these cruise 
ships, with little or no attempts to search and rescue them by 
the ship's crew and security officers.
    At our December hearing, the subcommittee heard from Mrs. 
Jennifer Hagel-Smith, the widow of George Smith, who went 
missing during their honeymoon voyage to the Mediterranean. 
Publicity about their case has allowed numerous others to come 
forward and relate their cruise ship horror stories. Recently, 
individuals affected by cruise ship crimes formed the 
International Cruise Victims Organization as a support network 
and to give a voice to their cause. What they want simply is 
the truth, and that is the same thing that this congressional 
subcommittee wants. They and we want to know that everything 
that could have possibly been done to help their families to 
search and care for their loved ones was done by the cruise 
companies. They want peace of mind and closure to the terrible 
tragedies. But they cannot get a straight answer from those 
companies.
    According to data submitted to the subcommittee by the 
cruise industry--and, you know, they are not officially 
required yet to be reporting to law enforcement agencies--24 
passengers have gone missing aboard cruise ships in the past 3 
years. This subcommittee knows of at least 178 reports of 
sexual assaults, thefts, and hosts of other crimes--not exactly 
the ``Love Boat.''
    However, as the chairman has stated, the lack of 
statistical data on the number of crimes and incidents aboard 
cruise ships which was not disclosed until two congressional 
subcommittees demanded them and the reliability of that data 
leads Congress to suspect that the whole truth is not being 
told. We want to know the truth about individual cases. We want 
to know the truth about the adequacy of training of crew 
members and about the procedures used by security officers, and 
we want to know the truth about the general conduct and 
screening of crew and security officers aboard these ships.
    Do these cruise companies care more about the safety of 
their passengers or their bottom line? Is it more important to 
make sure missing passengers are found or more urgent for the 
ship to reach the next port?
    It seems to me that the latter is more important for these 
cruise ship lines. I hope today's hearing will help answer some 
of those questions.
    I want to conclude, Mr. Chairman, by pointing out that I am 
in strong support of greater Federal regulation over the cruise 
line industry and, in particular, we need key requirements for 
reporting incidents aboard cruise ships. There needs to be 
oversight on training, conduct, and conditions of crew workers 
and security officers and accountability to passengers to 
report such incidents.
    I want to thank the Chair. Mr. Chairman, I want to thank 
you for your leadership on this issue, and I hope that these 
hearings will help cruise ship victims and their families 
understand what went wrong and what happened aboard these 
ships. We should do everything in our power to help them heal 
their wounds.
    Again, thank you, and, again, thank you to the witnesses 
for being here today.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T8532.003

[GRAPHIC] [TIFF OMITTED] T8532.004

[GRAPHIC] [TIFF OMITTED] T8532.005

[GRAPHIC] [TIFF OMITTED] T8532.006

[GRAPHIC] [TIFF OMITTED] T8532.007

    Mr. Shays. I thank the gentleman.
    At this time the Chair would recognize Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and 
certainly I have expressed my great respect and admiration for 
you many times in here, and I will say that again because I 
think you are one of the finest chairmen that this Congress 
has, and I appreciate the fact that you are presiding over a 
very thorough look at this.
    I expressed my concern the last time we had a hearing about 
this that we sometimes legislate based more on what is on the 
24-hour news channels than what we actually should be 
legislating on, and it is unfortunate. I wish it was not this 
way. You know, there are thousands of horrible, terrible 
tragedies happening to people every day in this country. And 
can we prevent all those? I wish we could. We cannot. Should we 
try to? We should, as much as we can.
    I hope that I am a better Member of Congress now than I was 
5 years ago, and I hope that I am fortunate enough to be here 5 
years from now and better then than I am now, because 
everybody, whatever their job is, if they lose the desire to 
improve and get better, it is sad for them and it is sad for 
the people for whom they work. I hope the cruise line industry 
continually tries to do more and better in regard to safety and 
security of its passengers.
    Having said all that, I mentioned some of this the last 
time we had this hearing. People are far, far safer on these 
cruise lines than they are in any city or even in any small 
town in America. The statistics that Chairman Davis mentioned, 
I mean, 10 million passengers a year, 20 million passengers in 
a 2-year time period, and there were 13 that went missing in 
that 2-year period, 6 or 7 a year. One alleged sexual assault 
per 100,000 passengers. You are 100 times more likely to be 
sexually assaulted in a city or town in this country.
    So, we need to keep these things in mind as we go through 
this. Does that lessen what happened to the victims that have 
had bad things happen to them on these cruise lines? No, it 
does not lessen it. Those are terrible things and we all 
sympathize with that. But if we overreact and overregulate, I 
mean, we could put so many regulations and rules and red tape 
in effect that we make it where only extremely wealthy people 
can take cruises. And I certainly do not think we want to do 
that. I think in all these things we need to have some balance, 
and I think that is what this hearing is trying to achieve.
    And so I thank you very much for calling this hearing and 
for letting me be here. Thank you.
    Mr. Shays. I thank the gentleman very much.
    At this time the Chair would recognize Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, again, thank you for 
having this hearing, the second hearing. Maritime security is a 
very complex issue. I am familiar with maritime security. I 
represent the Port of Baltimore and also am co-Chair of the 
Port Security Caucus, and we are dealing with issues of port 
security, the Dubai issues; more importantly, resources that we 
put into security.
    I really did not get involved with this issue until we had 
the first hearing, but I think it is a very important issue. 
And one of the reasons it is an important issue is that we have 
many Americans that like to go on cruises because cruises are 
fun, they are affordable. And I think that these hearings, even 
though I am sure the industry does not like it, should be a 
wake-up call on looking at your system, making sure that you 
are doing things the right way.
    You have had a good situation, but if you do not re-
evaluate and make the decisions and the changes that are 
necessary for good security--and it is not always what you 
think. It is what is being perceived, and perception can hurt 
any industry.
    Now, we discussed different issues in the last hearing. 
There were questions that had been raised and questions that 
have not been answered, what laws apply in what situations. The 
FBI and the Coast Guard share the burden of enforcing maritime 
jurisdiction, but who takes the lead? Who is ultimately 
responsible? And I guess we did not answer these questions in 
December. Hopefully we can move forward and help the industry 
where we need to go, because we do not need to overregulate, 
but we do not need to underregulate either. We need to get that 
check, get that balance so that the cruise industry can go 
forward and Americans can have fun but feel safe.
    One question I asked in the hearing was: Do cruise ship 
deadlines create a threat? Do stringent deadlines force ships 
to travel into storms or unsafe places?
    Just to give a personal story, my wife and I went on a 
cruise, and probably will not go on another cruise. We were 
really knocked out of bed because of bad conditions. I 
understand that happens. But, when you have those situations, 
you wonder why you were put in that situation and whether it 
could be avoided. Probably because a ship has to get back to 
port where there are 3,000 people waiting. How you solve that, 
that is up to the industry. But these are things that occur 
occasionally.
    I would be more concerned, though, not about a bad 
experience but a life-and-death experience when it really is 
something serious. How does the industry make a determination? 
Is it the captain's point of view? Do you have the proper 
radar? Are you told, like airline pilots, where to go and to 
avoid storms? Those type of issues.
    Now, the International Council of Cruise Lines wrote 
following up on my question about having deadlines and having 
to go to certain ports and keeping tight schedules. And I 
appreciate the letter and acknowledge that the National 
Transportation Safety Board upholds the cruise line practices 
as prudent. Still, the larger problem continues to be who is in 
charge, what is the system in place to protect the citizens of 
our country. And our country, not only within the port, within 
the U.S. jurisdiction, but as we know from the previous 
hearing, problems that we had when you are in another country, 
how you are treated. It seems to me that once you are on a 
cruise ship and you enter, you go on the cruise ship from the 
United States of America, you should be looked after and 
protected all the way through that process.
    Now, again, in fairness to the cruise ship industry, the 
Coast Guard has said maritime travel is, arguably, among the 
safest modes of transportation available. The International 
Council of Cruise Lines has established safety standards, but 
who enforces them? High standards are not the end of the story. 
We must continually work to improve.
    It is critical that we solve this problem, establish rules, 
and procedures so all agencies involved in security can and 
know how they are supposed to work together. And that is the 
only way we can ensure ultimate safety when traveling in waters 
not of our own.
    Thank you.
    Mr. Shays. Thank you.
    I would just like to say for the witnesses, I appreciate 
your patience, but what I am hoping you are gaining from this 
is realizing how you may want to respond, and if you do not go 
directly with your written statement, that will be submitted in 
the record. But it is important for you to hear the basic views 
of the Members.
    I do want to say, just in regard to the statistics, that 
you probably need to divide by 52 weeks the 10 million, and you 
are probably coming up with a city of about 200,000. Even then 
the statistics appear to be still very impressive in the sense 
that not as big a problem as in some of our urban areas, but we 
are probably talking about a year-long population of about 
200,000, give or take.
    At this time the Chair would recognize and thank Mr. Van 
Hollen for his patience as well. You have the floor, sir.
    Mr. Van Hollen. Well, thank you, Mr. Chairman, and thank 
you for holding these hearings, and I welcome all the witnesses 
and look forward to your testimony. I hope these hearings will 
accomplish two things: First is to raise awareness in the 
American public about what questions they need to ask and have 
answered as they proceed on cruise ships and just be educated 
as to what rules apply and what rules do not apply. And they 
need to understand that when you board a cruise ship and leave 
the U.S. shores, you do not necessarily carry with you the full 
protections of the American laws. And, in fact, in some ways 
you are in charted legal waters.
    Second, in addition to raising awareness, I hope we will be 
able to identify those areas where there may be a need to take 
additional measures. No one wants to go overboard in terms of 
measures, but I think that it is important that we identify 
those areas where it may be helpful. So if that comes out of 
these hearings, I think they will have been a success. And I 
thank you, Mr. Chairman, for holding it.
    Mr. Shays. I thank the gentleman and appreciate his 
participation.
    Let me ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose, and without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record, 
and without objection, so ordered.
    Further, I ask unanimous consent that the following be made 
part of the hearing record: a written statement from Mr. Terry 
L. Dale, president, Cruise Lines International Association, 
about the cruise line industry and taking a vacation on a 
cruise ship; a letter from Ms. Kathryn Sudeikis, president, 
American Society of Travel Agents, encouraging its members to 
take a vacation aboard a cruise ship. And without objection, so 
ordered. Without objection, the written statement and the 
letter will be made part of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.008
    
    [GRAPHIC] [TIFF OMITTED] T8532.009
    
    [GRAPHIC] [TIFF OMITTED] T8532.010
    
    [GRAPHIC] [TIFF OMITTED] T8532.011
    
    [GRAPHIC] [TIFF OMITTED] T8532.012
    
    [GRAPHIC] [TIFF OMITTED] T8532.013
    
    [GRAPHIC] [TIFF OMITTED] T8532.014
    
    [GRAPHIC] [TIFF OMITTED] T8532.015
    
    [GRAPHIC] [TIFF OMITTED] T8532.016
    
    [GRAPHIC] [TIFF OMITTED] T8532.017
    
    Mr. Shays. Also, unanimous consent to insert a statement 
from our colleague, Alcee Hastings of Florida's 23rd District.
    [The prepared statement of Hon. Alcee Hastings follows:]
    [GRAPHIC] [TIFF OMITTED] T8532.018
    
    [GRAPHIC] [TIFF OMITTED] T8532.019
    
    [GRAPHIC] [TIFF OMITTED] T8532.020
    
    Mr. Shays. And I would further just point out that we have 
the International Cruise Victims Association, which is a 
nonprofit organization supporting advocacy, an organization of 
cruise victims and their families, and some of these members 
are with us today, and we just acknowledge their presence as 
well.
    As I think the panelists know, we swear in all our 
witnesses. I failed to put under oath only one Member in my 
years as chairman, and that was the Senator from West Virginia. 
I chickened out. But everyone else has been, and so let me just 
first announce our witnesses. We have Mr. Kendall Carver from 
Phoenix, AZ. We have Mr. Son Michael Pham, Bellevue, WA. We 
have Ms. Deborah Shaffer of Tucson, AZ. We have Ms. Janet 
Kelly, Cottonwood, AZ. We have Mr. Ira Leonard of Hamden, CT, 
and we have Mr. Brian Mulvaney, Miami, FL.
    And let me say to the witnesses that we would ask you to 
stand and we will now swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all our witnesses have 
responded in the affirmative.
    I suspect this is probably the first time you have ever 
appeared before Congress, and if not, you have had a little 
practice. But if not, the worst thing you can do is try to 
speak too quickly. It would be better to just close off your 
comments than try to rush through. Be assured that you are 
going to be able to make your points through the questions and 
so on. So you are not going to leave here wishing you did not 
say something, unless you simply forgot to say it, but you will 
be given that opportunity.
    We are going to go down the line, and, Mr. Carver, the mic 
should have a light on it noting that it is on. Just tap it 
here just to see. Yes, you are all right. OK, welcome. Lovely 
to have you here.

 STATEMENTS OF KENDALL CARVER, PHOENIX, AZ; SON MICHAEL PHAM, 
    BELLEVUE, WA; DEBORAH SHAFFER, TUCSON, AZ; JANET KELLY, 
 COTTONWOOD, AZ; IRA LEONARD, HAMDEN, CT; AND BRIAN MULVANEY, 
                           MIAMI, FL

                  STATEMENT OF KENDALL CARVER

    Mr. Carver. I would like to take this opportunity to thank 
the subcommittee for accepting our testimony in connection with 
the disappearance of our daughter, Merrian Lynn Carver.
    Merrian disappeared during the third week of August in the 
year 2002. We contacted the police in Cambridge, MA, where she 
lived. They determined through credit card transactions that 
she had purchased a round-trip ticket to Seattle, returning 
from Vancouver, and a ticket on the Celebrity Cruise Line Ship 
Mercury leaving Seattle on August 27th. Merrian disappeared 
from that ship.
    I provided supporting material to the subcommittee, which 
goes into considerable detail, and I would like to summarize 
our experience with the cruise line. Since they were not able 
to provide the necessary answers to our questions through the 
Risk Management Department, we retained both private 
investigators and law firms to investigate her disappearance.
    Some months later we uncovered the following facts: The 
steward servicing our daughter's cabin reported her missing to 
the supervisor each day for 5 days. The supervisor told the 
steward ``just do your job and that's it.''
    At the end of the cruise, some of Merrian's clothing and 
personal items were disposed of and other items were put in 
storage. No effort was made to report Merrian's disappearance 
either to the authorities or to her family. In effect, these 
actions or lack of actions kept Merrian's disappearance from 
being discovered until the Cambridge Police acted, which was 
over 3 weeks later, and in effect, she vanished from the Earth.
    During the third week in September, the management of Royal 
Caribbean--``the owners'' of the cruise ship, took steps to 
cover up the facts concerning her disappearance. These actions 
are covered in documents which are provided on the table under 
supplemental folder, which I have provided.
    At the end of September, we hired the detective agency of 
Kroll and Associates and the law firm of Blake and Associates 
to investigate her disappearance.
    Throughout the investigation, the Royal Caribbean Cruise 
Line took every step to impede the efforts of our detective 
agencies and law firms. Officials of the cruise line provided 
both inaccurate and misleading information and kept our 
investigators from questioning members of the crew.
    Cruise line officials also withheld information that would 
have been helpful, including information that we had requested 
by subpoena on both December 2, 2004 and January 24, 2005.
    Only after we went to the courts in Florida and 
Massachusetts at the end of December were we able to force crew 
members that had knowledge of her disappearance to be deposed. 
In other words, it took us 4\1/2\ months to get to one crew 
member that had seen Merrian on that ship.
    On January 16th and 17th, we finally deposed the steward 
and the head of the hotel of the cruise. At that point we 
discovered for the first time the fact that our daughter had 
been reported missing daily starting August 29th and no action 
was taken. In other words, it took us, as I just said, 4\1/2\ 
months to interview a member of the crew and that cost over 
$75,000.
    On February 9th, we received only one item from two 
subpoenas that had been issued, and that was a poor-quality 
picture of Merrian getting on the boat. So we took the 
direction of going directly to the Board of Directors of the 
Royal Caribbean Cruise Line with all the depositions showing 
the coverup, hoping that we could jump-start action concerning 
her case.
    We are now a year later, and I must say that we still have 
not received the information that we subpoenaed on December 
2nd, and that exercise was not helpful.
    I do not understand why a reputable corporation would 
attempt to cover up the disappearance of our daughter. Did some 
officials of this cruise line assume that the families would 
not have the financial or emotional resources to investigate 
this matter thoroughly?
    The needless stress that my wife and I have endured while 
we have struggled with a large corporation for information 
about our missing daughter has made our loss even more 
difficult to bear.
    As a result of the last hearings, there has been much press 
concerning Merrian in various news media around the world, and 
we have received comments. There was a comment in the Arizona 
Republic, which I would like to read to you, and it says, in 
effect, ``I agree with the other respondents; Royal Caribbean 
is grossly negligent in this case. By dragging their feet, 
providing misinformation, getting rid of a person with 
information (the supervisor) and destroying evidence they are 
at least guilty of obstruction of justice.''
    Now, is this case unique? I think it is unique because I 
don't think anyone else has spent the time and the resources to 
break through the coverup, which we did.
    Mr. Shays. How much have you spent, just for the record?
    Mr. Carver. Way over $75,000.
    Are we unique? If you read the attachments in my summary 
documents, you will find that few, if any, individuals are ever 
successfully convicted of a crime on a cruise ship. In fact, by 
their own statement in the Jacksonville Business Journal in 
June of the year 2005, a Royal Caribbean representative, 
Michael Sheehan, indicated they do not keep statistics on 
missing passengers. I find that hard to believe.
    Now, what can we conclude from our experiences and the 
experiences of other victims?
    If something happens to you or a loved one on a cruise 
ship, you are on your own. Don't expect the crew of the ship or 
governmental agencies, which I would include the FBI, onshore 
to assist you in your effort. You are on your own.
    Because of jurisdictional issues, you cannot assume what 
laws will govern your situation. This issue was reviewed in 
great detail in the February 26th issue of the New York Times.
    In my opinion, the current system is broke and desperately 
needs reform to assure the safety of passengers on cruise 
ships.
    Unless something is changed in the current regulations, the 
cruise line industry will be able to treat the next family as 
we were treated. God save the next family.
    After the subcommittee's hearing last December, the Smiths 
and I determined that we needed to make a change to the 
industry. As a result, we have formed a group of victims. This 
organization is called International Cruise Victims. Our Web 
site can be found at www.international-cruisevictims.org.
    Mr. Shays. Mr. Carver, I am going to ask you to kind of 
close up here.
    Mr. Carver. OK. Well, let me just read a summary statement 
here.
    Mr. Shays. Sure.
    Mr. Carver. From a crew member, we received this a week 
ago: As a crew member from Vancouver, with employment on 
several major lines over the last 8 years, your story only 
touches the tip of the iceberg. It is an exhaustive study you 
will find on behalf of your loved ones, which keeps this issue 
front and center. Many families have not come forward. Instead 
they intend to believe the cruise line when they reiterate 
their old, tired response that this is a suicide. In addition 
to the many guests going missing, there are numerous crew 
members each year which go unreported because they are from 
Third World countries.
    And to put a positive spin to what I have said, which is 
not a positive story----
    Mr. Shays. You need to close up now.
    Mr. Carver. Yes. We would like to enter into the record a 
list of recommendations to be considered to change the cruise 
line industry.
    [The prepared statement of Mr. Carver follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.021
    
    [GRAPHIC] [TIFF OMITTED] T8532.022
    
    [GRAPHIC] [TIFF OMITTED] T8532.023
    
    [GRAPHIC] [TIFF OMITTED] T8532.024
    
    [GRAPHIC] [TIFF OMITTED] T8532.025
    
    [GRAPHIC] [TIFF OMITTED] T8532.026
    
    [GRAPHIC] [TIFF OMITTED] T8532.027
    
    [GRAPHIC] [TIFF OMITTED] T8532.028
    
    [GRAPHIC] [TIFF OMITTED] T8532.029
    
    [GRAPHIC] [TIFF OMITTED] T8532.030
    
    [GRAPHIC] [TIFF OMITTED] T8532.031
    
    [GRAPHIC] [TIFF OMITTED] T8532.032
    
    [GRAPHIC] [TIFF OMITTED] T8532.033
    
    [GRAPHIC] [TIFF OMITTED] T8532.034
    
    [GRAPHIC] [TIFF OMITTED] T8532.035
    
    Mr. Shays. All right. Thank you very much. We have copies 
of that. Thank you.
    Let me tell you that, in my judgment, however this hearing 
concludes and whatever we do, what you have gone through is 
outrageous, and we would respectfully request that the cruise 
line totally and completely cooperate with your need to know 
what happened, etc. So I just hope, if nothing else happens, we 
will at least see some change in how they have responded. To 
fire this superintendent is not satisfying the need for you to 
know.
    Mr. Pham.

                 STATEMENT OF SON MICHAEL PHAM

    Mr. Pham. Thank you, Mr. Chairman and members of the 
subcommittee. I am honored to be here today along with several 
families of victims of the cruise industry immediately behind 
me, including John and Jill Savone, who lost a son from the 
same cruise ship in 1999, to speak on issues of cruise ship 
safety, security, and accountability.
    I would like to start out by saying that I am not an expert 
on safety and security issues aboard cruise ships. However, I 
am more educated today than I was before May 2005. 
Unfortunately for my family, it is too late to prevent what 
happened to us. But I know by being here today it is not too 
late for me to help others from becoming victims like all of 
us.
    Since the time is limited, I am going to skip through what 
I submitted to the record of my testimony and tell you a little 
of the background of my folks.
    Briefly, more than 30 years ago my parents and five of us 
left South Vietnam on the day before Saigon City fell to the 
communists. We risked our lives spending 2 weeks in the Pacific 
Ocean with little food and water. We came here with nothing so 
that we could live in freedom. We came to the United States 
with nothing and worked hard for everything we have today. As 
American citizens, we obey the rules and laws of the country, 
we cherish our freedom, and we trust the justice system to 
protect our rights.
    Last May 2005, all of the children treated Mom and Dad to a 
vacation, a trip to Chicago to visit the grandchildren followed 
by a 7-day Caribbean cruise, then back to Chicago for 2 more 
weeks with the grandkids. The cruise was a Mother's Day gift, 
traveling with their daughter and granddaughter. On May 12, 
2005, my parents vanished from the Carnival Destiny when the 
ship was sailing between the islands of Barbados and Aruba. The 
Mother's Day gift turned into another tragic and mysterious 
disappearance from a Carnival Cruise Line ship.
    On the evening of May 12th, a ship photographer reported 
that she noticed personal belongings by lounge chairs on the 
third deck, two pair of sandals, and a purse. The family hung 
our regularly in this area, lounging on the chairs, and Mom and 
Dad would leave their sandals and personal belongings on the 
chairs or deck between them. A crew member retrieved the found 
items, notified the assistant chief of security, and was told 
to log the items and phone the room. Thirty minutes later, the 
other family members came back to their cabin and received a 
phone call from the front desk to retrieve the found items. 
Then they realized something unusual had happened and alerted 
the crew members. This is at midnight.
    Following our parents' disappearance, it took almost 3 
hours later before the first general announcement was made over 
the public speakers. The crew waited for over 4 hours before 
notifying the U.S. Coast Guard and allowed the ship to further 
distance itself from the location where our parents were 
originally reported missing. Too much time had elapsed between 
the U.S. Coast Guard notification and the first search and 
rescue from the Netherlands Coast Guard. Under the direction of 
the Coast Guard, the ship turned around to participate in the 
search mission. It took 12 hours before the Destiny vessel 
returned to the original location. The full search and rescue 
mission was called off. You know why it was called off? In less 
than 13 hours from the presumed time of our parents' 
disappearance, based on the information provided by the ship's 
captain to the Coast Guard that survivability was very low. We 
have that record from the Coast Guard.
    We believe there is more detailed information on our 
parents' cause of death than what is actually being released by 
Carnival Cruise Line. Four hours went by before the security 
and surveillance on-duty investigator was contacted--4 hours. 
Then an additional 30 minutes went by before he contacted the 
FBI. It took them 4 hours to decide to look in the security 
camera to find out if they found anything about my parents. The 
area where the personal belongings were found was left 
unprotected for 7 hours until the FBI requested a crew to seal 
off the area. Guess what happened when the FBI showed up in St. 
Maarten? They boarded the ship when people got off the ship at 
the same time because they came there to take a report. They 
went on the ship to interview my family members and some of the 
crew members and that is it. People got off the ship. Nobody 
had a chance to speak or be questioned by the FBI.
    Then another thing. My family reported last seeing my 
family at 7:20 p.m. Eleven and a half hours after my parents 
were reported missing, the cabin housekeeping attendant 
reported to the captain that he saw my parents at 8:45 p.m. So 
during all that time they were searching the wrong place in 
this big, big vast ocean. They were clueless. They did not talk 
to everybody, apparently. They were more focused on planning 
the next day's short activities in St. Maarten, which is a 
replacement for Aruba, than protecting crucial information and 
evidence pertaining to two of their missing passengers; our 
parents.
    The FBI met the ship in St. Maarten to interview some crew 
members. I mentioned about that. These are two American 
citizens with no personal and financial problems, no serious 
health problems, living the happiest time of their lives, both, 
just like many others, vanished without a trace, witness, or 
surveillance tapes of what happened to them.
    After my family members were left off in San Juan, the 
cruise ship, just clean up the ship, people got off, big chaos 
going on, and then that is when they handed out the flyer from 
the FBI that anyone having information to contact the FBI. And 
that is it. The arrogant ``business as usual'' attitude by 
Carnival Cruise Line is the normal ``take no responsibility'' 
reaction of the world's largest cruise company, accounting for 
more than half the world's cruise industry travelers. It is 
important to note that the majority of their passengers are 
citizens of the United States of America.
    I am going to wrap up. Currently the Death on the High Seas 
Act [DOHSA], a 1920's law enacted by the U.S. Congress, is 
still in effect, with complicated jurisdictional issues, 
continues to protect the cruise industry from being held 
accountable for the safety and security of its passengers. It 
is time for our Government to bring the DOHSA to the 21st 
century.
    My only recommendation is nothing is going to happen from 
these hearings, nothing is going to happen with us being here 
today, nothing is going to happen until the cruise industry 
admits that we do have problems, we do have issues. Don't look 
at the statistics. We do have problems. And then that will be 
the very, very first step before something being done.
    Thank you.
    [The prepared statement of Mr. Pham follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.036
    
    [GRAPHIC] [TIFF OMITTED] T8532.037
    
    [GRAPHIC] [TIFF OMITTED] T8532.038
    
    [GRAPHIC] [TIFF OMITTED] T8532.039
    
    Mr. Shays. Thank you very much for your testimony, and we 
will look forward to having dialog with you.
    Ms. Shaffer, you need to bring the mic a little closer to 
you. Thank you, and take your time.
    Ms. Shaffer. Can you hear me?
    Mr. Shays. I hear you fine.

                  STATEMENT OF DEBORAH SHAFFER

    Ms. Shaffer. I am Deborah Savage Shaffer, the mother of 
four daughters, all currently teenagers except for the oldest, 
who is 21 and living on her own. I have been a widow for the 
past 12 years and I am currently a full-time Mom.
    The reason that I have been invited to tell my story today 
is because I am a member of International Cruise Victims, a 
group that was formed mainly to get the word out to the public, 
domestically as well as internationally, of the well-kept and 
expertly hidden secret of the criminal activities and dangers 
that are occurring on board these cruise ships and to educate 
the public of the cruise lines' standard procedures in dealing 
with criminal or potential criminal problems. We hope 
education, information, and regulations will gave passengers, 
as well as cruise line employees, rights, security, and 
protection.
    In April 2003, I took a 10-day cruise with my four 
daughters to the southern Caribbean on board the Carnival 
Cruise Lines' Legend. I shared a balcony room with my 13-year-
old and my 15-year-old. My other two daughters shared an 
interior room down the hall. When we departed from the dock, my 
daughters and I were standing on the balcony of our room as we 
slowly moved away from port. I should have been tipped off that 
all was not as it appeared, when as we stood enjoying the 
breeze and sensation of the departure we were bowled over by 
the strong, pungent smell of marijuana. We tried to see where 
it was coming from, but it was impossible because of the design 
of the ship and balconies.
    Boarding the ship had taken hours, possibly half a day. It 
was the most detailed security check-in that I had ever been 
through and definitely surpassed the airports and airlines, in 
my opinion. So how did the marijuana get on board? But with the 
excitement of the day, I dismissed the thought. I felt safe, 
secure, and had no doubt that everyone on board this ship had 
to be reputable and of good character. It was not anything that 
I gave any more thought to. Passing through the intense 
security measures of the cruise line, once on board the ship I 
felt 100 percent safe, secure, and trusting. The crew seemed 
open, friendly, and professional. I subconsciously let my guard 
down. Right away, my kids met other kids their own age, and 
they were all busy running around the ship together.
    The first evening on board, my 15-year-old daughter met a 
young girl her own age, and they were hanging out together. My 
daughter was supposed to be back to our cabin by 10 p.m., but 
when she arrived, I was already in bed asleep. She brought her 
new friend into the room to meet me. So we turned on the light, 
her friend sat down, and the three of us talked for a while. 
Then they said they wanted to go back to the girl's cabin to 
watch a video. I told my daughter to be back by midnight. I 
fell back to sleep thinking my daughter would wake me up again 
when she got in. But at 4 a.m., I woke up, startled that she 
had not come back. I jumped out of bed, and in my pajamas I ran 
down the hall to Security.
    It took about an hour to get everyone moving on finding my 
daughter, but after giving them a first name of the girl that 
she was with, it seemed that they only knocked on one door 
before finding my daughter. She came out of the room rubbing 
her swollen, puffy eyes. I was very angry with her, but 
believed that she had just fallen asleep. I asked her what had 
happened, as she was very defensive. She was overreacting to my 
questions, but at that time I had no suspicion that a rape had 
just occurred.
    One or 2 days later, my 13-year-old daughter came to me and 
told me that she had been informed by my 15-year-old daughter 
and the new girlfriend that the girl's brother had raped my 
daughter that night.
    I then confronted my 15-year-old daughter, but she denied 
it. She told me that nothing had happened. She became overly 
hysterical and cried in denial constantly, whenever I tried to 
approach the subject. I knew by her over-emotional behavior 
that she was lying and that something had happened. I took her 
to the ship's doctor 3 days in a row, but each time she would 
become hysterical and deny the rape. Each visit brought nothing 
but solemn and somber stares from the doctor for as long as I 
wanted to sit there requesting an examination. He told me that 
if my daughter is telling me the truth and if, in fact, she is 
still a virgin, having never had a pelvic exam, that by him 
examining her the examination in itself would be violating her 
and that my insistence of an examination would traumatize her 
for life.
    I had become the perpetrator. The captain called me in to 
talk to me on two occasions after this. He told me that we were 
on ``international waters.'' He did not tell me what that 
meant. He told me that he felt badly, but that since we have no 
proof of the rape, there was nothing that could be done. He 
told me that he has two daughters of his own and that he felt 
very badly about the incident. The rapist was the friend's 30-
year-old brother who was sharing a cabin with her and her 
younger brother.
    I had no one to consult with, no one to turn to. I didn't 
know what to do. Finishing up the trip on that cruise was 
laborious, and for much of the trip I didn't come out of my 
room. It was one of the worst experiences of my entire life.
    I have since learned the true story of what happened that 
night, as 3 years of maturity have given my daughter the 
courage and character to discuss it. After becoming aware of 
the Jennifer Hagel-Smith story and the Ken Carver story, she 
told me that she was now ready to tell me what really happened 
on that first night on board the Legend after leaving our room 
to go to the newly found friend's room to watch the video.
    My daughter had climbed into one of the bunks, and while 
watching the video she fell asleep. The next thing she knew, 
there was a man on top of her. The room was dark. She thought 
it was the girl's father. He had alcohol breath. She told him 
that she needed to get up, but he wouldn't let her. She started 
to scream and he covered her mouth, muffling her screams and 
proceeded to rape her. The next thing she knew, there was 
knocking on the door of the room and that was when we found 
her.
    She denied the rape because she thought it was her fault 
and also because she was embarrassed and didn't want ``the 
whole world to know.'' She is not sure at what point she 
realized it was the girl's 30-year-old brother.
    Rape is an earth-shattering, traumatizing experience that 
kills the person that you are and slowly changes you into 
someone else.
    From that day forward, my daughter has distanced herself 
emotionally from me. Now she never shares her innermost 
thoughts with me. Losing her father almost 12 years ago and 
then being raped 8 years later is an enormous hurt in her whole 
being that could never begin to heal until she was able to 
address what had happened.
    I am extremely thankful to the Hagel-Smith family and to 
Ken Carver for coming forward and standing up for what is right 
and being brave enough to insist that people listen to the 
truth. With their efforts and the efforts of other cruise 
victims who could not be here today, my daughter has been able 
to take her first step in the healing process. And as her 
mother, whose goal in life was to raise her four daughters to 
at least the age of 18 without being sexually abused, I have 
lived with the fact that I failed my daughter over these past 3 
years. I was not able to protect her or defend her.
    Thank you.
    [The prepared statement of Ms. Shaffer follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.040
    
    [GRAPHIC] [TIFF OMITTED] T8532.041
    
    [GRAPHIC] [TIFF OMITTED] T8532.042
    
    [GRAPHIC] [TIFF OMITTED] T8532.043
    
    Mr. Shays. Ms. Shaffer, thank you so much for your 
testimony, and the one thing I am certain is you have not 
failed your daughter.
    Ms. Shaffer. Thank you.
    Mr. Shays. It is pretty remarkable to raise four young 
ladies without a partner. Very remarkable.
    Ms. Kelly, if you would bring that mic to you?
    I just want to ask you, Ms. Shaffer, is your daughter in 
agreement that you should give testimony today or are you 
sharing this information without her consent?
    Ms. Shaffer. She is very ashamed. She has not even at this 
point----
    Mr. Shays. How about just giving me the answer?
    Ms. Shaffer. She is 18. It is so hard----
    Mr. Shays. Let me ask you the question, though. Is she 
asking you not to or is she just indifferent?
    Ms. Shaffer. She did not ask me not to.
    Mr. Shays. OK. But she didn't ask you to.
    Ms. Shaffer. She is not happy about it, but she did not ask 
me not to.
    Mr. Shays. OK. Well, we will just make sure that what you 
shared will lead to some good so that your daughter will see 
that.
    Ms. Shaffer. I hope so.
    Mr. Shays. Ms. Kelly.
    Ms. Kelly. Can you hear me?
    Mr. Shays. We hear you fine.

                    STATEMENT OF JANET KELLY

    Ms. Kelly. Thank you, Mr. Chairman, and the subcommittee 
also. My name is Janet Kelly. I would like to begin by telling 
a little bit about myself. I am a happily married woman to the 
same man, Rick Kelly. He is sitting behind me today.
    Mr. Shays. For the record, he smiled.
    Ms. Kelly. We are going on 30 years of marriage. God help 
us, huh? We live in an average size town in Arizona, and we 
have two sons, who are the love of our life.
    I am a successful realtor for a large firm going into my 
4th year of sales. My husband is also a hard-working man. We 
are a traditional family, traditional values. We work hard, pay 
our taxes, go to church, give back to our community. And, above 
all, we do obey the law.
    In February 2000--we had been beat up pretty good--we had 
lost our daughter, and my husband had a heart attack 6 months 
later. I decided to do a ``healing cruise,'' 4 days with some 
neighbors. I had hoped to relax, regroup, and return home to my 
family. It was a long overdue vacation, and I could have never 
anticipated the following: On the last night of the cruise, 
shortly before dinner, I was drugged by a bartender employed by 
the cruise line. He led me a remote bathroom marked ``crew 
members only'' and sexually assaulted me when I was in a semi-
conscious and unconscious state.
    I cannot begin to describe to you today the pain, 
humiliation, and suffering this incident inflicted on me and my 
family. Instead of being able to regroup after everything that 
had transpired in our family, we were again totally fractured.
    I did report the crime to my local authorities, who 
informed me that the FBI had jurisdiction over crimes at sea. 
But it took the FBI months to investigate and interview the 
assailant who raped me. They did not prosecute him, even though 
they had my clothing, the rape kit completed at my local 
hospital, the individual's identity, and my testimony. The 
authorities had my full and complete cooperation to do whatever 
was necessary to apprehend and bring the criminal to justice.
    After the FBI interviewed this criminal, he remained on the 
same ship. I was terrified that I had been exposed to HIV, and 
it was only after filing my civil suit against the cruise line 
that the cruise line conceded to have his tested for HIV. They 
fired him and sent him back to his homeland, Jamaica.
    I did write a letter to my Senator, along with 200 
congressional leaders. I was concerned for others' safety as I 
walked off that ship, and for good reason. I felt that the 
injustice of what happened to me has never been righted. In my 
letter I proposed the same changes, back in 2000, which I will 
again propose today.
    For the record, I would like to inform Congress that my 
assailant went on later that same year and was re-employed with 
yet another cruise line. And I am not happy about that. It was 
determined that he falsified his application and they fired 
him. But where is he now?
    This is hardly the image portrayed on the cruise line 
advertisements. Could this rapist and others like himself be on 
another cruise line? And how is it that these huge cruise 
corporations continue to operate business as usual with 
absolutely no accountability for the crimes that occur on their 
ships?
    I am going to suggest the following, and these are the same 
recommendations I had made back in 2000: U.S. Marshals be 
present on cruise ships; a main data base of terminated 
individuals and employees that all cruise lines must report to. 
I want to add here, too, that there needs to be communication 
between the FBI and the cruise lines because I think there is a 
real breakdown in that area. Changes in legislation, making 
these cruise lines safe for U.S. passengers. Warnings to 
passengers. This incident happened to me on my last night of 
the cruise, and I think that is when most people are 
vulnerable.
    In closing, over the past 6 years since my ordeal, I have 
heard too many stories about cruise victim after victim. The 
injustice of these crimes burns my very soul. Two of the people 
that disappeared on these cruise lines--George Smith and Jim 
Scavone--disappeared on my youngest son's birthday, July 5th. 
Enough is enough. Having been a victim, I feel each one of 
these families' pain. I offer all the families that have lost 
loved ones my sincere condolences. Your children's deaths are 
not in vain. By being strong and coming forward with your 
testimonies, you can give your loved ones a voice today and 
prevent the next unnecessary death. I ask that you not be 
intimidated by these cruise companies. They are big, they are 
wealthy, they are powerful. But they will bend under the weight 
of your conviction.
    I want to add I feel honored to be here today as a 
representative of hundreds of cruise victims who do not have a 
voice. And thank you for letting me speak today. I want to say 
a prayer to the Lord that you are successful in making the 
necessary changes so that crimes at sea diminish and all of us 
can get on with healing and put all this trauma behind us once 
and for all. Thank you.
    [The prepared statement of Ms. Kelly follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.044
    
    [GRAPHIC] [TIFF OMITTED] T8532.045
    
    [GRAPHIC] [TIFF OMITTED] T8532.046
    
    Mr. Shays. Thank you, Ms. Kelly. It is very admirable of 
you to come and testify today.
    Ms. Kelly. It was not easy.
    Mr. Shays. I am sure it was not.
    Ms. Kelly. I got through it, though.
    Mr. Shays. I can understand why your husband has a nice 
smile. I am sure he is very proud of you.
    Ms. Kelly. Thank you.
    Mr. Shays. Mr. Leonard.

                    STATEMENT OF IRA LEONARD

    Mr. Leonard. Good afternoon.
    Mr. Shays. Mr. Leonard, I am going to ask you to put that 
mic on top of those papers you have there and put it closer to 
you.
    Mr. Leonard. Better.
    Mr. Shays. That is better.
    Mr. Leonard. OK. Good afternoon. My name is Ira Leonard. My 
wife and I are retired college teachers. We do not represent 
any organization concerned with today's activities, nor are we 
involved in a lawsuit or possessor of any Federal grant or 
contract, now or during the last 2 years.
    Mr. Shays. Mr. Leonard, we do hear you, but we need that 
mic closer to you.
    Mr. Leonard. OK.
    Mr. Shays. I know you are a professor and so do not easily 
take suggestions.
    Mr. Leonard. We are here today because my wife and I were 
victims of a grand larceny on board a Royal Caribbean 
International cruise ship on June 2, 2004, in Bermuda. The 
Royal Caribbean International not only refused to discuss the 
theft with us, but eventually denied to an officer of the 
Federal Maritime Commission that it ever took place. This is 
the letter.
    We reported the theft early in the morning when we 
discovered the loss. Six hours later, the official search was 
conducted, and the jewelry worth $6,700 was not found.
    We filed a signed statement, using an RCI form, with the 
aid of the ship's chief security officer, William MacLaughlin. 
This is the signed statement.
    MacLaughlin told us the theft was a crime of opportunity 
and the jewelry was most likely out on the streets. What made 
it a crime of opportunity, we are convinced, was the negligence 
of the staff before the theft as well as immediately after the 
theft.
    First, there was no safe in the room. Our steward said the 
room was secure because it could only be entered with the key 
cards. The steward said there were only three people with 
access to the room: my wife, me, and himself. Yet my wife was 
issued four different key cards over a period of 2 days in 
order to have proper access to our room, which we reported in 
our signed statement.
    The first key card did not work. The second did not work 
because it was to somebody else's room. The third key card 
worked, but had my name on it, so she had to be issued yet 
another card with her name on it. The fourth card worked. None 
of the key cards were destroyed in front of her. The third card 
worked and had the last three digits, 0-2-0, of our four-digit 
room number on it, as well as our dinner seating time, 8:30 
p.m., as did her fourth key card. Anyone with knowledge of the 
ship would know exactly when we would not be in the room and 
could try rooms 3020, 4020, etc.
    Chief Security Officer MacLaughlin specifically told us 
after the burglary that the key cards should have been cut up 
in front of my wife. We feel that the key card incidents were 
evidence of negligence and lack of security. Guest Relations 
Manager Luis Martins kept dismissing the notion of multiple key 
cards as being a problem, insisting they had been deactivated 
when they were turned in. However, at approximately 3 p.m. in 
Guest Relations on Saturday after the burglary, we and several 
other passengers witnessed a crew member with a box of key 
cards cutting them up into little pieces.
    Key cards are also used as credit cards, which presents 
another security problem. On May 31st, we ordered drinks in the 
Schooner Lounge at 11 p.m., our first drinks of the evening, 
and our only drinks, handing our key card to the waitress. When 
neither the drinks nor the card had arrived by 11:45 p.m., we 
went looking for her. She said she had asked another person to 
deliver our drinks. The card with all of our information was 
out of our presence for 45 minutes. A situation like this 
presents an opportunity for burglary, identity theft, planting 
of contraband in a room, etc., if someone was so inclined.
    Luis Martins told us that our statement and the chief 
security officer's report about the burglary were being 
forwarded to Royal Caribbean International in Miami. He gave us 
their card and instructed us to contact them upon returning 
home. He also told us not to worry and to continue enjoying the 
cruise because ``Royal Caribbean has a reputation for doing the 
right thing.'' We were naive enough at the time to believe that 
Royal Caribbean International would do the right thing, but we 
no longer enjoyed the cruise.
    We repeatedly asked Mr. Martins for a copy of our signed 
statement reporting the theft and a copy of the chief security 
officer's report, but it was not until my wife told him on 
Saturday afternoon we were not getting off the ship without a 
copy of our report that he delivered a copy of our signed 
statement, but he would not give us a copy of the security 
officer's report.
    We reported the burglary as instructed to Royal Caribbean 
Representative Betty Taillefer, Personal Property Guest 
Relations, in Miami on June 9th, the day after we arrived home. 
It is at this point that the saga really began for us.
    She said she had not received any information about the 
theft from Empress of the Seas. Pursuant to our phone 
conversation with her, we faxed her a copy of our signed 
shipboard statement along with additional statements made to 
her that day and again on June 29th. Betty Taillefer sent us 
two identical RCI form letters in which she dismissed company 
responsibility, directing us to the cruise documents disclaimer 
of responsibility and officially referring to the grand larceny 
as ``an unfortunate incident.''
    We reported the theft to the Federal Maritime Commission in 
August 2004. An agent told us that the Commission sought to act 
as an intermediary and work our solutions, but it had no 
coercive power to do so. On January 26, 2005, the Federal 
Maritime Commission agent said she contacted Ms. Betty 
Taillefer, and Ms. Taillefer sent her the same form letter she 
sent us, referring her to the cruise documents. When the agent 
requested Ms. Taillefer to send her a copy of Security Chief 
MacLaughlin's report, Taillefer said she would, but it has not 
been forthcoming. Instead, Betty Taillefer faxed the Federal 
Maritime Commission this letter, which says, ``We contacted our 
vessel and no notice of incident was reported.''
    ``We have contacted our vessel and no notice of incident 
was reported.'' Yet I have here the signed report.
    Mr. Shays. I am sorry, Mr. Leonard, if you would bring it 
to----
    Mr. Leonard. We are just about done.
    Mr. Shays. OK.
    Mr. Leonard. We sent the president of AAA all of our 
information since AAA booked us and asked how AAA could in good 
conscience continue to book their members on Royal Caribbean 
International without informing them about the potential 
problems with key cards, thefts, etc. Vice President for AAA 
Travel Services Sandra Hughes sent us a letter in which she 
assured us, that our claim had been reviewed properly and 
appropriately, and AAA had ``verified that when a new key card 
is produced, the previous key card is deactivated as a security 
measure.'' I guess that is why my wife and I and other RCI 
guests saw a Guest Relations staff member busily cutting dozens 
of key cards 2 days after the burglary.
    Finally, on April 20, 2005, we wrote to Captain Howard 
Newhoff, Security Manager for Royal Caribbean International, 
asking for the official report by RCI of the grand larceny to 
some law enforcement agency. A few days later, Betty Taillefer 
called us to tell us personally that RCI did not have to report 
thefts of less than $10,000 and followed it up with this letter 
that says precisely that.
    Mr. Shays. Thank you, Mr. Leonard. We are going to go to 
Mr. Mulvaney. If you want to just----
    Mr. Leonard. I have one more line.
    Mr. Shays. Go for it.
    Mr. Leonard. This is ``bingo'' time. In this week's Time 
Magazine, Captain Bill Wright, head of RCI Fleet Operations, 
told the reporter that Royal Caribbean discloses every 
incident, even petty thefts, to authorities. We are still 
waiting to find out to which law enforcement agency RCI 
reported our grand larceny. Perhaps this subcommittee can find 
out for us.
    Mr. Shays. Mr. Leonard, we will find out for you.
    Mr. Leonard. All right.
    Mr. Shays. Because this subcommittee has some real 
questions about the accuracy of the statistics that the 
industry provides to us, so it will be a good follow-through.
    [The prepared statement of Mr. Leonard follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.047
    
    [GRAPHIC] [TIFF OMITTED] T8532.048
    
    [GRAPHIC] [TIFF OMITTED] T8532.049
    
    [GRAPHIC] [TIFF OMITTED] T8532.050
    
    [GRAPHIC] [TIFF OMITTED] T8532.051
    
    [GRAPHIC] [TIFF OMITTED] T8532.052
    
    [GRAPHIC] [TIFF OMITTED] T8532.053
    
    [GRAPHIC] [TIFF OMITTED] T8532.054
    
    [GRAPHIC] [TIFF OMITTED] T8532.055
    
    [GRAPHIC] [TIFF OMITTED] T8532.056
    
    [GRAPHIC] [TIFF OMITTED] T8532.057
    
    [GRAPHIC] [TIFF OMITTED] T8532.058
    
    [GRAPHIC] [TIFF OMITTED] T8532.059
    
    [GRAPHIC] [TIFF OMITTED] T8532.060
    
    [GRAPHIC] [TIFF OMITTED] T8532.061
    
    [GRAPHIC] [TIFF OMITTED] T8532.062
    
    [GRAPHIC] [TIFF OMITTED] T8532.063
    
    [GRAPHIC] [TIFF OMITTED] T8532.064
    
    [GRAPHIC] [TIFF OMITTED] T8532.065
    
    [GRAPHIC] [TIFF OMITTED] T8532.066
    
    [GRAPHIC] [TIFF OMITTED] T8532.067
    
    [GRAPHIC] [TIFF OMITTED] T8532.068
    
    [GRAPHIC] [TIFF OMITTED] T8532.069
    
    [GRAPHIC] [TIFF OMITTED] T8532.070
    
    [GRAPHIC] [TIFF OMITTED] T8532.071
    
    [GRAPHIC] [TIFF OMITTED] T8532.072
    
    [GRAPHIC] [TIFF OMITTED] T8532.073
    
    [GRAPHIC] [TIFF OMITTED] T8532.074
    
    [GRAPHIC] [TIFF OMITTED] T8532.075
    
    [GRAPHIC] [TIFF OMITTED] T8532.076
    
    [GRAPHIC] [TIFF OMITTED] T8532.077
    
    [GRAPHIC] [TIFF OMITTED] T8532.078
    
    [GRAPHIC] [TIFF OMITTED] T8532.079
    
    [GRAPHIC] [TIFF OMITTED] T8532.080
    
    [GRAPHIC] [TIFF OMITTED] T8532.081
    
    [GRAPHIC] [TIFF OMITTED] T8532.082
    
    [GRAPHIC] [TIFF OMITTED] T8532.083
    
    [GRAPHIC] [TIFF OMITTED] T8532.084
    
    [GRAPHIC] [TIFF OMITTED] T8532.085
    
    [GRAPHIC] [TIFF OMITTED] T8532.086
    
    [GRAPHIC] [TIFF OMITTED] T8532.087
    
    [GRAPHIC] [TIFF OMITTED] T8532.088
    
    [GRAPHIC] [TIFF OMITTED] T8532.089
    
    [GRAPHIC] [TIFF OMITTED] T8532.090
    
    [GRAPHIC] [TIFF OMITTED] T8532.091
    
    Mr. Shays. Mr. Mulvaney.

                  STATEMENT OF BRIAN MULVANEY

    Mr. Mulvaney. Good afternoon. I am appearing before you 
today to tell you about a terrible tragedy which happened to a 
beautiful young girl, Lynsey O'Brien. I want to tell you about 
this tragedy and how it could have been avoided and urge you to 
consider passing a new law to prevent it from happening to any 
other family.
    I am a childhood friend of the O'Brien family. We grew up 
on the same street. The O'Brien children and my children are 
lifelong friends. The O'Briens traveled from Ireland to the 
United States to visit with us before we took off on a cruise 
from Fort Lauderdale and returned to Fort Lauderdale.
    The O'Briens brought with them four children and returned 
with only three.
    Lynsey, who was a vibrant 15-year-old girl, died as a 
result of a bartender on the Cost Cruise line serving her 
excessive amounts of alcohol, more than 10, knowing she was a 
minor. This bartender served these drinks despite the bold 
statement in the passenger contract that ``no minor will be 
served alcohol under age of 21 years old.'' There were signs 
all over the ship to the effect that alcohol will not be served 
to any persons under 21 years of age. Despite those warnings 
and signs posted, Lynsey was served more than 10 drinks and 
died on January 5th as a result. The alcohol affected her so 
much, she was so intoxicated that it was reported she was 
vomiting over the balcony and fell overboard.
    Through this tragedy, I have come to learn how difficult it 
is for victims and their families to seek justice. I know of no 
other commercial enterprise afforded such blanket coverage as 
the cruise industry. If alcohol is served to a 15-year-old in 
the United States, the bartender would be arrested, prosecuted, 
as well as the proprietors of the business and their liquor 
license would surely be revoked from the premises. Just because 
this action took place on board a ship should not insulate the 
bartender and the company from being held accountable for their 
criminal conduct.
    The message must be delivered to the cruise lines that if 
they take passengers from a U.S. port, they are responsible to 
return them safely or be held accountable if they commit crimes 
or acts of gross negligence. I cannot imagine a worse crime 
than plying a 15-year-old girl with so much liquor she 
literally died as a direct result. What makes this utterly 
unbearable is that the cruise ships believe they have limited 
accountability for their actions.
    There can be no moral argument to changing this law, only 
commercial. The shareholders demand great protection and 
receive that. Why not the lifeblood of the industry--we, the 
passengers? I do not support overregulation of private 
industry. What I do support is a victim's right to a full and 
fair account of their unfortunate circumstance and their 
ability to seek justice without being prohibited by laws 
enacted prior to the sinking of the Titanic. The pleasure 
cruise industry has grown today and was not envisioned to be 
this great by the sponsors of this law when it was originally 
enacted. This is a growth industry. The percentage of victims 
may not change; however, the number of victims certainly will 
over the future.
    We encourage people from other countries to come to the 
United States and enjoy our country. We encourage people from 
other countries to spend money here. My childhood friend, Paul 
O'Brien, sought help from the FBI and was told that there was 
nothing that can be done because they were not U.S. citizens. 
The United States needs to change its laws so that cruise ships 
coming and going from U.S. ports such as this are held 
accountable to all people traveling on those ships.
    Nothing can bring Lynsey back, but by changing the law, 
perhaps we can save another family a lifetime of anguish 
without their loved one.
    What we ask of the subcommittee is for you to put into 
place policies and procedures on these cruise lines with teeth 
in them, not just signs that are window dressings, to be sure 
that alcohol is not served to minors. Cruise ships who pick up 
passengers in the United States should be protected by U.S. law 
so the FBI will have jurisdiction to investigate and determine 
if criminal law has been violated and so the violators should 
be prosecuted. The DOHSA should be amended retroactively, like 
the one following the airplane disaster, so there is 
responsibility to the cruise ships, the only real means of 
deterrence.
    On behalf of the O'Brien family, I would like to thank you 
for allowing me to speak today.
    [The prepared statement of Mr. Mulvaney follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.092
    
    [GRAPHIC] [TIFF OMITTED] T8532.093
    
    Mr. Shays. We thank you for your testimony. We thank all of 
you for your testimony. We will look forward to the dialog we 
will have.
    I am going to be calling on Mr. Lynch first, and then, Mr. 
Duncan, if you would like to go second. I am going to have the 
staff ask some questions, and then I will be asking questions.
    Thank you. Mr. Lynch, you have 10 minutes.
    Mr. Lynch. Thank you. I appreciate that, Mr. Chairman, and 
at the outset I want to thank you for taking the leadership on 
this issue, and I commend you for your continued efforts to 
improve security and incident responses and investigation 
aboard international cruise ships.
    In addition, I want to just take a moment to thank the 
witnesses because it is your powerful testimony here today that 
will eventually lead to changes. And we have a situation here 
that you have brought to the notice of the U.S. Congress and 
others that the heart of our problem here is that in each and 
every incident that was described here today, the cruise line 
themselves has control of the crime scene. They have control of 
the employees. They have control of the evidence. They have 
control of the notification of law enforcement authorities. And 
this situation has arisen haphazardly. It is because there has 
been a lack of focus on these very issues, and in some cases, 
it is because the incidents have been deliberately concealed 
from the public until you have testified here today and in 
other cases previously, and you have had the courage to come 
forward. I know it is very difficult for you in many cases to 
talk about your loved ones, Mr. Carver, Ms. Kelly, and others. 
And I appreciate the difficulty that must present to you. And I 
can only pledge my energies to try to help come up with a plan, 
along with the chairman, to try to introduce some law and order 
on these ships so that we can feel safe when our loved ones go 
on a cruise.
    But, Ms. Kelly, I just wanted to ask you, after you 
reported the crime in your case, do you know of any actions 
that the ship's security officers took in response to your 
particular complaint?
    Ms. Kelly. No, I know of nothing until it--well, it was a 
process, but what I did is I notified the authorities right 
away when I got home, and then I just assumed, like in America, 
that once you report something, that there was going to be 
followup. It was actually a couple weeks before the FBI 
actually went on--actually, no, no, no. It was 2 weeks before 
they came out and interviewed me, and then I just kept calling 
and trying to get answers as to what was going on. You know, 
and you would get no response. And then it was 2 months before 
they went in and actually interviewed him, but there was no 
prosecution. I mean, they did not prosecute him.
    Mr. Lynch. Was there any explanation given to you after you 
reported it, after the assailant was interviewed, he remained 
employed for a while until you brought--as I understand the 
record, it was not until you brought the civil suit----
    Ms. Kelly. That is correct.
    Mr. Lynch [continuing]. That he was actually discharged.
    Ms. Kelly. That is correct. If I had not done what I did--
and it was my one and only lawsuit. I don't believe in suing 
people, truthfully. I mean, I am not going to sue over a hot 
cup of coffee. This is not in my nature. But had I not done 
that, he could have still been working there all these past 6 
years. It was only because of that action that he was actually 
terminated. Law enforcement totally failed me. I am sorry, but 
it did. And, actually, there was an investigation--or when I 
wrote Senator McCain, he forwarded my letter to the FBI, and 
they have some oversight--I don't know the name of who, you 
know, looks into their investigations to make sure that the FBI 
is doing their job properly. And they just determined that 
there was very little they could do because the individual did 
not deny it. He admitted it. But he said it was consensual. 
Well, it was not consensual. I was raped.
    So, rape is a bad crime, and unfortunately it looks like 
you are the bad person. But, you know, so that is basically 
what happened.
    Mr. Lynch. I appreciate your courage in coming forward.
    Ms. Kelly. Thank you. Let's just hope it does some good.
    Mr. Lynch. I really do.
    May I ask you--and you may not be aware of this--did the 
FBI disclose if there was a mutual assistance agreement, a 
memorandum between them and the registered jurisdiction in this 
case?
    Ms. Kelly. Repeat that again?
    Mr. Lynch. What flag were you flying under in terms of your 
ship?
    Ms. Kelly. Because of--when I sued civilly, one of the 
terms of my statement was that I was not at liberty to disclose 
the cruise line.
    Mr. Lynch. OK, OK. I am sorry.
    Ms. Kelly. No, that is OK. The cruise ship--no, I need to 
say that because I want it on record, or the terms of the 
settlement.
    Mr. Lynch. OK. I can get that from another source.
    Ms. Kelly. But you know what? Like I said, no regrets, 
because had I not done it----
    Mr. Lynch. Oh, absolutely. Undoubtedly----
    Ms. Kelly. But it would have been easier to bury my head 
and just tuck my head in the sand and say that it did not 
happen. That would have totally been the easier way to take.
    Mr. Lynch. OK. Mr. Chairman, I know you have questions. I 
am going to yield back.
    Mr. Shays. Thank the gentleman. At this time the Chair 
recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Shays. I have appointments set 
up every 15 minutes this afternoon, with more still to come, 
before I knew about this hearing. But I did read the testimony 
of all of the witnesses, and certainly each of the witnesses 
has had a very terrible tragedy occur. I have four children, 
and I have always heard the worst thing that can ever happen to 
anyone is to outlive one of their children, and I certainly 
sympathize with that.
    The only thing that I see is that, I mean we should be able 
to agree on some steps, like immediate notification of crimes 
and things like that. Maybe there should be some sort of 
requirement about signs being posted on these ships that would 
say something to the effect that while the incidence of crime 
on ships is extremely, extremely low, if you are the victim of 
a crime, that it is to be reported immediately to the ship's 
captain, and immediately reported by them to the authorities on 
shore, and there may be some other steps that we can take, but 
certainly, we want to do what we can within reason, whatever 
that might be. That is all I have, Mr. Chairman. I do not 
really have any questions.
    Mr. Shays. Thank the gentleman, and I agree with him, I 
agree with you and your points. Let me at this time recognize 
our counsel and the director of this subcommittee for some 
questions, and then I will be having some questions.
    Mr. Halloran. Thank you. Mr. Mulvaney, Mr. Leonard, Ms. 
Kelly and Ms. Shaffer, as witnesses who actually were on a 
cruise, could you describe for the subcommittee what you knew 
about security when you got on the ship. Was there written 
information provided to you? Were there signs or pamphlets? 
What kind of security awareness did you have when the cruise 
started as opposed to when it ended?
    Mr. Mulvaney. We had no idea of the dangers involved in a 
cruise, and it was only enforced after this incident, looking 
back on it, that you see the shortfalls within the cruise 
industry. And I was under the assumption that it was a safe 
environment. You heard one of the Congress Members mention 
early on about a party ship. What we actually went on was a 
family cruise vacation on a family cruise ship. we didn't go on 
a party ship, and----
    Mr. Halloran. If as you are sailing and there was an 
incident, you saw something wrong, maybe you smelled marijuana 
or thought you saw a crime happening, was it clear to whom you 
would report that? Was there somebody----
    Mr. Mulvaney. No, no. Neither was there any education or 
any literature on getting on the cruise ship, which if 
something was to occur, also like a man overboard policy or 
whatever it may be, who you actually notify or what went on, 
that was part of our confusion and problem on the evening our 
incident happened. We ended up ringing guest services. We 
didn't know who to get in touch with.
    Mr. Halloran. Mr. Leonard.
    Mr. Leonard. We had no idea about specific security issues. 
We were lulled into believing that this was really secure, as 
is evidenced by the fact that we never took jewelry or anything 
valuable when we went on a trip to Europe or anywhere else. So 
the jewelry that my wife took, she took because we had been 
assured there would be a safe in the room, this was a secure 
ship. I brought my tux because we were lulled into this idea, 
seduced into this idea there would be formal nights and there 
would be fun, and everything would be secure. Then, lo and 
behold, there was no safe, although the ship was completely 
refurbished a couple of months in 2004 before we got on it. It 
had been the Nordic Princess, then it became the Empress of the 
Seas. So at least 30 to 40 percent of the ship, according to 
the Guest Manager, Luis Martins, didn't have safes, and so it 
was a question then of going up for a half an hour at least to 
Guest Security, waiting in a line to put anything into the 
safe, and then waiting for another half an hour to take 
anything out of the safe, and, frankly, we didn't get on the 
ship in order to be waiting on lines to put things here and 
there.
    So we were very secure when after the burglary we reported 
it, and then 6 hours later everything started to fall apart. 
They could not secure the room and investigate for 6 hours.
    Then when the Secretary Officer, Mr. MacLaughlin, came in, 
he said that there should have been things done differently.
    Mr. Halloran. But before the robbery, was it clear who 
Security was on the ship? Could you----
    Mr. Leonard. No, no, absolutely not. I guess it is supposed 
to be even after September 11th obscure so that terrorists are 
not aware of how they might be surveilled, but I didn't notice 
anything. The only place that I ever had a sense that there 
might have been some big, large guys looking, was in the 
casino. Other than that, I never had a sense that there was 
anything. It was all very unobtrusive. There was no sign 
anywhere. There was nothing in the cruise documents, although 
we are now absolutely convinced that there should be a sign on 
every cruise ship, ``Enter at your own risk,'' and that AAA and 
all other bookers should provide information that you should be 
aware that a ship is not completely secure, and you can be 
robbed or raped or brutalized, and that you might not have any 
recourse because the company has protected itself by requiring 
you to sue them in Miami, FL or in their headquarters, which 
makes suing rather expensive.
    Mr. Halloran. Ms. Kelly.
    Ms. Kelly. Thank you for asking that question. I didn't get 
a real strong sense of security. They have you sign all these 
disclaimers when you get on. I am like, what the heck? I 
thought, well, we are going to have some fun here. But, you 
know, even the paperwork that they have you sign is very 
intimidating.
    I remember something about seeing something about a doctor 
when I got to the room. I don't remember if it was something 
posted or if I read it. My particular incident, when it 
happened, it was the night before, and then when I woke up that 
next morning, I was so traumatized, if I could have crawled 
underneath the carpet, so help me, God, I would have. And I was 
afraid for my own safety. So even though I had read or saw 
somewhere that there was a doctor on board, I would be damned 
if I was going to go to him.
    So, in retrospect, even though I didn't report it on the 
cruise line, I am glad I didn't. I think I did right. My 
instincts served me right by just getting off there, and 
everything in my instinct said ``Get off and get out of there 
in one piece,'' so that is what happened.
    Mr. Halloran. Thank you.
    Ms. Shaffer.
    Ms. Shaffer. I really can't remember. That wasn't my 
complaint, about the lack of security. It was the way it is 
handled, their procedures of how they handle, and how they 
cover up, and how they listen to you to find the loopholes to 
cover up what happened so that they continue to look good.
    Mr. Shays. I am not clear by your response. They look for 
ways to?
    Ms. Shaffer. They look for ways to weasel out of taking 
responsibility for helping solve the crime.
    Mr. Shays. Can you give me an example of what you mean?
    Ms. Shaffer. Well, for instance, when I took my daughter 3 
days in a row, asking for an examination, a rape examination, 
and the doctor would just sit and stare at me, and sit and 
stare, and stare, and stare, and stare, and never anything--he 
said to me that I was traumatizing my daughter.
    Mr. Shays. Right. Let me ask you this. Your daughter came 
in to see the doctor, but she was requesting that she not be 
examined?
    Ms. Shaffer. No, she wasn't requesting. She was just in 
denial that she had been raped. She was----
    Mr. Shays. Just so that I can see the scene.
    Ms. Shaffer. She did not refuse to be examined.
    Mr. Shays. Was your daughter with you when you went in?
    Ms. Shaffer. She was with me.
    Mr. Shays. Right, that is what I thought, but--so she was 
neither saying yes or no. She was just traumatized.
    Ms. Shaffer. She was just saying no, she hadn't been raped, 
that nothing had happened. And she was crying, but she was 
willing to be examined.
    Mr. Shays. OK. And he or she chose not to----
    Ms. Shaffer. He chose not to.
    Mr. Shays. Thank you.
    Mr. Halloran. Mr. Pham, Mr. Carver, in sort of different 
circumstances, but if you could describe in a little more 
detail, the problems with getting information from the company 
about, in the case of your daughter and your parents? In a 
sense they had lost precious cargo you had put on those ships. 
What was the explanation that was given as to where your loved 
ones were?
    Mr. Carver. When we finally got to them, they had disposed 
of her personal items. If you look at their regulations they 
say they are to keep items for 3 months. We are talking to them 
in 3 weeks. We asked up front was there any video of Merrian, 
and the answer was, ``We only keep them for 2 or 3 weeks, and 
you got here too late.''
    Mr. Halloran. Excuse me. I just want to be clear on that. 
They actually had videos. They knew your daughter was missing. 
They had videos and they destroyed the videos?
    Mr. Carver. Well, let me finish the story. In fact, that is 
what happened. They denied to us that they had videos, and they 
said they only keep them 2 or 3 weeks and we got there too 
late. We sent somebody on the ship on November 4th, a 
detective. They said the same thing. There was no review of the 
video concerning Merrian, and we only keep them 2 or 3 weeks. 
But if you look at the documents in my supplemental statements, 
on their stationery, on September 23rd, Security is reviewing 
the videos. And if we look at documents written that they wrote 
on April 9th, the videos are not destroyed in 2 or 3 weeks, 
they are on a 30-day cycle. So in other words, on the 26th day 
of a 30-day cycle, they were looking at the videos.
    Mr. Shays. Let me ask you this. Did they say any of this in 
writing?
    Mr. Carver. It is all in writing.
    Mr. Shays. So their own information----
    Mr. Carver. Yes. We have their own internal documents. They 
are sitting on the table over here, where they are reviewing 
the videos, which they said they did not review, and it is all 
documented. Very discouraging. And, of course, those documents 
which we have brought, they are talking to the steward. Three 
times he is talked to by the head of the hotel, saying, ``Do 
not discuss this with anybody. It is a serious problem.'' And 
he is reporting that to the management in Miami, FL.
    Well, for us to finally get to that individual took us 
until January 16th to get his testimony, only after we had gone 
to court, gotten court orders, because they were clearly 
setting up in the 3rd week in September, the cover over, and 
they also discussed how they are disposing of her items. Now, 
why would you dispose of items, a brown manila envelope, 
putting them maybe in lost and found--they don't know what they 
did with it--why would you destroy it? They knew who the 
passenger was.
    Mr. Halloran. So you first contacted the company at what 
level?
    Mr. Carver. Well, we called Miami. Then a representative of 
risk management came back to us the third week in September.
    Mr. Halloran. And then what, and then the lawyers got 
involved? Because Mr. Leonard describes another kind of series 
of people and offices he heard from. Did you hear from a number 
of people in the chain?
    Mr. Carver. Well, we basically were talking to a woman 
named Katie with risk management. She was the go-between, 
literally telling us lies for the whole time. She was the one 
person that everybody zeroed into. When detectives went to her 
in October, said, ``Was there any incident on this ship that 
the steward have reported?'' She said, ``No, absolutely none.'' 
There is a copy of a letter that I wrote to the board of 
directors giving her quote to our detective. They wouldn't even 
tell us the name of the steward. But she was clearly, I can 
only say, lying to them, because in fact, they had talked to 
them. There had been a hearing on the ship. They had fired the 
supervisor for gross dereliction of duties, and she is 
pretending that nothing happened.
    In a report to the FBI, dated September 30th, she makes a 
statement, ``There was no Oscar, Oscar, Oscar emergency on the 
ship.'' Well, there had been. They lost a passenger. They had 
had meetings, and yet that is what she is reporting to the FBI. 
It is my understanding, to write a misleading statement to the 
FBI is illegal, to deceive them. That, in and of itself is a 
crime.
    Mr. Halloran. It is called obstruction of justice in many 
places.
    Mr. Carver. That is what I said in my report.
    Mr. Halloran. Mr. Pham, what was your experience?
    Mr. Pham. Well, I have very little to say, because after 
the ship came back and they washed it, and they loaded the next 
group of passengers and they said. Since then we heard from 
them only once. The FBI concluded the investigation the end of 
August, supposedly couldn't find any foul play. We're still 
working on getting the detail of that investigation, but pretty 
much, you know, I don't think Carnival even knew we were there. 
I don't think they know who we are. I don't think that they 
know they have two passengers that left with them, paid the 
full fare, never came back, I don't think so.
    The one time I finally got through one time to the office 
of the president of the Carnival Cruise Lines in Miami and 
talked to the Customer Service Manager from the Office of the 
President, and after 2 days, and she said, ``Well, let me check 
with Legal before I can talk to you,'' and she got back, and 
now I learned a new term. In the dictionary it is called 
``lawyer up.'' Because that is exactly all she cared for when 
she called me back, to say that, ``Mr. Pham, we couldn't tell 
you what to do. We couldn't tell you what happened. Very rare. 
This never happened before.'' Let me tell you, it happened in 
December 2004. Somebody disappeared on one of their ship. And 
they could have told me, ``Well, this is what you should do 
next,'' and so on. They refused to acknowledge we were there.
    You know what? Not a lot of people have the means to go 
after these cruise lines. My parents lost. They worked very 
hard for their money, and it is not fair for the State--and for 
all of us just to find out the truth, we have to hire an 
attorney, we have to pay all of that money to find out what 
happened to my mother and my father? That is not the America 
that we came to that we learned, and so that is all I have.
    Mr. Shays. Let me just use your comment as just a matter 
that I want to state for the public record. When we started 
this investigation because of George Smith and Ms. Hagel Smith, 
we wanted to know what had happened and how they were treated. 
And in the course of doing that, Mr. Carver came to our first 
hearing, and I felt his story was beyond my comprehension, 
basically a father who has to spend money to find out what 
happened to his daughter. And all along the way there were 
breakdowns. It wasn't that the steward didn't do his or her 
job. Was it a man or woman, the steward, do yo know?
    Mr. Carver. He was a man.
    Mr. Shays. Did his job, and he reported it to a supervisor. 
And then we are being told, well, basically, that was a 
mistake, and he was let go, a serious mistake. You would think 
at that moment in time, there would be just absolute full 
cooperation. You would think almost that the head of the 
company would come on bended knee to you, Mr. Carver, and say, 
``Whatever happened to your daughter, we apologize. Now, how 
can we cooperate so that you don't go through any more pain?'' 
Even in fact, obviously, Mr. Carver, if your daughter had 
committed suicide, but that is irrelevant to your being able to 
get the facts you need.
    So the point I want to make to all of you is, one, we want 
to help each of you in the cases where it is still outstanding, 
get all the information. We want to ensure that the cruise line 
fully and completely cooperates. Their failure to cooperate 
with you is a message to this subcommittee that they have 
things to hide, which only means that we will be more vigorous 
in pursuing this investigation. Their willingness to cooperate 
with you and with this subcommittee means that we can work 
together and solve whatever problems may exist.
    So, one, I would want you to know that this subcommittee is 
asking publicly all the ships involved and the cruise lines 
involved to fully, completely, without hesitation, without any 
reluctance, cooperate and ease your pain, and help you. But 
also in the process they will help themselves.
    Mr. Pham, the implication that we have received and read 
was that your mom and dad committed suicide, that their shoes 
were strategically placed, and it appeared like they just 
jumped overboard. There is nothing that you have told me that 
would indicate they would have any reason to, particularly at 
an event like that event. No note saying goodbye.
    Mr. Pham. As a matter of fact, I was in California a month 
ago to open--finally, we got the death certificate. I filed a 
petition with the Superior Court of Orange County, CA, and I 
got 5 percent chance that a judge would approve. And instead of 
waiting for 5 years, I finally got the death certificate and 
opened the safe deposit a month ago, and everything, 
everything--and not only that, but----
    Mr. Shays. Finish everything, everything, what?
    Mr. Pham. Everything was so normal, and they lived their 
lives, and we have so many unfinished--Mom and Dad had so much 
unfinished business. One thing I didn't verbally mention 
earlier, but it is in the record, that last November my parents 
left--when we left our mother land, our Vietnam, for 30 years, 
and it took them 30 years to finally have enough closure, 
enough closure, wanting to go back to Vietnam. I travel there a 
lot of times for charity work and business, and finally, in 
December 2004, Mom and Dad said--I asked them again, I said, 
``Mom, Dad, are you ready?'' And I could tell in their voice 
that, yes, I am going with you next time.
    Since then, 2 days before Mom and Dad boarded the flight to 
Chicago for their vacation, and Mom was on the phone with me 
and worried about some dumb thing, that, you know, when we 
arrive in Saigon in November, you know, if the car is big 
enough for our luggage. For them, waiting that long and go back 
and see their relatives, that is something that they would not 
want to leave this Earth before doing that.
    And I had the honor and privilege, bringing my parents 
back, which had never happened to me. It is something that I 
will never forget the rest of my life. You know, nine 
grandchildren, and on top of that, after I opened the safe 
deposit box a month ago and saw everything was normal, the last 
time my father went in that safe deposit box was in December 
2004, so nothing planned. I forgot--I didn't forget. It is in 
the record also--that we have a grandfather--we left our 
country without anything, and so family means a lot to us. My 
grandfather is 94-years-old. He is laying in bed now in a 
nursing home. He couldn't move. He couldn't speak. And I have 
no idea what is going through his mind about what happened to 
his children that never came back to him. Mom and Dad the only 
people that took care of my grandfather, and now they 
disappeared, they are gone. And none of us live in California.
    You know, we have so many things going for us that, you 
know.
    Mr. Shays. So the bottom line to this is there was no 
indication earlier on, no previous attempts to end life.
    Mr. Pham. You know what? If Mom and Dad did that--and they 
are not that type--that would be the cruelest thing, to go on a 
cruise, a mother's day present, with your daughter and your 
granddaughter and left them. You know, my parents, we--I was 
waiting for somebody to----
    Mr. Shays. Let me just say you have the opportunity to say 
whatever you want. I was thinking of your imagery of having to 
be in the open sea with your parents leaving Vietnam and how 
dangerous that was, and the incredible, unbelievable 
circumstance that finds you on the water again, where your 
parents are now missing, and the way you appear to be treated. 
I just want to say to you that we will ask whatever question we 
need to ask to give you an opportunity to say what needs to be 
put on this congressional record under oath, under oath.
    Mr. Pham. Well, Mom and Dad look over us all the time, and 
I know they're looking over me today, and since they left, and 
so we have access to some information that's very important, 
I'm sure, to the cruise line, to everybody and to us, that the 
event happening immediately after the discovery of my parents' 
disappearance. And so, there's no way I could sit here, or 
anyone in this room could sit here, with the exception of the 
representative from the companies that operate these cruise 
lines, to say that what kind of procedures you have in place, 
and did you follow those procedures, and why didn't you? 
Because, see, there's no way for us to find out what happened 
to Mom and Dad if they goof from the very next second after 
they were told disappear. And I don't know if they goof on 
purpose, intentionally, unintentionally. We don't know. And 
maybe 1 day, justice can be done to our family, where we can 
sit face to face across and get the truth. And we've heard that 
word, the truth, over and over and over from that side and from 
this side. We want to know the truth. We can't change anything 
unless we know the truth.
    Mr. Shays. Thank you.
    Mr. Carver, let me just put on the record, because it will 
be stated outside this hearing, your daughter evidently had 
tried to end her life at a previous time?
    Mr. Carver. Going back several years ago after divorce 
and--one time.
    Mr. Shays. So it is not your issue of whether or not she 
chose to end her life, or in fact, did, it is the issue that 
once she was determined missing, you and your family should 
have been notified immediately, and there should have been an 
effort first to find her, whether or not she had chosen to, if 
that was the case. So I think it is pretty much on the record. 
It is just an amazing story, both of your stories are amazing.
    Mr. Lynch, would you like some questions?
    Mr. Lynch. Yes.
    Mr. Shays. Let me give you time to ask questions.
    Mr. Lynch. Thank you, Mr. Chairman.
    I would like to ask all of you. I have talked with folks 
that have been in this situation, and none of them approach the 
pain and the experiences that I hear about today from all of 
you, but the nub of this problem is there is no accountability, 
there is no liability. The incentives for the cruise line to 
hide information and to conceal information, and to not report, 
it is a financial incentive for them to do that, because if 
people found out, it would hurt their business. So there is a 
disincentive for reporting. There is a gap here. The FBI is not 
required, in a formal sense, to keep track of every single--
even though safety of life at sea gives jurisdiction, and the 
maritime regs allow the FBI to exercise jurisdiction, the 
strength of that jurisdiction and their authority often depends 
upon the memorandum of agreement, the mutual assistance 
agreement with the individual country whose flag is being flown 
by that cruise ship.
    It seems to me that at the very beginning, and I want to 
hear your own thoughts on this, but at the very beginning we 
need to have someone, someone needs to be responsible for 
reporting these incidents, and there have to be grave 
consequences, grave consequences, from the captain of the ship 
to the operator. There has to be grave consequences when an 
incident occurs and it is not fully reported to begin with.
    In talking with other people, and trying to create this 
accountability, they have suggested different things to me, and 
I want to hear your input on it. Some have suggested that 
because there was no U.S. law enforcement on a ship, that there 
was really no accountability for a U.S. citizen. And people 
were saying to me, we should have at least one officer on a 
ship. If they are calling on a port in the United States of 
America, there should be a U.S. law enforcement person on that 
ship.
    Other people have said that when a ship returns and there 
is a passenger missing, there should be immediate removal of 
that captain subject to the investigation, and that would be a 
serious consequence to the cruise ship line in having their 
captain removed. Others have suggested, in taking children--and 
I know a number of incidents have occurred with children--is 
putting actual tracking devices on passengers when they come on 
the ship, so that in the event that someone does go overboard, 
and a couple of witnesses have said, we don't know if they made 
a mistake or whether there was some deliberate concealment here 
of the incident, and then they were embarrassed to go back and 
admit they had made a mistake.
    Also, I have heard in a similar case with some of the 
witnesses here about these confidentiality agreements, and do 
we simply, in part of our response say, where someone has gone 
missing, there shall be no settlement that contains a 
confidentiality agreement that puts a gag on innocent American 
citizens from reporting a horrible wrong that has been done to 
them.
    Again, going back to the reporting, make sure that it is 
mandatory, that it is reliable, and that people who are in your 
circumstance, my sisters, I have five sisters. They take 
cruises all the time with their kids. They are nuts about it. 
But in doing something like that with your family, there should 
be a report card, a report card of the ship line that you are 
traveling with, so that you can--you know, they have it on the 
Internet quite a bit now, different companies, a score card, a 
consumer report on incidents and people who have been--well, 
people who are very happy with the service they received, 
versus people who are dreadfully disappointed with the way they 
had been treated as a customer, and that is another mandatory, 
sort of shining a spotlight, an open air type reporting 
requirement that could be available to people.
    I want to hear your thoughts in terms of any of those ideas 
that you think may be warranted, Mr. Carver?
    Mr. Carver. Well, we've proposed many items here, but there 
is a simple solution that can solve the cruise line problem 
tomorrow. There's something called a board of directors of that 
cruise line, and let's take the case of Royal Caribbean. They 
are under the New York Stock Exchange Rules. They have a 
fiduciary responsibility, in my opinion--I'm not a lawyer--to 
protect the safety of the members of the crew.
    Now, in the case of Merrian, there's a letter sitting over 
there. I wrote the board of directors. I gave them the 
depositions. I proved the cover-up. Now, when you're on the New 
York Stock Exchange, after Enron, I don't think you can clearly 
ignore those issues. You can't just push it down to somebody in 
risk management and say, ``Hey, take care of Carver.'' You have 
a fiduciary responsibility for the safety of those passengers, 
as I see it as a non-lawyer.
    Now, they could make changes immediately, and if in fact, 
they realize that they have that fiduciary responsibility, they 
might act a little bit quicker. They might take some steps they 
haven't taken. There's a company called Enron that took a lot 
of time to cover up the books, and the board said, ``We didn't 
know what was happening.'' I think the accounting rules have 
changed. I'm not sure you can do that anymore.
    Mr. Pham. You know, I found something very interesting a 
couple days ago. I went to the State Department travel Web 
site, travel warning. And there's a couple warnings there I bet 
you a lot of people in this room wouldn't know. One is the 
spring break coming up in the Bahamas area, and one is the 
spring break coming up in Mexico. You know, that's the duty of 
the State Department.
    Now, why did I look up? Because after my parents' 
disappearance, I worked a lot with the Bureau of Consular 
Affairs, try to get presumption of death on the high seas 
document from the State Department to help us with the death 
certificate issues. But, you know, what's the difference? If 
these ships leave our port, bring U.S. citizens into 
international waters, to other shores and things of that--and 
these incidents happen on these ships. And if they don't report 
it, if they don't have to report it, if nobody monitor it, they 
don't have a--keep the statistics--they don't have to do all 
those things. Why there's an exemption there? We don't 
understand. So maybe you can take that into consideration. 
Thank you.
    Mr. Lynch. Thank you, sir.
    Ms. Shaffer.
    Ms. Shaffer. Well, I would just like putting up a big sign 
when you enter the ship, saying, ``Enter at your own risk.'' I 
think they're very dangerous. I think the statistics that they 
have are bogus, and they don't hold up. And it's very 
dangerous.
    What I would like to see is that the public, the general 
public becomes aware of the dangers, and when you take a trip 
aboard a cruise, that you're informed of the dangers, and that 
there's regulations put on children, curfews. Children should 
not be being served. My daughter was 18 when we were on the 
ship, and she was getting drunk every night in the disco. She 
was being served alcohol. So when I was on the cruise, I felt 
perfectly safe, and so I had no idea of the risks or the 
dangers, or this would not have happened. I am not a liberal 
mom. I'm a very conservative mom, and I pay close attention to 
my children, and this should have never happened. I just 
blinked my eye, and there it is.
    Mr. Lynch. Thank you.
    Ms. Kelly.
    Ms. Kelly. Yes, I would like to add a couple things. No. 1, 
I think that idea of a microchip is just outstanding, just 
personally. I mean I know this is an outrageous statement, and 
you're probably going to think it's outrageous, but I mean, 
there could feasibly be a serial killer on one of these ships. 
Because they're not reporting to one main data base, and when 
somebody gets terminated, like in my case, and they just go 
back to work for another cruise line, I mean you could have a 
very serious criminal on one of these cruise ships. So anyway, 
I just really like the idea of the microchip because I just 
think that's a good idea as a tracking device.
    Also, the U.S. Marshals, just to give you a little bit of 
background, I have 12 years in banking, and when I was a 
teller, and I know this sounds simple, but we had these secret 
shoppers. So when I waited on somebody I didn't know if they 
were a secret shopper and they were checking me to see if I was 
doing my job, or if it was just a regular customer. I think by 
having U.S. Marshals on those ships, even if it's random, I 
think it would be of great importance because those bartenders, 
those--I don't know how many, 52, or how many other bartenders 
are on the ship, they wouldn't know if they were, you know, 
serving a U.S. Marshal or if they were serving a Janet Kelly. 
So I just think that would be huge. I think it would just 
totally raise the accountability. I just think it would be 
awesome. So that's just my thoughts.
    Mr. Lynch. Thank you, Ms. Kelly.
    Mr. Leonard.
    Mr. Leonard. I see that there are really two broad kinds of 
questions or issues. One concerns cruise line safety and the 
company's treatment of guests on the one hand and the threat of 
terrorism on the other. Now, I think to some extent both would 
be somewhat lessened as a problem if there was an agency to 
which the Congress directed the companies to provide all 
documented cases of crime which could then be made available to 
the general population through a Web site or which travel 
agents would be aware of.
    Second, this would obviously require some sort of change in 
Federal law, because to some extent it seems the lack of 
accountability is part of the reason why these things take 
place, and that lack of accountability seems to be a byproduct 
of either the companies thumbing their noses at Federal law, or 
simply that there is a legal twilight zone where they can pick 
and choose what laws they will follow.
    Part of public disclosure would be to make sure that 
passengers who have a documented case of a crime on shipboard 
get a copy of their report and the security officer's report, 
who investigates. Now, the business about the key cards is, I 
think, rather crucial. When my wife and I were in France in the 
summer of 2001, we noticed virtually everywhere we were, when 
you gave a waiter a credit card, he had a little machine, and 
he ran the card through it right in front of you, gave the 
receipt, which you signed, and your own receipt, right there 
and then, so that on ships that kind of technology, which is 
well proven, should be used so your credit card is never out of 
your hands when you use it on the ship. Remember, on a ship you 
are not in a hotel. You just cannot walk away and go down the 
street.
    Now, insofar as terrorism is concerned, I think there has 
to be, obviously, some kind of tightening up concerning 
security, and this is at the larger level, the macro level, but 
also at the micro level. If you can get into somebody's cabin 
because of a key card being played with, then you cannot only 
steal property and personal identities, you can also place 
contraband inside that cabin, which might go off, as it lands 
in Bayonne, NJ in the Port of New York, or it is smuggled into 
the country by some unwitting guest on a ship because he or she 
doesn't even know there's something in his luggage. So the 
whole question of control of the key cards and making sure that 
they are the least likely way to lose your security, that 
anybody can somehow get into your cabin, has to be ensured. And 
there is no reason why every bit of information to potential 
thieves and others is on these key cards, telling them when 
you're going to dine, so if you know when somebody is going to 
go and eat, you can know exactly when the person is not going 
to be in the cabin.
    Mr. Lynch. Thank you, Mr. Leonard.
    Mr. Mulvaney.
    Mr. Mulvaney. I like the sea marshal idea, and we could 
charge the passengers for creating employment. But I think the 
real problem lies with the DOHSA law, and that means 
accountability of the ships. Some of the current laws have no 
incentive whatsoever to reform or to do anything----
    Mr. Shays. Mr. Mulvaney, talk a little slower. Given that 
he is from Boston, he understands you really well.
    Mr. Lynch. I could translate for you, Mr. Mulvaney. 
[Laughter.]
    Mr. Mulvaney. I will go back to the start. The sea marshal 
thing I like, and some of the other good ideas, but I think the 
problem lies with the DOHSA law itself. The DOHSA law affords 
the cruise industry too much blanket coverage. If you change 
this the ships have an incentive themselves to enforce certain 
laws on the ships and make sure that they no longer have that 
protection. Their insurance premiums naturally will rise. You 
know what I'm saying? But they will certainly have a fear of 
going out and doing anything, that if it ends up in U.S. court, 
they will be held responsible.
    As far as somebody on board the ship needs to be in charge. 
If we have the captain in charge, the captain works for the 
cruise company. We're going to have the fox minding the hen 
house. He's there to make a profit for the ship. In Mr. 
O'Brien's specific incident, you had marked everywhere, ``No 
alcohol served to minors.'' You had it on the ship's contract, 
no alcohol. It is the law here in the United States, no 
alcohol. Yet the ship's bartenders serve minors alcohol. We've 
heard that statement from another guest here today also.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Shays. We have two more panels, but I do want to just 
ask a few more questions, and I thank you for your patience.
    Ms. Kelly, I am going to ask you some questions that I do 
not know the answers to. I am not trying to prove your point or 
disprove your point, but I do want to understand. I don't want 
to assume.
    Ms. Kelly. OK.
    Mr. Shays. You say that you were drugged. Was that 
documented that you were drugged, or you believe you were 
drugged?
    Ms. Kelly. OK, both. Well, no. I tried to document it. I 
went, and when I reported it to the hospital, I mean, it was a 
9-hour emergency room.
    Mr. Shays. Talk a little slower.
    Ms. Kelly. OK. It was a 9-hour emergency room visit. It was 
very traumatic.
    Mr. Shays. And this was right after you got off the ship?
    Ms. Kelly. No. When I got off the ship, I got in a cab, I 
went to the airport. And there, I think the realization of 
everything that had happened, plus the effects of the drug, I 
was very sick, I was very traumatized, so I was hysterical, if 
you will.
    Mr. Shays. Were you with other family members?
    Ms. Kelly. Yes, I didn't have any family members, and I 
didn't really have any close, close friends. They were just 
neighbors and acquaintances. So anyway, what I did is I tried 
to contact my counselor, because I had been seeing a counselor 
from when we had lost our daughter.
    Mr. Shays. Yes.
    Ms. Kelly. But I couldn't reach her, and who I ended up 
reaching was my best friend from sixth grade, and she said, 
``Janet, get on an airplane.'' I told her what happened. I'm 
crying, sobbing. If I would see somebody in an airport terminal 
like myself, I would have been taking their hand and taken them 
to an authority. But unfortunately, nothing was done at that 
point, because there I was on safe ground.
    Mr. Shays. But you can describe that you were somewhat in a 
fog as this----
    Ms. Kelly. I know I was drugged. Mr. Shays, I know I was 
drugged, for a number of reasons. No. 1, I only had two drinks.
    Mr. Shays. Was there anyone else that was with you that saw 
you being taken away?
    Ms. Kelly. No. But you know what? Interestingly enough, 
after I was drugged and I came back--and what happened was, 
this is all right before dinner. Like I said, I'm not a heavy 
drinker. I came back to my cabin, and it's weird how it is when 
you're drugged, but it's kind of like you're in a dream state. 
That's the best way I can describe it. I made my way back to my 
cabin, and I passed out face forward on the bottom bunk, wasn't 
even my bunk, and I was just out cold.
    But to answer your question, I know I was drugged because 
I've read the effects of the drug, and I was very sick for 3 
days after. I probably only had one meal. I had severe 
diarrhea. I know I was drugged. There's just no doubt in my 
mind.
    Mr. Shays. I hear you. It just helps if it can be 
documented.
    Ms. Kelly. Exactly right, exactly right. No, I understand 
that.
    I'm sorry. What was the rest of your question?
    Mr. Shays. But you basically told me that----
    Ms. Kelly. Oh, yes.
    Mr. Shays. And there was no proof of semen or anything like 
that?
    Ms. Kelly. Well, you know what? Here's the thing. If they 
had it, they just dismissed it because of the fact that they 
said--see, he admitted it. As a matter of fact----
    Mr. Shays. Oh, he did admit it.
    Ms. Kelly. The bartender admitted it, and he actually said, 
``Did I hurt her?'' This was the morning after. The girl I was 
with, one of the gals I was with, went and approached him.
    Mr. Shays. So what he admitted to was breaking company 
policy, but he did not--this was an employee of the--so company 
policy is that you don't interact with----
    Ms. Kelly. Oh, no.
    Mr. Shays. So he's admitting to breaking company policy,
    Ms. Kelly. Correct.
    Mr. Shays. So grounds for dismissal, but he is not 
admitting that there was a rape that took place, obviously.
    Ms. Kelly. What he says, and what the FBI said, is that he 
said it was consensual. He doesn't deny that we had 
intercourse.
    Mr. Shays. Boy, that would drive me crazy.
    Ms. Kelly. So the thing that makes me crazy about the whole 
thing is if it would have happened here, I mean, there would 
have been repercussions. I mean he would have been prosecuted. 
I would have made sure of it. But because of how--anyway, to 
answer your question though about the hospital, I had called a 
rape counselor, which I'm glad I did it because she told me 
what to do, and she guided me. When I went to the hospital I 
was educated on rape. I was like, OK, you have to take my 
blood, and you have to hurry up, and there's people having 
heart attacks and all this other stuff going on.
    Mr. Shays. May I ask you, well, the bottom line is you 
experienced what evidently a lot of college students 
experience.
    Ms. Kelly. Correct.
    Mr. Shays. But you were older than a college student.
    Ms. Kelly. But you know what? The unfortunate thing is that 
drug, it leaves your blood system right away, and that's why 
they use it, OK. And it would have shown up in the urine, and 
for some reason the hospital lost my urine sample. Had they had 
that, I would have had proof, and so it is very unfortunate. 
But I did it. I told them that they had to take my urine, they 
had to take blood. I mean I totally knew what I was doing.
    Mr. Shays. You didn't have an adviser or anyone with you?
    Ms. Kelly. An adviser?
    Mr. Shays. You didn't have anyone with you when you went to 
the hospital?
    Ms. Kelly. You know what? I had a co-worker that actually 
grabbed me and said, ``Let's go.''
    Mr. Shays. She took you, but she was not----
    Ms. Kelly. Yes. And then I had a call. My husband, who had 
just had open heart, and here I had to tell him what happened, 
just----
    Mr. Shays. Takes a lot of courage. Thank you.
    Mr. Leonard, I don't have many questions for you because 
you pretty much documented everything you went through. What 
you document most, from my standpoint, is that you would not 
have shown up in crime statistics, which is one of the problems 
that I have. I don't have much faith in the crime statistics.
    So I just want you to know why I don't have questions for 
you. In part it was your professor-like thoroughness and 
assistance to speak even longer than I wanted, but you covered 
the territory.
    Mr. Leonard. Well, frankly, I felt I had to because this 
would the first and last time. I'm not planning to go on any--
--
    Mr. Shays. What pleases me most is it's the first time you 
smiled all day today too. [Laughter.]
    Because I mean, one of the things that you will go to the 
funny farm with the incredible aggravation you have had to go 
through, because, frankly, the crime was committed. All they 
had to do acknowledge the crime was committed. They couldn't 
probably solve the crime. You had a right to expect them to 
make a good faith effort. So all they did basically was stiff-
arm you and add to your misery, when in the end, taking the 
other tack would have maybe gotten you back as a customer 
because you would have basically said, ``You know what? There 
was a screw-up and so on, but thank you for treating me with 
respect,'' and you obviously were not treated with respect, and 
I am sorry about that, obviously.
    Mr. Leonard. Well, ordinarily one doesn't----
    Mr. Shays. Put the mic down a little bit so I hear you.
    Mr. Leonard. Ordinarily one doesn't generalize from one 
specific anecdote.
    Mr. Shays. Ms. Kelly, would you help him out because you 
are really good at this. OK.
    Mr. Leonard. Thank you. Ordinarily one doesn't generalize 
from one specific example, but our case of this theft is a kind 
of classic example of everything being done wrong, and the 
refusal of the multibillion dollar corporation to simply admit 
that there might have been some responsibility on the part of 
the ship company, the personnel, and that the company accepts 
the possibility that a mistake might have been made. We're not 
talking about the kind of situations that have been presented 
here. This is horrifying. I mean this was simply a relatively 
small grand larceny of our property, but in the grand scheme of 
things, for a multibillion dollar corporation this is not even 
small potatoes.
    For them to go out of their way to deny not only to me, but 
to the Federal Maritime Commission, that we even reported the 
crime on the ship, and we faxed this person, Betty Taillefer, 
the signed statement--which by the way, when you look at it, 
because you have a copy of it, at the end of their own form 
they have ``retain for 1 year.'' So the probability is that 
this is a fairly common kind of experience, and they jettison 
this stuff.
    Mr. Shays. I can understand in one respect that if the FBI 
doesn't want to investigate a crime committed, a certain dollar 
amount, the fact that the crime took place needs to be 
documented in all thefts. The cruise industry likes to compare 
themselves to towns, and if that is the case, when $100 is 
stolen, it is a crime, and it is reported and there is this 
statistic. And whether it is $100, $1,000, $5,000, $6,000, 
$10,000, it all needs to be reported.
    Mr. Mulvaney, the bottom line is you were on board the 
ship; is this correct?
    Mr. Mulvaney. Yes, that's correct.
    Mr. Shays. And your experience was, one, you did not know 
who to contact right away, correct?
    Mr. Mulvaney. Correct.
    Mr. Shays. There is no phones periodically that say, ``If 
emergency, call this number?''
    Mr. Mulvaney. No. When you first get on the ship the first 
day, they do what they call a muster station, where they bring 
everybody down to the deck where the lifeboats is, and they 
explain to everybody at that point in time what goes on in the 
event of a fire on the ship or if you have to abandon ship on 
the lifeboats.
    Mr. Shays. I mean if you are in a building and there is a 
fire, you can pull the fire alarm, a warning, and people can 
get out. If you are on a bus, you are on a subway, you are on a 
train, the bottom line is you have something to pull, you know 
where to go to stop the bus or train or whatever. On a boat----
    Mr. Mulvaney. There is a fire alarm system on the boat.
    Mr. Shays. Fire alarm, yes. But if they have a fire alarm 
there is no system that would enable you--if you saw someone go 
overboard--I was just thinking if I was just there and I saw 
someone overboard, I wouldn't know where to run to, but I have 
never been on board a ship. So I am wanting to know if--my 
parents have been on many and love cruising--but what I am 
asking is, there was nothing that you were made aware of that 
if someone was overboard, you contact this person immediately, 
and then they would hopefully have a better chance of locating 
that person. They don't have such a----
    Mr. Mulvaney. No, there was no procedure for the passengers 
set in place, nor do I think there was any procedure for the 
staff of the cruise line in place after the incident happened 
because they seemed somewhat confused about the issue also.
    Mr. Shays. We have been joined by Mr. Mica. Mr. Mica, I am 
going to ask just two more questions, but do you have questions 
you would like to ask as well?
    Mr. Mica. Yes.
    Mr. Shays. It doesn't have to be quick.
    Let me go to Mr. Mica first, and then we will just close 
up.
    Mr. Mica, you have the floor as long as you would like.
    Mr. Mica. Thank you, Mr. Chairman. I am a member of the 
full committee, but not the subcommittee.
    Mr. Shays. You are welcome and we appreciate you being 
here.
    Mr. Mica. But as you know, Mr. Chairman, I represent the 
State of Florida, and I came in a little bit late, didn't have 
a pleasant experience with my travel, even though I am chairman 
of the Aviation Subcommittee. [Laughter.]
    But that is a matter for another hearing. [Laughter.]
    Just one of my concerns. There have been some serious 
incidents reported here, and tragedies reported, and it is a 
slow news day, and they are picked up. I woke up this morning 
in Florida, highly recommend it if you want to travel 
someplace, absolutely gorgeous. But woke up this morning and 
turned on the news, and almost every channel, the cruise 
industry. I was very concerned. I am concerned about the 
welfare of people who have had some sort of a problem with a 
cruise experience, and I appreciate this hearing paying 
attention to any of those problems, and maybe some improvements 
that may be necessary in reporting or whatever. But coming from 
the State of Florida, it is one of our biggest industries. We 
have millions and millions of people, hundreds of thousands of 
jobs.
    And I don't think people should leave the hearing and think 
that the cruise industry is not concerned, and in some way the 
cruise industry or your experience is typical of the experience 
that millions and millions of people have had in cruises. There 
are unfortunate incidences. We have a summer place up in the 
mountains, and people go camping. We have had people killed, 
missing, abducted, raped, attacked in camping incidents, most 
of it national park service area that is patrolled by national 
park folks. I also don't represent Disney, used to when I was 
in the State legislature. And we have had incidents at all of 
our theme parks and the surrounding areas and attractions, 
unfortunately, some of them even worse than what has been 
described here.
    Again, my concern is that this hearing doesn't project the 
image that this is something that occurs every day, or the 
industry is not concerned about, again, some of the problems 
that have been raised. The fact is that, again, we have lower 
percentages of incidents of any of the types of activity or 
incidents that you have described today here in the general 
population. Is that not correct? Maybe we will go down----
    Mr. Mulvaney. Like you, Mr. Mica, I am from the same area 
of Florida, and I visited on many occasions Disneyland, 
Universal Studios, all the theme parks and done everything 
else, and the security in place in all these standard land-
based locations is far greater and far exceeds anything which 
is----
    Mr. Mica. I would have to disagree with you. I see it every 
day. The only time I have seen the security that tight would be 
when we had the President there a couple of weeks ago. Most of 
these places hire part-time people or people who don't have a 
great deal of law enforcement. Most of them are not taking the 
hotel on the high seas, in international waters subject to 
various laws, so I would have to disagree with that.
    Mr. Leonard.
    Mr. Leonard. In the absence of reliable statistics, how can 
you be so certain that it isn't far higher than what the cruise 
lines report when they wish to report it. We don't have any 
idea. And when a grand larceny is not reported to any law 
enforcement agency, I start to wonder what happens to smaller 
crimes.
    Mr. Mica. Well, we do have, 305 crimes have been reported 
in the high seas over the past 5 years. Do you think it is 
necessary that we have some sort of official document for crime 
reporting?
    Mr. Leonard. Yes, precisely.
    Mr. Mica. On each cruise ship?
    Mr. Leonard. On each cruise ship, reported to an agency.
    Mr. Mica. I travel quite a bit. I have cruised quite a bit. 
I have never seen an industry that solicits more comments from 
their customers or passengers or clients than the cruise 
industry, none. In fact, they do everything but they harass you 
to get some response.
    Mr. Leonard. What's the problem with reporting? If there is 
no problem, then that would show up----
    Mr. Mica. So you are suggesting a uniform, a question--I am 
looking for something positive that we could do with the 
industry, but that, of course, wouldn't fit into any official 
reporting document. It would just be a volunteer thing. Do you 
think it should be required?
    Mr. Leonard. Yes.
    Mr. Mica. I mean required that the passenger fill it out.
    Mr. Leonard. Well, I am at the minimum of the opinion that 
documented cases of crimes on ships should be reported by each 
ship of each cruise line to a Federal agency and then made 
public. That way the cruise line is safe.
    Mr. Mica. I am not an attorney, and we have some attorneys 
on the next panel, I guess, and I don't know the implications 
of doing this, again, the settings and the different ports and 
also the registration on most of these ships is----
    Mr. Leonard. But this is the Congress of the United States, 
sir.
    Mr. Mica. Yes. We can pass a law, but is it enforceable, 
and I don't know that. I am not an attorney, but we do have a 
lot of them around here, fortunately or unfortunately.
    Mr. Mulvaney. Mr. Mica----
    Mr. Mica. I want to get the other responses.
    Mr. Mulvaney. I know. I just misunderstood what you said, 
and when you said to me you disagreed with me, does that mean 
you would advocate serving 15-year-olds alcohol at Disney 
World?
    Mr. Mica. No, but we have instances across the board, where 
15-years-old and people under the age of the legal age are 
consuming alcohol, not only on cruise ships and resorts, but 
throughout the world. If you would travel to Europe or some 
other destination, people drink without any restriction on age.
    Again, my question, I am looking for any improvements that 
we can make, and also ask the question about whether or not 
these are limited instances, or you see that other areas of 
resorts, entertainments, have more or less or the general 
public is more at risk. Ms. Kelly.
    Ms. Kelly. Yes. I just want to add--basically, I totally 
disagree with everything you have just said, but I think this 
is a very lawless environment. A number of these cruise lines 
are owned by foreign countries, so they don't answer to any 
laws. They cannot self police. They've done a horrible job of 
it. Have you personally been on any cruises?
    Mr. Mica. I have been on many, yes.
    Ms. Kelly. So it is your experience that you just think it 
is a wonderful----
    Mr. Mica. As a matter of fact, let me make a response. Not 
only is it a huge employer in the State of Florida, not only is 
it a great opportunity for vacation and entertainment, I think 
the industry as a whole has done an incredible job in taking 
what used to be exclusively the luxurious activity of the 
wealthy, the rich and famous--less than half a century ago, 
cruises were pretty much limited to people who had huge incomes 
or were very famous--and made it into something that the 
average person can safely, reliably enjoy, and that is the----
    Ms. Kelly. Safely, I don't think is an accurate word.
    Mr. Mica. I am sorry. I didn't interrupt you. But I think, 
again, if you look at the statistical average--and we can take 
incidents. I came also asking for any ways that we could 
improve the system, and the gentleman next to you, Mr. Leonard, 
has recommended possibly reporting or having some form of 
reporting. But again, I think the industry has done an 
incredible job of taking this experience--let me just share 
with the subcommittee one experience on a cruise ship that I 
went on, and again, Florida, we are very fortunate because you 
have cruise ports up and down, and you can access them 
relatively inexpensively, and enjoy a time with your family, 
and I was with my family.
    But I was on a cruise ship, and what I just said was 
brought home. I was walking down the hall toward dinner, and 
this gentleman approached me. And he was walking down the hall 
and he had a tie, he had it around his neck. And he said, 
``Excuse me, sir.'' He said, ``Could you just help me for a 
second.'' I was sort of taken aback. He says, ``I drive a truck 
and I'm from Iowa. I've never had a tie on before.'' He says, 
``I wanted to wear the tie to dinner, and I don't know how to 
tie it.''
    And at that point I thought, my God, here is an industry 
that has allowed common people to have an opportunity to have a 
great experience.
    Now, today's hearing doesn't focus on all those great 
experiences. It focuses on the rare exception. When you take 40 
million people who are passengers who have sailed on cruise 
ships. I am a strong, unabashed supporter of the industry. They 
are a strong supporter of me because I have always been a 
strong support of the industry. If there are problems, I think 
what we need to do is correct those problems.
    Ms. Kelly. OK. That's fine, and I've heard everything you 
said. I just want to interject before I lose my train of 
thought, if you don't mind. There's a couple of things. You've 
asked for recommendations. I don't know if you were here 
earlier, but----
    Mr. Mica. No, and I am sorry. My plane was really late.
    Ms. Kelly. One of the things that we had suggested was that 
passengers be required to wear a microchip or a band of some 
kind for tracing. Another suggestion that came up was using 
U.S. Marshals, and I said even randomly, because it would raise 
the accountability to the employees of these ships. No. 1, I 
also want to say too that most of these employees on the ship 
that I was from, they were from other countries, so they are 
not American crew members. They are coming in from other 
countries, Third World countries, with different standards, 
different morals, like my assailant was from Jamaica.
    Mr. Mica. Again, I think this hearing does highlight some 
of the differences in, say, the cruise ship industry and other 
activities. As to those recommendations, if I may respond, Mr. 
Chairman, first the microchip, maybe some day, not today. It is 
almost impossible. I have reviewed, as a senior member of the 
Transportation Committee, the security relating to cruise 
ships. I am not concerned about what goes on on board relating 
to these instances, and the passengers who are sailing, the 
typical passengers. My concern is more of a terrorist threat. 
An incident in which a cruise ship is used in that fashion and 
the failure of the U.S. Government, which is a Federal 
responsibility, to adequately protect and secure both the ports 
and the cruise ships. That is my concern, not focusing on some 
of the, again, issues that this subcommittee is focusing on.
    The second point, the U.S. Marshals. Again, I see very few 
industries that are more responsible as far as security is 
concerned. Let me give you an example. I chair Aviation. The 
Federal taxpayer right now underwrites the screening of every 
passenger in the United States by some $2 billion. It was not 
intended to be that way. The passenger was supposed to pay. 
They don't. It comes out of deficit spending. Right now we have 
a shortfall of $2 billion out of a $5.6 billion program. In 
addition, we pay all the costs of the U.S. Air Marshals. The 
plane I was just on had a U.S. Air Marshal on it. The cruise 
ships pay for their own security.
    In addition, they pay for their own law enforcement and 
security because they are traveling on the high seas and they 
are responsible for law enforcement on the high seas, once you 
leave the U.S. boundaries.
    I think they have done an excellent job, one, in security 
costs relating to terrorism, in screening passengers, in 
screening--it is very difficult--and I can tell you because I 
tried to do it--is to even bring your own booze on board. They 
even screen for alcoholic beverages that are not supposed to be 
in people's possession. I have never seen that at any resort, 
entertainment facility, whatever, and they pay all the costs 
for all of the above.
    Ms. Shaffer, go ahead.
    Ms. Shaffer. Mr. Mica, who is responsible for the security 
and safety of the passengers?
    Mr. Mica. Well, the cruise ship is.
    Ms. Shaffer. Then why don't they take care of business?
    [Applause.]
    Ms. Shaffer. There you go. So I agree with everything you 
said. The cruise ship, superficially it is----
    Mr. Shays. Ms. Shaffer, I am just going to interrupt you. 
It is important for us to have a sense of the audience, but 
this is a hearing, and we are going to really try to keep 
strict decorum.
    I would like to know, just because I want to make sure you 
are recognized, how many folks are here from the Cruise Victims 
Association? Just raise your hand if you are here.
    [Show of hands.]
    Mr. Shays. Well, we appreciate you being here, and I will 
spend time after this hearing to talk with you about anything 
you want me to know.
    But I also want to say that Mr. Mica is one of the most 
respected Members in Congress, and it is important that he 
share his views with you, and that you are very candid with 
him. So this kind of dialog that is taking place right now is 
probably more important than the dialog you will have with me.
    Mr. Mica, we truly appreciate you being here.
    Mr. Mica. Thank you.
    Ms. Shaffer. Thank you, Mr. Mica.
    Mr. Mica. I did come back to try to get some positive 
comments, and you asked the question----
    Ms. Shaffer. I would like to continue my thought.
    Mr. Mica. Well, again, you asked the question, who is 
responsible? And I said ultimately the cruise ship is for 
security on board the cruise ship, and as I mentioned, they 
take on responsibility for other types of security, port 
security, law enforcement on board the cruise ship. So there 
are different aspects of that, just to respond to you. Thank 
you.
    Ms. Shaffer. Well, superficially, the cruise industry looks 
great. You get on board, it seems to be very Americanized. You 
do see security on board the ship. You feel completely safe, 
and it's an illusion. It's a false sense of security, and your 
industry would do very well and would grow by adopting better 
protection and security for the public.
    Mr. Mica. Thank you. I appreciate your comments. I might 
respond too that, you know, some of security, even that the 
Federal Government does is an illusion. I just sat in on a 
classified briefing on aviation security on Thursday. It was a 
closed door hearing. I get the results back periodically. We 
test our system for security because it is a Federal system for 
aviation security. The failure rate is pretty dramatic. In 
fact, probably most of you would fall off the chairs if you 
understood how much of a failure that is, how much money we 
have spent, and we spent a fortune. I told you it cost us $5.6 
billion, plus $2 billion in deficit spending, to put that 
system in place that is not the kind of system that we should 
have. Making changes is very difficult, something I work on 
every day. I am here to look at how we can make the cruise 
experience an even better and safer experience.
    Mr. Pham.
    Mr. Pham. I do have a solution you're looking for. You 
know, my parents never came back from a cruise. There's nine 
grandchildren and five of us children, and I'm the only one 
here. It's very hard. It's not easy for us to be here today. 
We're here because we want to be part of a solution. We were 
part of the problem that cost to us now family, so we want to 
be here to become part of a solution. While I'm speaking for 
myself, I think I can speak for some other fellows of the new 
organization we formed, the International Cruise Victims 
Association. We went through--we were wronged, and that's why 
we're here to share the story.
    We're willing to sit down and work with the Congress and 
with the people in the industry, and come up with a way to 
better improve, as you said, the experience, to better taking 
care of the victims, to eliminate what we went through, because 
if you look at statistic, and everyone's been saying statistics 
and compare and all that, but, you know, you can't compare a 
cruise to a city. How about amusement park? How about 
Disneyland? Let's look at that percentage, because when I send 
my children to Disneyland, there's some expectation that I 
have. So let's stop talking about a 3,000-person, versus a 
floating city in the ocean. That's totally different, that's 
apples and oranges.
    Mr. Mica. My question, and I appreciate your comment and 
willingness to work with us, you described the problem as you 
see it. What is the solution you recommend?
    Mr. Pham. The solution is if people sit down with us. Since 
we founded this organization 2 months ago, we received hundreds 
of e-mails from crew members, sharing with us their experience 
as a crew member, what they think is right and wrong. We 
receive hundreds of e-mails from people all over the world, 
from Australia, from England, from Canada, and what happened to 
them. Well, if nobody listens, how can we fix the problem? 
Somebody has to listen, and we are willing to share that. We're 
willing to sit down and work together, and that's my solution.
    Mr. Mica. So far I've heard microchip of some sort, and 
like U.S. Air Marshals, and then we had a required form for 
reporting, or a standard form for reporting. Did you have a 
specific recommendation, Mr. Pham?
    Mr. Pham. Working together as a group, with the Congress 
and us.
    Mr. Mica. Thank you.
    Mr. Carver.
    Mr. Carver. I appreciate the opportunity. Earlier today in 
our testimony----
    Mr. Shays. Mr. Carver, I am just going to interrupt. Did 
you set this up as a lead to go right down the line? And you 
are a very patient man. I thought you might jump in in the very 
beginning, but you just timed it beautifully. So, Mr. Carver, 
you have the floor.
    Mr. Carver. We delivered to the subcommittee today a 10-
point document of various changes to make to the cruise line 
industry. We're not going to change the cruise line industry, 
but if they were smart, they would take these various items 
that we have listed, and say, you know something? These makes 
sense. This will give the U.S. public a good feeling about 
being on a cruise ship.
    Would they cost much money? I don't think they would cost 
much money. So you're asking for many suggestions, I have it. 
But I want to give you another----
    Mr. Mica. I have the list of these, did you make this part 
of the record?
    Mr. Shays. Yes.
    Mr. Mica. Are there any other suggestions that you have?
    Mr. Carver. Can I just give another?
    Mr. Shays. You can have the floor to talk about this, 
because he asked you suggestions. You got three pages of 
suggestions, and if Mr. Mica wants to go through it, that's--I 
am going to ask you to go through it afterwards.
    Mr. Mica. Are there any other things that you think of that 
we need to pay attention to that haven't been raised?
    Mr. Carver. I have an analogy. This is kind of a different 
story, but let's say this is the Aviation Committee of the U.S. 
Congress. And an airline came to this committee and said, we 
have a new business plan. We're going to license the company in 
Liberia because that's very helpful. We don't have to pay 
Federal income tax. we're going to staff it with Third World 
people, but we want to fly out of New York City, we want to fly 
out of Miami, we want to fly out of Los Angeles. Once that 
airplane takes off, hey, we got a whole set of different rules. 
You may not understand them, but trust us. Now, over the past 
few years we've only lost 28 passengers, disappeared. We've had 
a couple of hundred people raped, but trust us.
    Would you think the American public would allow that 
airline to be licensed in this country to fly out of their 
major ports?
    Mr. Mica. Well, again, we do have very similar situations 
in aviation, and we do have many incidents, some reported and 
some unreported. Just to show you the way things are changing, 
54 percent of all the airline maintenance is done outside the 
United States today, and as we speak, you have more and more 
international competition, and will have. In fact, that is on 
the front burner today, of planes flying into the United 
States. One of the problems I have as chairman is, sometimes we 
don't have the same protections for Americans, even flying on 
another carrier into the United States. And I have gone and 
personally reviewed the security in cases such as the shoe 
bomber with Richard Reid, he had overridden by the French 
police allowing him to board the aircraft carrying explosives 
on his person in his shoe. So, yes, I face this all the time. 
We don't live in a cocoon, we live in an international arena.
    We could actually close down--and maybe that is what we 
should do--is close down the cruise lines from docking in any 
American ports. That would solve the problem, because they are 
international and we don't know everything that is going on 
with them, as you said, for ownership. But would that really 
solve the problem? And the answer is no.
    Mr. Carver. I can only answer it this way. If you were me 
and had a daughter disappear from a cruise line, and it goes 
unreported and it is covered up, I think you would have a 
different passion----
    Mr. Mica. Again, each of you have a case in which----
    Mr. Carver. Here are suggestions, lots of suggestions.
    Mr. Mica. I appreciate your suggestions that you have 
brought forth, the positive suggestions because I think my 
intent in being here is to look for positive things that we can 
do to make it safer for everyone, and improve the system. So, 
again, I appreciate the recommendations. Some of them may or 
may not be practical. We have to look at them. And then we can 
take a safe industry and make it even safer.
    Thank you, Mr. Chairman. Yield back.
    Mr. Shays. I thank the gentleman. The gentleman was 
provided as much time as he wanted, and I just wanted, Mr. 
Carver, for the record to show that in response to suggestions, 
you provided a three-page, single typed document from the 
International Cruise Victims Association. It is thorough. It is 
thoughtful. You said background checks, create a main data 
base, reporting all terminated individuals, employees, ensuring 
that the same employees will not be rehired by another cruise 
line. (A) Tighten security checks and screening of all 
employees. (B) Although the cost of a vacation cruise may 
increase, reliable personnel should be stationed on all decks 
at all times.
    Then just a second one, international police and U.S. 
Marshals. The international police force should be established 
at the expense of the cruise line, connected to Interpol or 
another international police organization. (A) Such authority 
should not be affiliated with the cruise line or its crew. (B) 
U.S. Marshals should be present on cruise ships. (C) When a 
crime is not reported to the appropriate authorities by the 
cruise line in a timely manner, substantial fines should be 
imposed. (D) All crimes must be made public, not voluntary but 
mandatory. (E) Require protocol for filing any form with 
incident, and to be immediately processed through specific 
channels.
    This is an extraordinary document you have provided, very 
responsive. What I am thinking, you are dealing with the loss 
of your daughter. You are dealing with the fact that you can't 
get basic information from the cruise line. They have treated 
you as if you were, in some cases, the perpetrator, not 
cooperated. It's an outrage. I thank you from the bottom of my 
heart for dealing with your grief, but also coming up with a 
very constructive document. It would take me a long time to 
read this document publicly. All of it will be for the record. 
It will be very helpful.
    And I really believe with all my heart and soul that Mr. 
Mica will appreciate this as well. He serves on the 
Transportation Committee. He can probably do more legislatively 
than I can do as an investigative committee. I view him as your 
friend, and he has voiced, obviously, concerns that this be an 
appropriate hearing, but one where we get at the truth. You 
provided a wonderful document on behalf of all of your members, 
so I salute all your members.
    It is still the first panel--is there anything that you all 
want us to put on the record before we go to panel two? Real 
quick, Mr. Leonard. Put the mic close to you. Prove to me you 
can do that.
    Mr. Leonard. I have one specific issue to raise in the 
interest of preventing terrorism. We noticed, my wife and I and 
others, foreign nationals, three and four from the same 
country, screening passengers and their baggage on the ship in 
Bermuda. That should never take place. Three and four foreign 
nationals from the same country screening baggage.
    Mr. Shays. Thank you.
    Is there anyone else that would like----
    Mr. Leonard. I am not the only one who saw this.
    Mr. Shays. Anyone else who would like to--yes, Mr. 
Mulvaney?
    Mr. Mulvaney. Can I put the picture of the 15-year-old girl 
who was killed in the record?
    Mr. Shays. Yes, we will put that in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8532.094
    
    Mr. Shays. How is she related to you, Mr. Mulvaney?
    Mr. Mulvaney. Distant, through marriage.
    Mr. Shays. It is very nice that you came to testify today.
    Mr. Pham, I want to say to you that how proud I am that you 
have become an American citizen. I am struck by how gracious 
you are, how thoughtful you are, how patient you are. You lost 
your mother and father. You love this country through and 
through, and I love the fact that you are a fellow citizen, and 
I appreciate your testimony more than you can know. I would say 
thank you to each and every one of you, but the image of you 
coming on a small boat to the United States eventually, is 
quite an image, and you have contributed wonderfully to the 
work of this Congress, all of you have, but I particularly want 
to thank you, Mr. Pham.
    Thank you very much. We are going to go to the second 
panel.
    In our second panel we have three panelists: Mr. Brett 
Rivkind, Rivkind, Pedraza & Margulies; Mr. Ron Gorsline, owner, 
Security Ocean Services; and Mr. Lawrence W. Kaye, Kaye Rose & 
Partners.
    Before you sit down, I will swear you in, and that is 
probably a logical way to do it.
    [Witnesses sworn.]
    Mr. Shays. Note for the record, our witnesses have 
responded in the affirmative.
    We attribute all three of you as experts on the cruise line 
industry. If you have in any way, just for the record, not so 
in any way it colors what you say, but it is just important, 
whether you are speaking independently or whether you have 
represented the cruise line industry, whether you do now, in 
other words, just so we get a sense of your perspective. And if 
we just run through that and then take your testimony, Mr. 
Rivkind.
    Mr. Rivkind. Good afternoon. Thank you for having me here. 
I am a maritime lawyer for the past 23 years in Miami, FL, 
handling cases mostly with the cruise ship industry. For the 
first 4 to 4\1/2\ years of my career, I represented cases 
brought against the cruise ship company. Since then, now I 
exclusively represent victims of accidents or crimes aboard the 
cruise ships.
    Mr. Shays. It is just helpful to know that.
    Mr. Gorsline.
    Mr. Gorsline. My name is Ron Gorsline. I am the owner and 
operator of Secure Ocean Services. My background is I have 
worked extensively in various different security areas, and I 
have worked in the cruise line industry for the last 3 years. 
Prior to that I have done work for the State Department as a 
security consultant on various contracts to protect different 
entities within the Government interests overseas. And prior to 
that, I had a 20-year military career in Special Operations in 
the Navy.
    Mr. Shays. So do you represent the cruise industry, 
families, or somewhere in between?
    Mr. Gorsline. I was asked to be here as an independent 
expert to kind of balance things out, based upon my experience 
in doing audits in the cruise industry for various different 
companies.
    Mr. Shays. Thank you. And you had met in my office as well 
earlier?
    Mr. Gorsline. Yes, sir. I gave you a full brief on my 
experiences with various different cruise companies.
    Mr. Shays. Mr. Rivkind.
    Mr. Rivkind. Yes, Congressman Shays, I did forget to 
mention I am the attorney for the parents and the sister of 
George Smith.
    Mr. Shays. Yes, that is important to put on the record. 
Thank you.
    Mr. Kaye.
    Mr. Kaye. Thank you, Mr. Chairman, Congressmen. My name is 
Larry Kaye. I'm a maritime attorney. I've practiced maritime 
law for 27 years. During that time I've been immersed in 
representing cruise lines and the cruise line industry. I've 
also served as outside counsel to the International Council of 
Cruise Lines, and I started my career as a maritime attorney 
after a clerkship with one of our chief Federal judges.
    Mr. Shays. The bottom line is we have three experts in the 
cruise line industry and maritime travel, and we appreciate all 
three of you being here, and it is nice that you are so 
patient, and that you heard the first panel and what they had 
to say.
    Mr. Rivkind, we will let you start.
    Mr. Rivkind. OK, thank you.
    Mr. Shays. We are going to do a 5-minute. We are going to 
roll it over. I give a little bit more quarter to the second 
panel, since they sometimes have to go through a lot listening 
to the first. But we prefer, after you get in the second half, 
if you would bring it to a close. So 5 minutes. Then we will 
roll the clock over for another 5, but finish before the 10.

STATEMENTS OF BRETT RIVKIND, RIVKIND PEDRAZA & MARGULIES, P.A.; 
   RONALD J. GORSLINE, OWNER, SECURE OCEAN SERVICE, LLC; AND 
  LAWRENCE W. KAYE, SENIOR PARTNER, KAYE, ROSE & PARTNERS, LLP

                   STATEMENT OF BRETT RIVKIND

    Mr. Rivkind. OK. Thank you, Congressman Shays. Good 
afternoon. Again, my name is Brett Rivkind, and as I described, 
I am a Miami maritime lawyer for 23 years. All of my work, 
almost exclusively at least, has involved the cruise ship 
industry and handling cases with the cruise ship industry.
    I am honored to have been asked to testify today before the 
subcommittee. I understand the purpose of this hearing is to 
address international maritime security, including law 
enforcement, and law enforcement is an important distinction, 
as Congressman Mica was talking about, terrorists and 
terrorism, and we are here, I believe, to discuss law 
enforcement on the cruise ships to protect passengers who 
actually board the cruise ships, which is a different issue, 
and passenger security, as well as the investigations of these 
incidents that occur to passengers, and I will limit my 
testimony to those areas, and these are major areas of concern 
at this time.
    Twenty-three years ago when I graduated law school and went 
into maritime law, I was intrigued with the complexity of the 
jurisdictional issues and the foreign nature of shipping, and 
the complexities, and they made for good law school exams. 
Today, 23 years later, we are on the second hearing, still 
discussing complex jurisdictional issues, 23 years later in a 
much more serious context. These are not law school exams, 
these are issues that are greatly impacting on the safety of 
our passengers on these cruise ships that operate out of our 
U.S. ports.
    Cruise ships have just boomed. In the 23 years I have been 
doing this, the ships are getting bigger and bigger and bigger. 
Ships are carrying over 2,000 passengers, 13 to 14 decks high, 
with 1,000 crew members from Third World countries, with very 
little or minimum background checks. All the ships now are 
flying foreign flagships. We've just read recently where a ship 
is being built that will hold 5,000 passengers. This has to be 
of grave concern to us and to the safety of passengers on board 
the ship with this tremendous growth.
    With this tremendous growth, we've seen an increase in the 
number of crimes. The statistics really are not what's 
important here. You have significant crimes on cruise ships, 
and cruise ships are confined environments, and it is easier to 
protect citizens and prevent crimes from occurring in the first 
place on a cruise ship than it is in a city.
    I have always felt a concern for this industry which 
operates out of the United States and carries millions of U.S. 
passengers each year, yet has reaped the advantages of being 
able to incorporate in foreign countries and fly flags of 
convenience, enabling cruise ship operators to avoid many U.S. 
laws and regulations. I too am from Florida and understand the 
significant of the cruise ship industry.
    The foreign nature of the cruise ship industry, as I said, 
has resulted in a situation where the employment of the crew is 
almost exclusively from countries outside of the United States. 
Many Third World countries, many poor countries, and in my 
experience over the years, although the cruise lines state that 
they have agents to hire crew members in the different 
countries who may be responsible for some type of background 
check, many crew members save for years to pay a fee under the 
table to these agents to secure an employment letter to come 
and work on a cruise ship that are carrying our U.S. 
passengers, with no background checks.
    It's been necessary to discuss the foreign nature of this 
cruise line industry because it is the nature of the beast, 
which leads us to the questions that Congress is addressing for 
a second hearing already.
    It's apparent from hearing these issues discussed today, 
and from the hearing that was held previously in December, that 
there is a big void or gap when it comes to the laws or 
regulations governing the cruise ship industry. That does 
impact upon the safety of a passenger who decides to embark on 
a cruise with one of these foreign incorporated, foreign flag 
cruise ships.
    It's time to closely look at this industry. U.S. citizens 
should not have to rely upon the cruise ship industry itself 
for protection against criminal activity aboard a cruise ship. 
A U.S. citizen should not have to rely on the industry itself 
to adopt and implement their own internal standards governing 
crime on board the ships, especially when the bottom line of 
the industry is profits, billions of dollars in profits.
    I heard mentioned earlier, and I would indicate that I am 
an attorney in a case, class action case involving a cruise 
ship that deliberately went into a storm to maintain an 
itinerary, and I heard that mentioned earlier by the panel, and 
I would just mention that as I do have some background in that 
case too, and some information.
    The cruise ship industry attracted much more public 
attention in the mid 1990's, not that they wanted to, but due 
to an outbreak of Legionnaire's Disease, reports of sexual 
assaults on board the ships and how they were being handled by 
the cruise lines, as well as violations of the U.S. 
environmental laws.
    The violation of the environmental laws led to numerous 
felony convictions and millions of dollars in fines being 
imposed. Some of the felonies that the cruise lines pled guilty 
to involved falsifying official ships' logbooks, which were 
referred to by the crew members as fairy tale books; destroying 
evidence and providing false testimony to a grand jury, and 
tampering with evidence. The U.S. Government and the U.S. 
public were lied to about environmental matters. Yet this is 
the same industry that currently U.S. citizens rely upon to, 
``voluntarily report crimes,'' as well as to voluntarily 
implement adequate security aboard the ships, and to adequately 
conduct investigations of any allegations of crimes aboard 
their cruise ships.
    What we have learned today from listening to the victims 
from this great organization that has been formed, is that 
these stories are a result of the nature of the beast, of an 
industry that regulates itself, that conducts its own 
investigations on board the ships, and that has an incentive 
not to honestly and accurately report or investigate crimes. 
You can say all you want, ``We report a crime, we don't have 
to, but we do, and here are the statistics,'' but it doesn't 
matter.
    You need to know when they reported it, how they reported 
it, what happens before it's reported, what happens before any 
U.S. authorities get involved, and what do these statistics 
really mean if we don't have adequate classifications of the 
crimes, definitions, like we in the United States, where we 
have index crimes, we have uniform definitions of what 
constitutes a crime, methods of reporting, collection of that 
data sent to a centralized agency, and we can then say how much 
crime is there in each particular city throughout the United 
States and each county. We cannot do that in the cruise ship 
industry.
    If a passenger reports something as stolen, and the cruise 
line decides, based on their own internal investigations, to 
say it's just a missing item, you don't have a crime there. 
These statistics cannot be relied upon.
    I've heard the suggestions made by the International Cruise 
Victims organization. I've gone over those, and they are very 
good suggestions. One of the main things I believe is that you 
have an industry investigating their own crimes and accidents 
that they may be held accountable for in a civil setting, and 
there's something just inherently wrong with that.
    Thank you.
    [The prepared statement of Mr. Rivkind follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.095
    
    [GRAPHIC] [TIFF OMITTED] T8532.096
    
    [GRAPHIC] [TIFF OMITTED] T8532.097
    
    [GRAPHIC] [TIFF OMITTED] T8532.098
    
    [GRAPHIC] [TIFF OMITTED] T8532.099
    
    [GRAPHIC] [TIFF OMITTED] T8532.100
    
    [GRAPHIC] [TIFF OMITTED] T8532.101
    
    [GRAPHIC] [TIFF OMITTED] T8532.102
    
    [GRAPHIC] [TIFF OMITTED] T8532.103
    
    [GRAPHIC] [TIFF OMITTED] T8532.104
    
    [GRAPHIC] [TIFF OMITTED] T8532.105
    
    Mr. Shays. Thank you, Mr. Rivkind.
    Mr. Gorsline.

                STATEMENT OF RONALD J. GORSLINE

    Mr. Gorsline. Thank you, Mr. Chairman. Good afternoon or 
evening, as it is right now. My name is Ronald Gorsline, and 
I'm the owner of Secure Ocean Services, LLC, and I thank you 
for the opportunity to be present to testify as an expert 
witness in the subject of maritime security as it relates to 
the cruise industry.
    My company is a small company providing internal compliance 
auditing services for security programs in the cruise industry. 
Our job is to act as an honest broker while conducting internal 
audits and marking recommendations to correct program 
shortfalls, and identifying program strengths, as we identify 
them in our findings.
    Today I am testifying about security practices, training, 
qualifications, jurisdiction of foreign flag vessels as 
incidents may occur on board those vessels. My testimony is not 
intended to point fingers as to cause, or add speculation on a 
company's conduct, but rather to clarify process and procedures 
as required by law.
    In the United States and in the International Maritime 
Organization, there are rules that govern how the security 
program is set up aboard ship. For the United States, we are 
governed by 33 CFR part 101, and Part 104, specifically 104 for 
ships. International Maritime Organization adopted a regulation 
called the International Ship and Port Security Facility Code 
[ISPS], Parts A and B. Those are the cornerstones for the 
security programs on board ships.
    The officials who are responsible for enforcing such laws 
on board the cruise ships ultimately is the master of the ship. 
He is the law enforcement authority while a ship is at sea and 
under way. The master overall is responsible for the vessel as 
shown, and is governed by regulations Part 104 CFR 33, 140.205 
in the U.S. Code, and by the ISPS Code, Part A, Section 4.10 in 
the International Code. And at all times, the master of a ship 
has the ultimate responsibility for the safety and security of 
a ship, even at security level 3. A master may seek 
clarification or amendment of instructions issued by those 
responding to a security incident or a threat thereof, if there 
is reason to believe that compliance with the instruction may 
imperil the safety of the ship. That's his job.
    The overall structure, as reflected in my testimony, gives 
you a brief breakdown of how it can be looked at in a picture. 
You have a company that has a company security officer, who is 
ultimately the program manager for the security program in the 
system. On board the vessel you have the master, who is the 
ultimate authority, and you have a vessel security officer. The 
vessel security officer is responsible for security on board 
the ship, but he reports to the master. If an incident occurs 
on board, the vessel security officer is the point to address 
the problem on board. The master is responsible overall for the 
execution of the process.
    The company security officer is notified in that process, 
and then they consult on how to address the problem, upon which 
the company security officer notifies the law enforcement 
entity or agency that is to be the investigating authority.
    Training overall, what is available on cruise ships for 
security as far as technology and application of those items as 
a security plan is considered security sensitive information, 
so I can't go into specifics on ships' numbers or anything like 
that, but I can give you a general idea.
    There are metal detectors, both walk through and hand 
wands. They have x-ray machines. They're experimenting with new 
trace detection technology. They're looking at microchips. 
There is training on all of these items that are out there. 
Alarms and weather decks in certain areas where the passenger 
is not authorized to be working as far as the line handling 
area, forward section, chain locker and those areas.
    They have a swipe card system that is attached to an ID 
photo that was taken upon check in, and that ID photo is 
transmitted into the system, and then every time somebody 
swipes their card to come on board it is confirmed by visual 
biometrics of who they are.
    Modern vessels today are basically totally automated. Those 
cards are used to access, as was identified and spoken to 
earlier in the first panel, to basically handle your accounts, 
access in your rooms and everything else. The older vessels 
have a swipe card system for identification purposes, and 
normally you'll be issued a key for the room if they don't have 
the automatic key locks.
    Personnel training. I've enclosed in here in my testimony 
and I won't go through each line item. Each position on a ship, 
as identified by both U.S. and International Code, what the 
training requirements are for each position. The companies have 
to meet that. That training is done. It is logged and it is 
entered into the training records as individuals are carried on 
board the ship.
    As I said earlier, you have the master, the vessel security 
officer or the ship security officer under ISPS Code. You have 
those individuals that their primary responsibilities is 
security, and then you have those individuals who have 
secondary responsibilities in security. They have varying 
different levels of degree. Then after all that is said and 
done, there's a secondary training process where companies set 
up to do report writing, handle issues that come on up as far 
as techniques and circumventing security techniques and doing 
crime scene collection of evidence, and then packaging it and 
turning it over to that authority once they report on board to 
do the investigation.
    The special maritime territorial jurisdiction of the United 
States has been expanded to include places outside of the 
jurisdiction of the Nation when those offenses are against the 
Nation of the United States as part of U.S.C. Part 18, and 
among those offenses is special maritime territorial 
jurisdiction of the United States are the crimes of murder, 
manslaughter, maiming, kidnapping, rape, assault and robbery. 
That comes under all Title 18.
    As stated earlier, the Federal Bureau of Investigation is 
the investigating entity under maritime code, and the Coast 
Guard captain of the port is overall responsible for those 
items in the port when a ship is stateside the United States.
    The policy is a single industry standard that requires 
allegations of on board crime be reported to the appropriate 
law enforcement authorities with vessel calls on U.S. ports of 
crimes involving U.S. citizens would include the Federal Bureau 
of Investigation. They are the responsible authority to do 
that.
    The companies, the industry as a whole has a zero tolerance 
for crimes on board committed on board vessels. If crimes do 
occur, the appropriate law enforcement authorities will be 
called to investigate, to prosecute to the fullest extent of 
the law. The cruise industry continues to cooperate with 
authorities to ensure that the perpetrators of crime are 
brought to justice. This is a requirement.
    As previous testimony in December 13, 2005, the agreements 
are in place with the membership of the ICCL companies, and the 
flag states addressing communications with the lead agencies to 
investigate all cases once reported.
    In addition to the above, trafficking of illegal drugs and 
narcotics is included and is also investigated by the Customs 
and Border Agency.
    While on board the vessel, the vessel security officer and 
the ship security officer will refer to the incident report 
procedure to collect evidence, interview witnesses, assemble 
the report, package all material to be turned over to the 
investigating authority upon arrival in the next port. 
Additionally, the company security officer will be notified of 
the incident and give direction to the VSO and coordinate 
actions with the master and the VSO and the appropriate agency. 
In the event forensic evidence is to be collected of a 
scientific nature, then ships doctors will more likely be 
pressed into service to administer such things as rape kits to 
confirm a complaint.
    Personnel training and capability will vary from company to 
company. Some companies have their own academies to provide 
this training. Other companies will subcontract their training 
out to an appropriate training authority that can do that. 
Others will have people come on board and do what they call 
training programs. But training is occurring. They have to meet 
these guidelines.
    In short, on the jurisdictional issues on the flag vessels, 
I really don't want to go into that too deeply because I'm not 
a lawyer. I do know this, that foreign flag vessels are flag 
states. Flag states are contracting governments who signed up 
to the IMO and adhere to the ISPS Code in addition to their own 
laws. Flag states also have their own recognized security 
organizations that are referred to as RSOs. The RSO in most 
cases is a class society designated by that flag state as a 
verification arm to ensure that the ISPS Code is being followed 
by the ship or the company that is flagged under that flag. The 
RSO will ensure the ship flagged has a security plan that meets 
the ISPS Code. The RSO ensures the international ship security 
certificates, issues them on out for the flag state, and 
ensures that the vessel will have an IMO number of 
registration, fly a flag of that nation. Examples are Bahamas, 
Panama and Liberia. The foreign flag ships avoid U.S. domestic 
maritime policy and taxes.
    The United States isolates domestic policy from 
international through the Jones Act. Domestic policy requires 
that you have to build at home, crew at home and own at home to 
carry cargo between U.S. ports.
    Mr. Shays. I need you to finish up here.
    Mr. Gorsline. I'm going to do that right now, sir.
    In short, there are five areas that need to be addressed 
here that verify the Congress has the ability to act upon 
requirements to enact laws to meet the territorial jurisdiction 
of the United States.
    One, there is a territorial jurisdiction if a ship enters 
or acts occur within a territory of a particular country, then 
that country's laws apply.
    Two, under the ``national'' theory, the country where any 
alleged crime perpetrator resides has jurisdiction over the 
matter involving a perpetrator.
    Three, the nation with the custody of any alleged 
perpetrators of certain types of crimes can claim jurisdiction 
under the universality principle.
    Four, under the ``passive personality doctrine,'' the 
Nation where the victim resides can exercise jurisdiction over 
a matter.
    Five, any country whose national interests are affected by 
an incident can assert protective jurisdiction.
    I hope I have answered your questions.
    [The prepared statement of Mr. Gorsline follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.106
    
    [GRAPHIC] [TIFF OMITTED] T8532.107
    
    [GRAPHIC] [TIFF OMITTED] T8532.108
    
    [GRAPHIC] [TIFF OMITTED] T8532.109
    
    [GRAPHIC] [TIFF OMITTED] T8532.110
    
    [GRAPHIC] [TIFF OMITTED] T8532.111
    
    [GRAPHIC] [TIFF OMITTED] T8532.112
    
    [GRAPHIC] [TIFF OMITTED] T8532.113
    
    [GRAPHIC] [TIFF OMITTED] T8532.114
    
    [GRAPHIC] [TIFF OMITTED] T8532.115
    
    [GRAPHIC] [TIFF OMITTED] T8532.116
    
    [GRAPHIC] [TIFF OMITTED] T8532.117
    
    [GRAPHIC] [TIFF OMITTED] T8532.118
    
    [GRAPHIC] [TIFF OMITTED] T8532.119
    
    Mr. Shays. Thank you.
    Mr. Kaye.

                 STATEMENT OF LAWRENCE W. KAYE

    Mr. Kaye. Mr. Chairman, Congressman Mica, I thank you again 
for inviting me to testify today. I am very proud of my 
representation of the cruise industry over the last 30 years, 
but I'm even prouder of my role as a son, brother, husband and 
father of three. There is nothing that I can say to detract 
from the tragedies that these families who have testified here 
today have told us about, and I want to begin by extending my 
deepest sympathies to each of them and their families.
    Hopefully, the information I've been invited to provide 
will assist them and you in understanding the legal obligations 
that currently govern this industry, and that's my sole purpose 
in being here. I commend you and the subcommittee for taking 
the time to explore them.
    The fact is that we don't have a very complex system of 
laws governing cruise ships. It may seem that way if you're 
confused about it, but our U.S. criminal jurisdiction on cruise 
ships does provide a very high level of protection to Americans 
traveling anywhere in the world. It starts with the U.S. 
Constitution, which states in Article I that Congress is 
authorized ``to define and punish felonies committed on the 
high seas.'' That is exactly what our Congress has done. Over 
the years it has asserted our national power over some 20 
different categories of crimes in what is referred to as the 
special maritime jurisdiction of the United States. These 
include everything from sexual misconduct to robbery and theft, 
to terrorism and murder, and everything in between.
    On U.S. flag ships--and there are some today in fact 
sailing in Hawaii--our Federal Government has jurisdiction over 
those crimes anywhere the ships operate, involving any soul on 
board. On foreign flag ships, our criminal jurisdiction in 
these crimes extends to anyone in U.S. waters, Americans on the 
high seas on those vessels, or even Americans in foreign waters 
if that voyage on that foreign ship starts or ends in the 
United States. It is as simple as that.
    In my 27 years of legal practice I have never heard of a 
situation where an agent of the FBI has been denied access to a 
foreign flag vessel seeking to do an investigation. I've just 
never heard of that happening. Usually there is a report made. 
There is a request to do the investigation, and with open arms, 
they board the ship.
    These same Federal maritime statutes ironically have been 
incorporated into the Federal aviation scheme, and as 
Congressman Mica no doubt is aware, the Federal criminal laws 
that apply to international aircraft boarding passengers in the 
United States, incorporate by reference the Federal crimes that 
apply in the special maritime jurisdiction. So Congress was so 
satisfied that scheme was clear and comprehensive enough that 
it simply rolled it over into the aviation industry.
    We know there are 31 million passengers, 10 million a year 
approximately in the cruise industry. There are 72 million 
passengers a year in the airline industry boarding foreign 
craft in U.S. airports.
    Even though cruise ship passengers, I think we can all 
agree, are much safer from crime than inhabitants of even small 
cities cross the United States, because of these Federal 
criminal laws, they have the protection of the FBI as their 
enforcement resource. On land, where these crimes are much more 
prevalent, victims are relegated to the protection of the local 
police station. Crimes on cruise ships can and have been 
prosecuted under the full panoply of our Federal court system, 
including nationwide subpoena power over witnesses and 
evidence, national and international extradition, and a 
worldwide investigative capability second to none.
    I'd like to turn now to crime reporting because I think 
this is an issue that has sadly been very misunderstood, 
perhaps even by the attorneys that are advising some of the 
people who have suffered these tragic losses. The fact is that 
regulations on the security of passenger vessels were passed by 
this Congress in 1998, and amended in 2001 and 2002. They 
expressly requires all ships, regardless of registry, sailing 
to or from a U.S. port, to report any felony that occurs in a 
place subject to U.S. jurisdiction to the FBI.
    Now, as we've just seen, places subject to the U.S. 
jurisdiction include the high seas and even foreign waters of 
other nations when an American is involved. About 85 percent of 
the North American cruise industry are voyages out of U.S. 
ports, Florida, California, Hawaii and Alaska. For the 15 
percent or so of cruises that don't touch a U.S. port, the 
cruise lines, nonetheless, still report all felonies involving 
Americans to the FBI. That is where the industry's zero 
tolerance voluntary reporting policy kicks in, and that is in 
addition to the mandatory requirements.
    Now, even so, on January 10th of this year, immediately 
after this subcommittee's last hearing, the International 
Council of Cruise Lines arranged a meeting with the FBI, Coast 
Guard, Immigrations and Customs Enforcement and others. The 
purpose was to discuss a thorough review of those reporting 
procedures to ensure a consistent and uniform protocol, so that 
every agency interested in a particular class of matters would 
receive whatever report it desired.
    I also want to add that in checking the airline industry, 
despite the fact that there are seven times the number of 
patrons flying on international carriers from U.S. airports, 
and despite the fact that the same Federal crimes apply on 
aircraft, there is absolutely no requirement legally for 
airlines to report any crimes to anyone.
    The statistics of crime in the cruise industry are reliable 
because of the mandatory reporting, and they show that cruise 
ships are remarkably safe. Out of the more than 31 million 
passengers carried over the past 3 years, passengers and crew I 
should say, there were 178 total claimed sexual assaults, 24 
missing persons, excluding the 5 who were rescued or found, and 
4 robberies. When you factor in how many of the incidents 
involve passengers, it works out to less than 4 claimed sexual 
assaults per million carried, which ironically, happens to be 
the exact same statistical chance of a person being struck by 
lightning. I was surprised to find that out myself. The numbers 
translate into 1 reported robbery for every 8 million carried; 
12 of the 24 missing persons were tragically determined to be 
likely suicides, and I am not including Mr. and Mrs. Pham in 
that number, one an accidental fall overboard, and that leaves 
11 truly missing out of 31 million.
    This is by no means to minimize these occurrences because 
even one such incident on a cruise is one too many, especially 
if it were your loved one.
    Briefly, I want to outline that U.S. civil jurisdiction on 
cruise ships also gives passengers as high or higher protection 
than patrons on land. It's another reason why the cruise 
industry has every incentive to ensure that their ships are 
safe. United States and even foreign passengers have very broad 
access to U.S. courts. If the cruise line is based in the 
United States, as is every major line of the ICCL, a U.S. form 
for resolution of their grievances must be provided. By Federal 
statute, if the ship even touches a U.S. port, any provision of 
the ticket that weakens the right to a trial or tries to limit 
damages for negligence is legally void.
    I can tell you that all cruise ships today have security 
teams with extensive military of law enforcement backgrounds. 
Closed circuit cameras, x-ray screening, computerized door 
locks that record all entrances into cabins, computerized ship 
access identification systems that match passenger and crew 
photos to the individual boarding, rape kits, strict 
segregation of passenger and crew areas, non-fraternization 
policies, no guest policies, security rounds, and zero 
tolerance for crime are commonplace in the cruise industry 
today.
    Until the FBI or other appropriate authorities begin 
investigations, cruise lines provide the same or better 
response to potential crimes as their shore-side counterparts, 
but like airlines, hotels, restaurants, theme parks, resorts 
and the like, they neither have the expertise, nor the legal 
authority to perform criminal investigations or prosecute 
crimes. So they rely on the responsible authorities to do so, 
but the next port of call is typically less than a day away, 
and the ships are in constant radio communication with the 
authorities, and follow any and all instructions given.
    I thank you again for the opportunity to testify.
    [The prepared statement of Mr. Kaye follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.120
    
    [GRAPHIC] [TIFF OMITTED] T8532.121
    
    [GRAPHIC] [TIFF OMITTED] T8532.122
    
    [GRAPHIC] [TIFF OMITTED] T8532.123
    
    [GRAPHIC] [TIFF OMITTED] T8532.124
    
    [GRAPHIC] [TIFF OMITTED] T8532.125
    
    [GRAPHIC] [TIFF OMITTED] T8532.126
    
    [GRAPHIC] [TIFF OMITTED] T8532.127
    
    [GRAPHIC] [TIFF OMITTED] T8532.128
    
    [GRAPHIC] [TIFF OMITTED] T8532.129
    
    [GRAPHIC] [TIFF OMITTED] T8532.130
    
    [GRAPHIC] [TIFF OMITTED] T8532.131
    
    [GRAPHIC] [TIFF OMITTED] T8532.132
    
    [GRAPHIC] [TIFF OMITTED] T8532.133
    
    [GRAPHIC] [TIFF OMITTED] T8532.134
    
    [GRAPHIC] [TIFF OMITTED] T8532.135
    
    Mr. Shays. Thank you, Mr. Kaye. I thank all three of you 
for your testimony.
    We will start with Mr. Mica, and since there are only two 
of us, what we will do is we will do 10 minutes, but then you 
can have another 10 minutes, and another.
    Mr. Mica. Thank you. I don't know if I will take that much 
time, Mr. Chairman, but I appreciate all three of the witnesses 
in this panel.
    I made a full disclosure before. I am not an attorney, 
although I am a Gator like Mr. Rivkind. Although I never went 
to law school, I have tried to practice adopting and enacting 
some laws from a different side of the aisle. But, Mr. Kaye, 
you seem to indicate from your testimony and you seem to be 
fairly expert that there are laws in place and there are laws 
that protect U.S. citizens, and I think you also tied it into 
the aviation industry so that the American traveler who gets on 
a cruise ship cannot be under the impression after this hearing 
that they are left in some lawless state.
    Are these laws adequate then and in place?
    Mr. Kaye. Absolutely.
    Mr. Mica. That is a beautiful answer. OK.
    Mr. Gorsline, from some of the other things we have heard, 
it is like nobody is in charge on a cruise ship, but I think 
you outlined that, in fact, there is a real pecking order as 
far as law and enforcement. We have heard that there are laws 
that govern, that protect American citizens. On the cruise 
ship, then, the captain is the chief officer, and he has the 
authority in international waters and is required to obey 
international laws and the other pertaining laws. Is that 
correct?
    Mr. Gorsline. Yes, sir, that is correct.
    Mr. Mica. Then you went down the chain of command, so there 
is a chain of command.
    Mr. Gorsline. Yes, sir, there is a chain of command.
    Mr. Gorsline. I am not that familiar with cruise ships. Mr. 
Chairman, I think that Mr. Rivkind--and we might want to 
correct the record because I heard his verbal testimony was 
different from his testimony that he submitted to the 
subcommittee. He said, ``The foreign nature of the cruise ship 
industry has also resulted in a situation where the employment 
of crew is almost exclusively from countries outside the United 
States, including poor, undeveloped, Third World countries.'' 
That is his statement that he submitted for the record. Is that 
correct, the one I have up here? But his verbal testimony, if 
we go back and check the record, was a little bit different. He 
said that almost exclusively the crews were Third World--let's 
say. I tried to copy it. Third World countries, giving a 
different impression that the whole crew is basically a bunch 
of Third World folks that do not really know what is going on.
    I am not that familiar, again, with the industry, only what 
I have seen. Aren't most of the cruise ship captains and the 
key staff that you outlined, Mr. Gorsline, aren't they from 
sort of developed countries like Italy and Greece 
predominantly? Would that be----
    Mr. Gorsline. Sir, in my experience on the ships that I 
have surveyed and done audits on, the operational staff, 
including chief officers and everything else, yes, they are 
either Norwegian, German----
    Mr. Mica. Are they from Third World countries--now, the 
registry may be different, like you may have Liberia, Bermuda. 
I don't know where they register. Again, I can only go by my 
observation, but for the record, aren't most of those people 
who are in charge and responsible, as Mr. Kaye has outlined, 
for actually executing the law, they are not from Third World 
countries, are they? Would that be--I mean----
    Mr. Gorsline. In my experience, sir, that would be correct. 
The senior officers on board----
    Mr. Mica. Mr. Kaye, do you have any knowledge? I mean, the 
ones I have seen--and I have talked sometimes--sometimes I get 
invited to meet the captain. I have only met Greeks, Italians, 
British.
    Mr. Kaye. Norwegian.
    Mr. Mica. Not Third World countries. Norwegian, yes.
    Mr. Kaye. French.
    Mr. Mica. Scandinavian.
    Mr. Kaye. Italian, French, United States.
    Mr. Mica. Are you aware of any cruise ships that have their 
people in command from Third World countries, either of you? I 
would ask for the record.
    Mr. Gorsline. I have not witnessed any, no, sir.
    Mr. Kaye. I don't think I can identify any.
    Mr. Mica. Thank you.
    You know, I think you said also, Mr. Rivkind, was it your 
testimony before Congress that statistics are not important? I 
wrote that down. You said statistics are not important?
    Mr. Rivkind. I would like to address that, of course, your 
question, but I would like to get back----
    Mr. Mica. No. Did you say in your testimony before this 
subcommittee that statistics are not important?
    Mr. Rivkind. I don't think statistics should be focused on 
the way they are with this industry and----
    Mr. Mica. OK. All right. I am----
    Mr. Rivkind. I would like to make a comment----
    Mr. Shays. Just 1 second----
    Mr. Rivkind. I would like to make a comment----
    Mr. Shays. Hold on.
    Mr. Rivkind. OK.
    Mr. Shays. Because, Mr. Mica, you have no limit to time, I 
do want to make sure the witnesses respond, and I am eager to 
know what his answer was. I do not want to take you from your 
thought, but allow him to just finish.
    Mr. Mica. He testified--in fact, I wrote it down before I 
went back and read something else. He said, ``Statistics are 
not important,'' and I have a little quote, and I have R, which 
is Rivkind. The others are a G and a K. So what----
    Mr. Rivkind. I am ready to respond.
    Mr. Shays. Yes, and I would like to know your answer to his 
question.
    Mr. Rivkind. Yes, I think in the context of what we are 
discussing, as was mentioned at the last hearing, when I heard 
an FBI official, a Coast Guard official, and a U.S. Navy 
official here in these hearings say that the statistics 
provided are meaningless, and I heard that. I attended the last 
hearing, so I think that----
    Mr. Shays. In the context of this, just to make sure, 
because I do not want to exaggerate, meaning in the context 
that they cannot be certain they are accurate.
    Mr. Rivkind. Exactly.
    Mr. Shays. That was the basis. They cannot certify that 
they are accurate because they are being provided--no, let me 
just finish. Just because you were not at the hearing, and I 
just want to make sure the record is clear. Because based on 
the fact that they are voluntarily provided, that was the 
basis. And that is what we are trying to determine----
    Mr. Mica. Well----
    Mr. Shays. And let me just continue, because you will have 
your time. There was indication afterward that the FBI may have 
felt they overstated that statement, that there is some meaning 
to it, but they cannot guarantee their validity. That was their 
basic thrust.
    Mr. Mica. OK. Well, see, again, I am not an attorney. I 
just pick these things up here. He said in testimony before 
that statistics are not important. But someone handed me this 
article after you said that and said it--and I get misquoted in 
the press all the time, and I think this is a better--I mean, 
it is a statement I want to enter in the record, which I think 
is important, that Mr. Rivkind has said. I think we need honest 
statistics, and we should--if we require it under the law--this 
is in a Miami Herald article dated Sunday, February 12, 2006.
    Now, I raise that because, Mr. Kaye, you told me there was 
a reporting requirement. So is there or isn't there a reporting 
requirement? I don't know. Can you tell me, Mr. Kaye?
    Mr. Kaye. There is absolutely a reporting requirement. They 
are found in Title 33 of the Code of Federal Regulations, 
beginning at Section 120.
    Mr. Mica. OK. So that would provide us with some honest 
statistics? Is there any other way? You know, can we use 
chains, prods, electrical--is there some way to get more honest 
statistics? Is there something--the other thing, too, I was 
sort of wondering. And, again, also, one thing for the record, 
Mr. Chairman, and also Mr. Rivkind, just for the record, Mr. 
Rivkind made the comment and referred to me, a Member of 
Congress, and my comment and took it--and I want to clear it 
just for the record, just so that it is clear, that somehow I 
as a member did not understand the difference between security 
and law enforcement as it might apply to cruise ships.
    Just for the record, I wanted it clarified that, you know, 
I am not the smartest guy in Congress, but I do know the 
difference, and I did express my deep concern for all of those 
who had some incident which, in fact, they related before this 
committee. All of them were tragic, and I expressed my concern 
about security. But for the record, Mr. Chairman, and for Mr. 
Rivkind's information, I expressed my concern, my personal 
concern. I thought I had disclosed that I was chairman of the 
Aviation Subcommittee, a senior member of the Transportation 
Committee. My concern is the failure of the Federal Government 
to provide adequate port security, not just for cruise--and I 
should elaborate that for the record--also for cargo vessels 
and other maritime vessels, and the terrorist threat.
    So I do have concern about people who have experienced a 
horrific incident, wherever it is. I just wanted to be allowed, 
Mr. Chairman, just to provide that commentary for the record.
    Mr. Rivkind, just a question here. I understand you 
represent the International Cruise Victims Association. Is that 
it? Did you start it or you represent them?
    Mr. Rivkind. I am acting as legal counsel for them.
    Mr. Mica. OK. Do they pay you a salary or you do it----
    Mr. Rivkind. No, sir.
    Mr. Mica [continuing]. Pro bono? And how many people belong 
to this association, do you know?
    Mr. Rivkind. It is growing in number each day. Kendall 
Carver would have a better idea of the exact number. He is the 
president of the organization.
    Mr. Mica. So you don't know how many victims are 
represented?
    Mr. Rivkind. Currently, I don't want to give you a number 
that is not exactly accurate. Kendall Carver would be better 
for that.
    Mr. Mica. All right. Now, you have a law practice, and I 
was reading some of your history, a great history in legal 
aspects of, I guess, maritime litigation. Today, most of it, 
though, would be described as in suits against the cruise 
industry or people who might have some cruise industry 
interests. You represent people, passengers and other folks, 
who have been injured or have some problem with the cruise 
industry. Is that correct?
    Mr. Rivkind. That is correct. My first 4\1/2\ years I 
represented cruise ships only. I am proud to say that all I do 
is represent injured victims.
    Mr. Mica. Over a 23-year period, the last 19----
    Mr. Rivkind. Yes, sir.
    Mr. Mica. Well, again, I come from Florida, and I just see 
what I see on TV. Again, I don't know that much of what is 
going on. One of the problems we have in Florida, of course, is 
the proliferation of suits against everybody. I mean, you get 
up in the morning and, you know, if somebody looked at you 
cross-eyed, call this number and you can sue.
    One of the things that concerns me is the proliferation of 
attorneys, particularly in Florida, around the cruise industry 
now suing the cruise industry. In fact, I don't know, maybe you 
have heard this. I saw people actually passing out little 
flyers and legal cards at some of the ports. Have you heard 
that is going on?
    Mr. Rivkind. I did not----
    Mr. Mica. And these are--I have to qualify. That is, you 
know, like let's sue--has anything gone wrong with your trip or 
your cruise? Would you like to sue? Have you heard of that? 
Again, I have heard some. I have seen a little, just the trips 
I have seen.
    Mr. Rivkind. I would like to respond. First I would like to 
say I am in the middle of a trial, and a lot of these comments 
sound like many of my jurors about tort reform and the 
necessity of tort reform, and I can see where your position is 
on that. I also understand, as you have made clear, you are a 
great friend of the cruise ship industry, and I do sue them, 
have for many years, and I am proud of it.
    If people are at the ports handing out cards or flyers or 
anything like, I don't know----
    Mr. Mica. But you don't do that and you don't advertise for 
those kinds of cases, do you, publicly?
    Mr. Rivkind. No, sir--in what sense? You are talking 
about----
    Mr. Mica. Well, handing them out is one thing, but do you 
advertise that, you know, if you want to sue a cruise ship or 
just that kind of litigation, that is your bag?
    Mr. Rivkind. I do not actively advertise my services.
    Mr. Mica. OK. And, again----
    Mr. Rivkind. I am word of mouth. I do not even have at the 
current time a major Web site advertising my services.
    Mr. Mica. I don't want to embarrass you----
    Mr. Rivkind. I get my cases through word of mouth.
    Mr. Mica [continuing]. But have you made a lot of money 
from suing the cruise industry? I mean, hundreds of thousands, 
millions a year?
    Mr. Rivkind. I am proud to say that based on my legal 
abilities and taking cases with a lot of credibility against 
the cruise line industry, and thank God, you know, there are a 
lot, a lot of cases with a lot of validity and credibility 
against the cruise line industry, and that is the problem.
    Mr. Mica. I am sure that----
    Mr. Rivkind. Maybe if they cleaned up their act, you know, 
it is a disincentive for me to be here and I wouldn't be making 
so much money.
    Mr. Mica. Well, from the description you gave, as the 
industry gets bigger, those ships get bigger, you will have 
plenty of opportunity, from what I have heard.
    Gentlemen, just a couple of closing questions. Again, I 
come from Florida. I am familiar with some of the different 
tour industries, resort industries. I don't know of any 
industry that has the security measures both, say, entering a 
resort, exiting a resort, that the cruise industry has. I mean, 
I have seen it. They take your picture. They verify. They check 
it. Is there any industry--when we went to see--with the 
President, they did wand us, but we did not have to show our ID 
or anything. Are you aware of any tourism industry that does 
that? Aviation I know does not do it. The airlines do not do 
it. We do it with the people that check actually your picture 
and ID--this is kind of ironic. They are probably some of the 
lowest-paid people and they are not TSA or Federal----
    Mr. Kaye. I am not, Congressman. My----
    Mr. Mica. Are you aware of anyone----
    Mr. Kaye. No, and I would add that in the cruise industry, 
cruise operators are required to give passenger manifests to 
the government so that they can do a pre-screening against 
criminal watchlists. And crew are screened in the same manner 
in order to get C-1 visas to work on cruise ships so that there 
is--you know, we know who you are before you get on.
    Mr. Mica. Mr. Gorsline.
    Mr. Gorsline. I don't know of any other industry either, 
sir. It is pretty thorough.
    Mr. Mica. Well, I am just trying to get an ID for pilots 
and crew of an aircraft. Have you ever seen a pilot ID? It 
looks like something that comes out of a Cracker Jack box. Now, 
we do have a new one coming online, but it does not have even 
the things that are required of a passenger getting on a cruise 
ship, and that is wrong. I do not want to justify that.
    Well, Mr. Chairman, just a few questions. I appreciate your 
forbearance and I yield back.
    Mr. Shays. Thank you----
    Mr. Mica. Mr. Chairman, if I may, I have not been to my 
office. I got off the plane, the late plane, and I would like 
to ask a unanimous request that the record be kept open for a 
period of at least--is 2 weeks OK? Is that a problem?
    Mr. Shays. That is----
    Mr. Mica. A period of at least 2 weeks for additional 
questions to be submitted to some of the witnesses.
    Mr. Shays. Right. Happy to do that. In fact, we will not be 
having another hearing--yes, sir?
    Mr. Rivkind. May I say something to Congressman Mica before 
you leave, since I understand you are leaving?
    Mr. Mica. I don't think the----
    Mr. Rivkind. There are three areas----
    Mr. Shays. No, Mr. Mica, seriously, if you are going to 
leave, let the gentleman have his say.
    Mr. Rivkind. It will take a couple minutes, sir.
    Mr. Shays. Well, no, not a couple of minutes. Make it 
quicker.
    Mr. Rivkind. He made three statements that I consider----
    Mr. Mica. Mr. Rivkind, excuse me. I do not have the time. I 
am a Member of Congress----
    [Audience groans.]
    Mr. Rivkind. A fellow Gator, you made an attack in three 
areas----
    Mr. Mica. No, Mister----
    Mr. Rivkind [continuing]. On what I believe is my 
credibility, and I would like----
    Mr. Shays. Hold on a second, guys. Hold on.
    Mr. Mica. Since when does a witness----
    Mr. Shays. Hold on.
    Mr. Rivkind. I just want to respond to three areas----
    Mr. Mica. I was going to ask----
    Mr. Shays. Would both gentlemen please suspend?
    Mr. Mica. Mr. Chairman.
    Mr. Shays. Just suspend a second. We have allowed you 15 
minutes to ask any question. You do not have to stay while a 
witness speaks, so you are free to leave.
    Mr. Mica. Mr. Chairman, under the--may I?
    Mr. Shays. Sure.
    Mr. Mica. Under the rules of the subcommittee, under the 
rules of the House, you have been most generous in giving me 
10, I think a total----
    Mr. Shays. Fifteen.
    Mr. Mica [continuing]. Of 15 minutes. Under the rules and 
procedures of regular order of this subcommittee, of which I 
have been a member for some--going on my 14th year, my time has 
expired. I was merely going to ask you if you would grant 
enough time either from your comments--I have no further time, 
but I would ask your request to----
    Mr. Shays. No, let me just be----
    Mr. Mica [continuing]. Give the gentleman an opportunity 
before I left, before he interrupted me.
    Mr. Shays. No, the bottom line is you have no time limit. 
You have got----
    Mr. Mica. Well, again, I yielded back, but, again----
    Mr. Shays. OK, sure. Thank you.
    Mr. Rivkind, if you would like to say something, and then I 
have a lot of questions I want to ask.
    Mr. Rivkind. Yes, there are three things that were 
mentioned that I did not get to respond to and I think I was 
unfairly attacked about. One was the comment about hiring crew 
members from Third World countries. It is true that the 
officers tend to be not from what we would call ``Third World 
countries,'' but most of the other crew members are. There is a 
major cruise line that does hire many of their security 
personnel from the Philippines, which last that I knew of 
constituted a Third World country. At depositions they admit 
that most, if not all, of their crew members below officers are 
hired from Third World countries.
    Why is that important? Because we are talking about crimes 
on board ships. Most of the reported crimes, unfortunately, are 
crimes committed by crew members, most of the ones that are 
reported. Most of those from cabin stewards and the type of 
crew members that are accused of these crimes do come from the 
Third World countries, and that should be a concern of the 
Congress because, as I stated on my experience, it seems that 
those type of crew members can get a job on a cruise ship very 
easily. They buy the employment letters. There are very little 
background checks, and we have heard from another witness 
today----
    Mr. Shays. What is your next point?
    Mr. Rivkind. The next one was statistics. When I say that 
the statistics aren't important to me, when I hear a comment 
that we cannot rely on the statistics, that they may have some 
meaning but they may not be accurate, and we know that 
statistics can be manipulated, in my opinion they aren't 
important. We have a problem here, an obvious problem, and that 
is what I meant in the context of saying statistics were not 
important.
    Mr. Shays. As you are a lawyer, probably a better choice of 
words rather than ``important'' is they may be misleading. OK.
    Mr. Rivkind. Thank you, Congressman. And then the last one 
was I did not in any way, shape, or form try to say anything 
about your intelligence, Congressman Mica. I am sure you are a 
highly intelligent, schooled individual. You did mention 
earlier that you were concerned more with terrorism and port 
security than law enforcement on board the ships, and I was 
just trying to make a distinction because what we are talking 
about here is not all these treaties and these international 
laws that deal with protecting ships from terrorism, but actual 
onboard law enforcement, and that is what I meant by that 
comment, and I did not mean any disrespect with that comment.
    So thank you.
    Mr. Shays. Thank you, and let me just thank Mr. Mica for 
being here, because he has added to the work of this committee 
tremendously, and there is no one I frankly respect more. Thank 
you.
    Mr. Kaye, first off, I appreciate your testimony. You are 
the only one that has told me it is simple, and it may very 
well be, so you got my attention up front. We wrote to the 
Coast Guard after our last hearing, my staff member, Dr. 
Palarino, and he wrote to the head of liaison for the Coast 
Guard, in an e-mail dated March 6th, and he said, ``Michael, I 
have a lawyer telling us that passenger vessel operators or 
security officers of vessels embarking and disembarking 
passengers from U.S. ports are to report to the Coast Guard and 
the FBI any felonies committed on board a cruise ship. Is this 
correct? Because this is not what was reported to us at the 
last hearing.''
    The response from Commander Michael Lodge, ``The industry 
has initiated a self-imposed requirement to report such 
incidents; however, there is no Federal law or regulation, nor 
is there any international treaty or customary law that 
requires such a report.'' Nick responded to that--Dr. 
Palarino--``Michael, you guys are the experts and I believe 
you, but what about the CFR cited? Am I not reading it 
correctly?''
    Response from Commander Lodge: ``33 CFR 120.220, `that 
occurs in a place subject to the jurisdiction of the United 
States,' while some crimes are covered under the special 
maritime and territory jurisdiction of the United States, 18 
U.S. Code Section 7, this limitation would not reach all 
vessels and all crimes.''
    So what are you saying and what is he saying, and how do we 
connect them?
    Mr. Kaye. OK. Well, I guess what is most important is what 
the regulation says, and I have it in front of me. Section 
120.220(a), which is entitled ``What Must I Do to Report an 
Unlawful Act and Related Activity,'' and it states, ``Either 
you or the vessel security officer''----
    Mr. Shays. And who is ``you''?
    Mr. Kaye. The shipping line, the ship owner.
    Mr. Shays. OK.
    Mr. Kaye [continuing]. ``Or the vessel security officer 
must report each breach of security, unlawful act, or threat of 
an unlawful act against any of your passenger vessels to which 
this part applies or against any person aboard it that occurs 
in a place subject to the jurisdiction of the United States.'' 
And then elsewhere it defines ``unlawful act'' as a felony.
    Mr. Shays. What is the penalty?
    Mr. Kaye. $6,700.
    Mr. Shays. OK. To the cruise industry?
    Mr. Kaye. Yes.
    Mr. Shays. So why when we were meeting with the--when we 
had the FBI and the Coast Guard, they don't see it the way you 
see it?
    Mr. Kaye. Well----
    Mr. Shays. Let me just say and preface it by saying that 
says to me there is something more to the story.
    Mr. Kaye. I will give you my most honest answer. I wasn't 
at the last hearing----
    Mr. Shays. I want your least honest--no, no. [Laughter.]
    Mr. Kaye. You will always get my most honest answer.
    Mr. Shays. I will get your honest answer. There is not a 
most honest.
    Mr. Kaye. I wasn't at the last hearing. I don't know the 
expertise of the witness who testified. I did review in detail 
the transcript or Mr. Swecker, and I did notice that when he 
was asked about extraterritorial jurisdiction on cruise ships, 
he initially stated, ``This is not my area of expertise.'' And 
that is a quote from his transcript.
    Mr. Shays. Fair enough.
    Mr. Kaye. I can also tell you that the people at the 
seaports, like the gentleman quoted over here who is in 
charge--it is the blue board to the right, the middle one, the 
special agent in charge of the Florida seaports, he seems to be 
satisfied that the reporting is very thorough, and I can tell 
you, in California, where I reside, the FBI is fully aware of 
the obligation to report. And when someone other than the 
cruise line or its officer reports, they become very irritated 
because the report under this regulation is supposed to come 
directly from the cruise line.
    Mr. Shays. So if the theft is under $10,000, it is 
reported?
    Mr. Kaye. It is not necessarily reported unless it is a 
felony. Recall that these regulations define ``unlawful act'' 
as a felony. So that----
    Mr. Shays. I thought theft--so an $8,000 theft is not a 
felony?
    Mr. Kaye. It is not a felony, sir. A felony kicks in at 
$10,000. In addition, there is a January 2000 memo from the FBI 
to the cruise industry, which you may hear about from some of 
the cruise line representatives, that was disseminated that 
specifically directed the cruise lines to report thefts only in 
excess of $10,000.
    Mr. Shays. When the cruise line industry makes a comparison 
to the public sector, if someone steals $5,000, that is 
reported and it is statistically part of a community's record, 
correct?
    Mr. Kaye. On land?
    Mr. Shays. Yes, on land.
    Mr. Kaye. If a person reports the theft, I assume so, yes; 
just as if I assume that if a person----
    Mr. Shays. But that wouldn't be reported on a ship?
    Mr. Kaye. If the person chose not to report it?
    Mr. Shays. No, no. I just am trying to understand 
statistics--you know, frankly, I want to say I have no dog in 
this fight. But what I do react to is when I feel like I am not 
being told the truth or that I am steered this way when, you 
know, if I was more knowledgeable, I would go in this 
direction. You heard the first panel, and I think I have faith 
that what they told me about how they were treated was accurate 
subject to not being convinced of that. Every one of those 
stories raises a question about the sincerity of the cruise 
line industry, frankly. So my antenna is up. I am suspicious.
    So then we hear statistics that say, you know, there are 
only so many of a particular category, and then 10,000 
passengers decide, and then they compare it to a town. Well, 
you know, a town just does not have people living there for a 
week. So when you divide the 52 weeks into the number of 
passengers, you get to a community more like 200,000. Then I 
think, well, in a community of 200,000, you actually have 
policemen, and you actually have people who are trained in a 
variety of detective work. And so then I start to draw 
comparisons, and then all of a sudden the comparisons don't 
hold because the security people are not necessarily trained 
the way some would be trained in Darien, CT, or New Canaan, CT, 
with 20,000 people, 23,000, 30,000, or whatever, or my city.
    So I am just trying to explain to you that I am trying to 
sort this out. We have now the Coast Guard saying there are 
certain requirements that they don't have to report, and we 
have you citing the regulations. I want to make sure, because 
you are under oath, that you are totally comfortable with 
giving me the impression that reports are required, because we 
will have another hearing and we will invite you back if the 
information pushes us in this way when, in fact, you did not 
tell me the rest of the story.
    So one part of the story is that--and you said ``felony.'' 
It has to be $10,000 or more. If you had $8,000 stolen from 
you, would you not be outraged that was not part of the record?
    Mr. Kaye. Yes.
    Mr. Shays. OK. So technically, the comment about a felony 
is significant, but then I have to know the rest of the story. 
That is $10,000 or more. And so what I am asking you is do you 
think most of the crimes would be under $10,000?
    Mr. Kaye. Most----
    Mr. Shays. Crimes. I didn't say ``felony.'' Most of the 
thefts would be under $10,000.
    Mr. Kaye. Yes, most of the alleged thefts, I think yes.
    Mr. Shays. Well, not alleged thefts. Thefts, whatever they 
are. I mean, because there are thefts, not alleged thefts. 
There are thefts. You become alleged when you try to put a 
number to it, but you and I will both agree that there are 
thefts on board, and you and I would both agree that probably 
most of the thefts--not alleged thefts but most of the thefts 
are under $10,000. I am not playing a game with you. I am 
just----
    Mr. Kaye. No, but I can't determine something is a theft 
until a law enforcement authority or a court determines it is a 
theft.
    Mr. Shays. Don't be a lawyer here. I am just----
    Mr. Kaye. No, I am just being honest.
    Mr. Shays. No. Are there thefts under $10,000?
    Mr. Kaye. Yes.
    Mr. Shays. OK. They are not alleged thefts. They are 
thefts.
    Mr. Kaye. Some of them are alleged thefts that----
    Mr. Shays. Some are and some aren't.
    Mr. Kaye [continuing]. Are proven not to be thefts.
    Mr. Shays. Let's forget the alleged thefts and let's talk 
about thefts.
    Mr. Kaye. OK.
    Mr. Shays. OK. Now, all I am asking you is: Would it be 
your testimony that there are more thefts under $10,000 than 
more thefts over $10,000? That is an easy answer. The answer is 
yes.
    Mr. Kaye. Yes.
    Mr. Shays. OK. Now, then the question is: Shouldn't that 
information be provided? Wouldn't I want to know, if I was on a 
cruise ship, that I could have a $5,000 theft or a $2,000--I am 
going to be pretty unhappy if someone--if I decide this trip is 
costing me $2,000 or $3,000, it is a great week, and then I 
have $3,000 stolen from me. In my own mind, that cost me 
$6,000. That is not a good deal.
    So what I am just trying to say is: So the rest of the 
story is your testimony, anything over $10,000 has to be 
reported, alleged or not, or actual, any alleged has to be.
    Mr. Kaye. Correct.
    Mr. Shays. And my point to you is: Would it not be 
important for all statistics to be provided but that the FBI 
may not want to or choose to investigate something that is 
under $10,000? That is another issue. What I am trying to do is 
sort out where we go.
    Mr. Kaye. Yes, and I guess the question I am left with is 
where would you draw the line. If it is a pair of sunglasses, I 
mean, these are the types of things that are allegedly stolen 
on cruise ships. Oftentimes they are lost. Sometimes they are 
stolen. And so where would you draw the line? I agree that at 
some place a line needs to be drawn, but people may differ as 
to where that line should be drawn.
    Mr. Shays. OK.
    Mr. Kaye. But I think the cruise industry would be happy to 
draw the line wherever they are asked to draw the line.
    Mr. Shays. I think that is true. Now if someone breaks into 
my house, is that a felony?
    Mr. Kaye. Yes. Burglary, yes.
    Mr. Shays. So if someone breaks into my room, is that a 
felony?
    Mr. Kaye. With force, yes, I believe it is.
    Mr. Shays. I don't care if it is with force. How about a 
key?
    Mr. Kaye. I am not an expert in criminal law, so I am 
searching my criminal law class 30 years ago.
    Mr. Shays. But I think you know what----
    Mr. Kaye. Potentially, yes.
    Mr. Shays. I think you know where I am going.
    Mr. Kaye. Yes.
    Mr. Shays. I am just----
    Mr. Kaye. I think there is an element of force involved, 
which is, you know, what I am trying to explain.
    Mr. Shays. Well, if someone broke into my house in 
Bridgeport, CT, where I live--and everybody knows I live 
there--I am not going to care whether they broke a window to 
come in or they were able to pick the lock or whether they were 
able to find a key, because maybe one of the workers who worked 
at my house gave them the key because I gave them the key. I 
don't really care. I don't have a cleaning service, but if I 
had a cleaning service who had a key and somehow that got--I 
would still expect my police department to take this crime 
seriously and investigate.
    Mr. Kaye. Sure.
    Mr. Shays. What we are being told is if it is $10,000 or 
more, it gets investigated; if it is $8,000 or less than 
$10,000, it does not get investigated by the FBI. They have 
drawn the line.
    Mr. Kaye. That is correct.
    Mr. Shays. So who investigates?
    Mr. Kaye. The cruise industry will investigate it, and they 
will make a record of it, in my experience, and the passenger, 
if they wish to pursue it further, can take it up with the FBI. 
There is jurisdiction over theft under 18 U.S.C. 661 below 
$10,000. Absolutely, the FBI has jurisdiction over thefts below 
$10,000.
    Mr. Shays. You were here when Mr. Leonard testified about 
his theft.
    Mr. Kaye. Yes.
    Mr. Shays. What was your reaction?
    Mr. Kaye. I really didn't have a reaction.
    Mr. Shays. Why not?
    Mr. Kaye. My reaction was----
    Mr. Shays. I had a reaction. I think probably everybody in 
this room had a reaction. But why wouldn't you have a reaction?
    Mr. Kaye. My reaction was, to be honest, why wasn't it 
reported to the authorities by the Leonards.
    Mr. Shays. As opposed to what they did?
    Mr. Kaye. In addition to what they did. If they felt that 
the cruise line wasn't reporting it, why didn't they report it?
    Mr. Shays. You know, my reaction was, My God, this guy went 
through 100 ways to try to get the attention of the cruise 
industry and the line, and they just basically gave him a stiff 
arm. That was my reaction. And I would have thought, as someone 
representing the cruise line, you would have said to me, ``This 
is not a good reaction on the part of the people I represent. 
This guy deserves to be treated better.'' That is what I would 
have thought you would have felt.
    How did you feel, Mr. Gorsline, when you heard that?
    Mr. Gorsline. My personal feeling, sir, is that the 
situation warranted some action. Not having been involved with 
it, I really can't comment on whether that action was 
appropriate or not. You know, just on face value from what I 
heard, I would have sought out additional avenues to get 
compensated, you know, figure out what had happened and get my 
report taken care of.
    Mr. Shays. Mr. Rivkind, how did you react?
    Mr. Rivkind. I reacted the same way you did, Congressman. I 
thought that, you know, it was inappropriately handled by the 
cruise line, and it shows, even if there are procedures in 
effect, that they don't get followed.
    Mr. Shays. So what we have had is three witnesses that lost 
family members; we had one witness who was raped, allegedly--
and I am hesitant to put the word ``allegedly'' because I would 
want to give her the benefit of the doubt on that--and we had a 
young girl who was given lots of drinks and went overboard.
    I would like each of you to walk down how you reacted to 
each of these testimonies. Let's start with you, Mr. Kaye. How 
did you react to Mr. Carver's testimony?
    Mr. Kaye. I think what happened to Mr. Carver was 
absolutely horrible and inexcusable.
    Mr. Shays. Was the firing of the supervisor--was he the one 
responsible ultimately, in your judgment?
    Mr. Kaye. I think he was one of the people responsible.
    Mr. Shays. Who else was responsible, in your judgment?
    Mr. Kaye. I think the cruise line was responsible morally 
to make sure that notification went out and that there was a 
followup. Unfortunately, the line apparently never became aware 
of the situation.
    Mr. Shays. But when they did become aware of it, did you 
see them as part of the solution or still part of the problem?
    Mr. Kaye. I honestly don't know enough about the case to 
answer that. I don't know----
    Mr. Shays. Well, let me just talk hypothetically. Do you 
think they should provide him the information he is requesting?
    Mr. Kaye. Depending on the information, yes. I don't know 
what information he requested, and I don't know what 
information was not given.
    Mr. Shays. OK. Well, he testified about some of the 
information. Maybe you were not listening to that part.
    Mr. Kaye. I was listening.
    Mr. Shays. OK. Do you think he was entitled to the 
information that he requested?
    Mr. Kaye. Again, I don't recall what information he 
requested that he was not given.
    Mr. Shays. Mr. Gorsline, I am talking about Mr. Carver.
    Mr. Gorsline. Mr. Carver's case, I think it was a complete 
breakdown of human factors in the whole process with the 
supervisor. And that being said, that was the logjam 
involvement, the company being made aware of it and their 
response, again, I think that was--I wouldn't have settled for 
that personally myself.
    Mr. Shays. I think you are very generous, Mr. Gorsline. I 
mean, the gentleman said, ``My daughter was on board your ship. 
Your steward knew that she was missing. You knew that she never 
came to claim her belongings. You proceed to get rid of her 
belongings, and you never told any of the family.'' Hello?
    Mr. Gorsline. I agree, sir.
    Mr. Shays. And then once he came forward, wouldn't you have 
thought that they would have said to Mr. Carver, ``What can we 
do to make things right from this point on? How can we 
cooperate? What are all the things that you need to know? And 
what can we do to help?'' Wouldn't that have seemed like the 
logical way?
    Mr. Gorsline. My personal opinion, sir, I would have set up 
a casualty assistance team, more commonly referred to as a GO 
team, and once the information became available of that 
occurrence, there would have been security on top of Mr. Carver 
giving him anything he wanted.
    Mr. Shays. OK. Mr. Rivkind.
    Mr. Rivkind. Yes, Congressman, I think the way they handled 
that was outrageous. I think it is easy to blame a supervisor, 
but it goes to the top. You know, it goes to the training. It 
goes to the mentality of anytime anything happens on a cruise 
ship that the crew members, including supervisors, are there to 
protect the company. And I have cited in my written testimony 
the position the cruise line has taken in a lawsuit by Mr. 
Carver that I think is also outrageous. They have responded to 
his claim that they inflicted emotional distress upon him by 
not releasing all this information about his daughter, basic 
information. Their response, Congressman, was not to sit down 
and say, ``We will give you the information. We want to give 
you some closure. We want to help you.'' Their response was, 
``We do not owe you any duty to investigate.'' And I think that 
is very, very telling, and I have attached that memo to my 
written testimony.
    Mr. Shays. That is, frankly, one of the motivations for our 
having this hearing. If the cruise line industry was eager not 
to have us proceed, they could have treated someone like Mr. 
Carver in a much different way.
    I will start with you on Mr. Pham.
    Mr. Rivkind. I think the same thing. I think that they are 
quick to characterize an incident as a suicide. You have heard 
the testimony, Congressman, that it does not appear that there 
were factors to suggest that. And it again goes to the source 
of the problem. This is an industry that likes to characterize 
anything that happens on board their ship, including the 
Master, whom we have heard is responsible for enforcement of 
all the rules and regulations on the ship and the safety of the 
ship, that anything that happens on a cruise ship, it has been 
my experience that the mentality of the Master of the ship is 
nothing wrong happens on his ship. ``It is a suicide.'' ``It is 
consensual sex.'' And I know we are not talking about it now, 
but at any time you would like me to, it applies to the George 
Smith case, too.
    Mr. Shays. We are talking about the witnesses that came and 
testified.
    Mr. Rivkind. Right.
    Mr. Shays. You are representing the Smith family, correct?
    Mr. Rivkind. Yes, sir.
    Mr. Shays. So that is another day.
    Mr. Gorsline.
    Mr. Gorsline. Again, sir, I would have done the same thing. 
I would have set up a casualty assistance team and gave the 
Pham family everything they needed. Why things didn't happen 
that way, I don't know the case and I am not a lawyer, but as a 
security person, a security expert, and having dealt with many 
situations like that, the first thing you usually do is you 
address the issues and the needs of the family or the persons 
that are involved in the situation when it arises.
    Mr. Shays. Mr. Kaye.
    Mr. Kaye. Based on what I have heard, there appears to be a 
very serious problem. But as in most cases, there are usually 
two sides.
    Mr. Shays. Mr. Kaye, what would you do if you saw someone 
fall overboard or jump? You are on board the ship. Where would 
you go?
    Mr. Kaye. I would immediately go to any one of the 
thousands of employees on the ship and tell them. I would 
throw----
    Mr. Shays. No, don't get carried away here. There are not 
thousands of employees. There are about 900 employees, right?
    Mr. Kaye. Depending on the size of the ship, there may be 
close to 2,000 employees.
    Mr. Shays. Mr. Kaye, with all due respect, I feel like I am 
playing a game here with you. I have been told by the cruise 
industry that most of the ships are 2,000 passengers with 900 
employees. Should I go back to these folks and have them tell 
me differently? That is what I have been told. I know there is 
going to be a 5,000-passenger ship, but I am told most are 
around 2,000. Are most of them 3,000 or 4,000? So tell me, I 
mean, you are the expert.
    Mr. Kaye. Most of the ships have over 2,500 passengers and 
over 1,000 crew members.
    Mr. Shays. OK.
    Mr. Kaye. In my experience.
    Mr. Shays. So thousands or--you are under oath and under 
testimony here. How many crew members are there in a 2,500-
passenger ship?
    Mr. Kaye. I believe over 1,000.
    Mr. Shays. Over 1,000. How many?
    Mr. Kaye. I believe, although I am not certain, 1,200 to 
1,500.
    Mr. Shays. OK. So you would go to any one of the employees 
on board the ship, and what would that employee do?
    Mr. Kaye. Normally, I believe, if I first went to an 
employee, they would immediately contact the bridge, and they 
would begin a man-overboard procedure.
    Mr. Shays. Mr. Gorsline, what would you do?
    Mr. Gorsline. I would flag down an employee, tell them to 
contact the bridge that they have a man overboard. And because 
of my background, I would look for the nearest life ring with--
--
    Mr. Shays. The nearest what?
    Mr. Gorsline. Nearest life ring with a blinker on it and 
throw it over the side to try and mark the spot. But that is me 
personally because I have that background.
    Mr. Shays. Do you think most employees know instantly what 
to do if someone is overboard?
    Mr. Gorsline. I know there is a man-overboard procedure on 
board the ship. The abilities to effectively execute it is 
totally dependent upon their training and how often and how 
familiar they are with that.
    Mr. Shays. Mr. Rivkind.
    Mr. Rivkind. My knee-jerk reaction would be, of course, 
obviously to flag down the first person I could, hope they 
speak English, and hope that the crew member is somebody who 
has some training and knows what to do. I would have doubt 
whether all the crew members would.
    Mr. Shays. OK. Let me just say that if Mr. Kaye had said 
the last point, I would question him, so I want to question 
you. The implication is that most people don't speak English. 
Do you think that is fair?
    Mr. Rivkind. Not all--not the most.
    Mr. Shays. Do you think that is accurate? Is the 
implication of what you just said that most people don't speak 
English?
    Mr. Rivkind. I think a majority of crew members may not 
based on my experience. There are increasing requirements now 
occurring to place more English-speaking crew members on board 
the ships, and they currently are doing that. My experience 
over the years has been there has been a great number of the 
crew members, you know, even some of the officers, you know--
and if they speak English, it is not thorough, complete 
English.
    Mr. Shays. Mr. Gorsline, how many security people are on 
board a ship of, say, 1,000 employees or crew members? How 
many--and by ``security,'' I mean people that would function 
like police officers.
    Mr. Gorsline. Sir, based upon 49 CFR 1520, I cannot go into 
those numbers because they are classified security sensitive 
information.
    Mr. Shays. You know, can I say something? I have just been 
waiting for someone to do that. Why is it OK for me to know how 
many police officers are in Darien, CT, and it is not all right 
for me as a passenger to know how many police officers are on a 
ship?
    Mr. Gorsline. Sir, with the current security posture of the 
country and the industry and what we have to deal with on a 
regular daily basis, it is not prudent to make that information 
available.
    Mr. Shays. Is it not prudent because we do not have enough?
    Mr. Gorsline. Oh, no, sir. We have enough. I will tell you 
this, sir. Let me give you this for----
    Mr. Shays. Your testimony is that you have enough. That is 
what----
    Mr. Gorsline. Yes, sir, we do. I will say from my personal 
experience on the ships that I have audited, there is plenty of 
security people on board, and the programs in place in tiered 
level to go ahead and back them up to the nth degree. A case in 
point, I will give you a perfect mathematical example----
    Mr. Shays. Do they carry weapons?
    Mr. Gorsline. I cannot give you that information, sir. They 
are trained in crowd control and maintaining control of a ship.
    Mr. Shays. Are they trained in institutions or are they 
trained on board the ship?
    Mr. Gorsline. It depends on the company, sir. Most 
personnel that are hired in those positions are of a security 
background, whether it be former military or former law 
enforcement.
    Mr. Shays. So your testimony before this subcommittee is 
that most have military training?
    Mr. Gorsline. Yes, sir. The ships that I have done, yes, 
although the foreign flag ships will have persons that are not 
U.S. military, but they are former military background.
    Mr. Shays. See, what I would think would be that you would 
want me to know they are armed, that you would want me to know 
they are extraordinarily capable, and the fact that this is not 
information that somehow people would share makes me think that 
we are almost reluctant to have people know because it is not 
satisfactory. That is my implication from----
    Mr. Gorsline. Can I clarify, sir?
    Mr. Shays. Sure.
    Mr. Gorsline. Here is the situation and the numbers. I am 
going to go point by point here. If you were to take a city, as 
New York City--and I use New York because that is where I am 
from. You have 8 million inhabitants and you have 43,000 law 
enforcement officers on the books. You divide that into three 
shift. That approximately comes out to 13,333 people per shift, 
if they all show up. Normally it is between 7,000 to 10,000 
people. That puts one police officer per thousand people, 
roughly, in that city--OK--on a shift, on an 8-hour shift. OK.
    The cruise industry has security personnel that covers that 
many times over. Now, as to the question of weaponry and 
protection, I will say this: Cruises have their own 
personality. Every cruise is addressed with a different 
security level based upon the requirement of what the cruise is 
going to be going underneath. They have their basic levels. The 
regulations are set up for those basic level. But if you have a 
spring break cruise, you may add some additional things. You 
may put a law enforcement officer or two or four on board to 
assist the security staff to deal with rowdy individuals in 
like-type situations. If you have a charter party where you 
have dignitaries or that kind of thing, they bring their own 
security on board if it is that kind of situation, and that 
enhances the cruise security on board the ship.
    But the basic level of security is there. Additionally to 
the security force, the crew will have responsibilities based 
upon the increase of the mar-sec level based on the terrorist 
threat. And those crew members that have been designated by the 
Emergency Response Plan will augment the security department. 
So the numbers increase exponentially.
    Mr. Kaye. Mr. Chairman, may I throw in a comment here?
    Mr. Shays. Sure.
    Mr. Kaye. I understand where you are coming from, and I 
think it is a very legitimate question. The difference between 
a cruise ship and a city is that a cruise ship is a self-
contained environment. A city has, you know, limitless 
resources.
    Mr. Shays. Right.
    Mr. Kaye. And so, you know, when you start talking about 
what the exact capabilities are, you are by definition telling 
people what the limitations are. I may be going out on a limb 
here, but it may be completely appropriate for this information 
to be divulged to you in private.
    Mr. Shays. No, but see, what my view is, if you had 
sufficient security, it would almost be a disincentive to do 
something on board a ship. And so you view it as a way to give 
someone an opportunity to know how they could overcome the ship 
or to commit a crime. I view it the opposite. I view it as 
saying, my gosh, they got so many folks, I wouldn't want to 
fool around.
    So it is interesting, our two different perspectives.
    Mr. Gorsline. Sir, can I just comment on that part also? In 
my career, I worked a lot of surveillance detection for the 
State Department. We did a lot of work on identifying those 
individuals that would cause harm to U.S. facilities, and that 
was part of the deal, we would go on out and basically bird-dog 
certain places where certain people would hang out and identify 
their posture, their profiles and everything else, and we would 
put them in categories.
    Now, put that in reverse mode. That is exactly what happens 
when somebody comes on a cruise ship that wants to identify its 
weaknesses. They call it a vulnerability assessment. If you 
identify a vessel's vulnerability and you determine how to 
defeat it, you put everybody on board that vessel, crew and 
passengers, at risk. This is part of that.
    Mr. Shays. Let me ask you this: Do you think it is a 
disincentive to crime or an incentive to crime to know we have 
a marshal on board a plane?
    Mr. Gorsline. On a plane? On an aircraft?
    Mr. Shays. Yes.
    Mr. Gorsline. I think personally that any motivated 
individual or entity that is going to carry out an act and has 
identified an entity to do it on is going to do it. If the 
marshal is there and he gets the job, which is about 3 seconds 
to respond, because at the last level, Level 7 of an attack 
when it occurs, is recognition of an attack. If that marshal 
can recognize----
    Mr. Shays. You are talking a different language to me. I 
just asked a simple question. Do you think it is an incentive 
or disincentive?
    Mr. Gorsline. It is a disincentive. If you can make a 
target harder, they will move on. But if you put a marshal on 
there, you are going to take something--you know, you have to 
account for how many marshals are you going to put on. What 
jurisdiction are they going to be?
    Mr. Shays. Let me ask the question again. Do you think it 
is an incentive or a disincentive to let people know that we 
have a marshal on board an airplane? All you have to do is tell 
me you think it is an incentive or not an incentive or you 
don't know. What is your answer?
    Mr. Gorsline. For the passengers?
    Mr. Shays. For someone to commit a crime on board. Tell me 
your answer.
    Mr. Gorsline. I think it is a disincentive. If you make a 
target harder, they are going to move on to the next target.
    Mr. Shays. OK. And the fact that they know it is a 
disincentive.
    Mr. Gorsline. But part of the marshal program, sir, if I 
just say, is that you don't know who the marshal is. You just 
know they are out there.
    Mr. Shays. Fine. So let me ask the next question: Do we 
have marshals on board ships?
    Mr. Gorsline. To my knowledge, in the cruise industry, no, 
sir.
    Mr. Shays. OK.
    Mr. Gorsline. Now, if the cruise line wants to go ahead and 
put one in for a specific cruise, i.e., hire a local sheriff's 
department or a police officer to come on board----
    Mr. Shays. See, but I like those, if the crimes are 
investigated by the Federal Government, why not have a Federal 
official on board the ship?
    Mr. Gorsline. Because a Federal officer would not be in his 
jurisdiction because the flag of the ship is not flagged United 
States.
    Mr. Shays. So help me out, Mr. Kaye. You are trying to make 
me feel comfortable that the Federal officials are going to 
quickly get involved, and we have testimony from Mr. Gorsline 
that they shouldn't be on board the ship because Federal 
officials are out of jurisdiction there.
    Mr. Kaye. I don't think legally that answer flies. I think 
that if there is a crime on board involving an American, a 
Federal official on board would have jurisdiction. Absolutely.
    Mr. Shays. OK. So----
    Mr. Kaye. But he might not have jurisdiction over nationals 
of a foreign country who are victims of crimes if the incident 
is on the high seas.
    Mr. Shays. Fair enough. It is just that I am just thinking, 
you know, a crime is committed and then how does the FBI agent 
get on board to investigate when the ship is out to sea. I am 
just wondering, if these ships are so expensive and we have so 
many people and so many employees, and we are willing to put a 
marshal on board an airplane, is not one of the suggestions 
made by the group before us that we do that, someone with 
Federal jurisdiction, is there not some logic to it? Mr. 
Rivkind.
    Mr. Rivkind. Well, Congressman Shays, my experience--and I 
think we have heard it also from the FBI, my direct discussions 
with the FBI--is I think Mr. Gorsline is correct, when you fly 
a foreign flag, you are the country of that flag. And the FBI 
has stated--there may be criminal jurisdictional statutes where 
they can enforce in court a crime that is committed on the 
ship, but as far as getting on board that ship, there are a lot 
of complex issues there. They have to get permission of the 
cruise line or the Master because that is a foreign-flagged 
ship, and if the ship is in a foreign country, there may be 
some relationship with that particular foreign country, too, 
that has to be worked out for them to get on board the ship. 
And we have a case involving where the FBI wasn't allowed to 
board the ship for some period of time. It is up to the Master. 
He controls that ship. It is the country of the flag.
    Mr. Shays. Let me ask you, Mr. Kaye, not here but later--
and Mr. Gorsline, and you, Mr. Rivkind, to review the 
suggestions that were made by the International Cruise Victims 
Association. I think that in my time in Congress this is a 
very, I think, fine example of people trying to make a 
contribution who have felt they have been victims. It may be 
that some are just simply not going to do what they want or are 
not feasible or are simply not affordable. But I do think in 
here it would be helpful to know your reactions.
    And let me tell you what--I don't usually do this, but what 
I think I have learned from this session. Mr. Kaye, your 
comment that the records that crime statistics of a felony have 
to be reported is going to stand with me. I at the last hearing 
believed it wasn't. We have spoken to the Coast Guard. They say 
no. You have cited regulation. That is going to stand until I 
hear differently.
    The fact that it is $10,000 or more for a felony says to me 
that it is not really as helpful as it should be. I think 
crimes below $10,000, if they are not going to be investigated, 
should at least be reported.
    I have mixed feelings about, Mr. Kaye, your response to 
some of the folks that testified, because I felt like with 
every one of them, admittedly some alleged, but all of them 
heartfelt, that at the very least the cruise industry should 
have been, once they knew what had happened, once they felt the 
agony of the family, should have been moving in a different 
direction than they moved.
    And I will say, because I know that Jennifer Hagel-Smith is 
here, and I had read from her letter previous, the one-page 
document that I read, condensed from evidently six pages, I 
think overstated her circumstance in terms of not necessarily--
her claim was that no one was there for her. In the context of 
what she meant, I do have empathy for what she meant. She had 
believed that there would be security people and so on.
    I was a little surprised, I will say, with the response of 
the cruise industry. I felt--excuse me, the cruise line. I felt 
that their response to her comments was maybe accurate to a 
point, but a little insensitive given what she has gone 
through.
    And so we are going to have the next panel. I think what we 
will try to do is convene at least their statements. And is 
there anything you would like to put on the record before we 
get to the next panel, any closing comments?
    Mr. Rivkind. I would just state, Congressman, that the 
president of Royal Caribbean Cruise Line has gone on national 
television saying, ``We are the only industry that is not 
required to report a crime.'' So I think that maybe in the next 
panel----
    Mr. Shays. We will sort it out.
    Mr. Rivkind [continuing]. That should be addressed, yes.
    Mr. Shays. Yes, this is not the last hearing.
    Mr. Rivkind. OK.
    Mr. Shays. Mr. Gorsline, any comments you would like to 
make?
    Mr. Gorsline. No, sir. I think I have said all I need to 
say.
    Mr. Shays. Mr. Kaye.
    Mr. Kaye. No, Mr. Chairman. Thank you very much.
    Mr. Shays. Thank you, and I want to say to all three of you 
your testimony has been very helpful, and, Mr. Kaye, you are 
the first person who has ever claimed it is simple, and it may, 
in fact, be more simple than we think, but it may not be right. 
So, with that, let me thank you all very much.
    Mr. Kaye. Thank you, Congressman.
    Mr. Shays. I do not usually convene a panel at 5:30. Are 
they still here? Excuse me, 6:30. Mr. Charley Mandigo, Director 
of Fleet Security, Holland America Lines; Captain William S. 
Wright, senior vice president, Marine Operations, Royal 
Caribbean, accompanied by Dr. James Fox.
    We have two people giving testimony. Mr. Mandigo, Captain 
Wright, and Dr. Fox, if you would raise your right hands?
    [Witnesses sworn.]
    Mr. Shays. Gentlemen, I am sorry that you have had to wait 
so long. We started at 2. Probably this one we should have had 
only two panels. But I would like you both to be able to make a 
statement before we break, and if you would be so kind as to 
allow us to vote and then finish with our questions, that would 
be appreciated.
    Mr. Mandigo. Thank you, Mr. Chairman.
    Mr. Shays. It is Mr. Mandigo?
    Mr. Mandigo. That is correct, sir.
    Mr. Shays. Mr. Mandigo, you have the floor.

   STATEMENTS OF CHARLEY MANDIGO, DIRECTOR, FLEET SECURITY, 
  HOLLAND AMERICA LINE; AND CAPTAIN WILLIAM S. WRIGHT, SENIOR 
      VICE PRESIDENT, MARINE OPERATIONS, ROYAL CARIBBEAN 
     INTERNATIONAL, ACCOMPANIED BY JAMES FOX, NORTHEASTERN 
  UNIVERSITY, THE LIPMAN FAMILY PROFESSOR OF CRIMINAL JUSTICE

                  STATEMENT OF CHARLEY MANDIGO

    Mr. Mandigo. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for inviting me here before your 
subcommittee a second time. I believe that I was here in 
December. My name is Charlie Mandigo. I am the director of 
Fleet Security for Holland America Line. Holland America Line 
is a subsidiary company of Carnival Corp., which encompasses 
Carnival Cruise Lines, Princess, Costa, Holland America Line, 
Windstar, and a couple other companies. My position also is a 
company security officer for Holland America Line.
    I have been employed by Holland America for 3 years in the 
position, and prior to that, I was employed by the FBI for 27 
years and had retired as a special agent in charge of the 
Seattle office of the FBI. In that position, I was responsible 
for all crimes underneath the FBI's jurisdiction to include 
terrorism, crimes on the high seas, and other matters.
    In that 27-year career, as all of us see in the media, it 
rapidly became clear to me that crime can occur in every 
segment of society, regardless of where we were. In that 
capacity, and switching careers from one to another, and prior 
to my employment with Holland America Line I had never been on 
a cruise ship, but looking at the numbers that my expectation 
would be that I would look at the possibility of spending a 
significant amount of my time handling crime on cruise ships.
    Much to my satisfaction in this when I came to the cruise 
line and supervising these matters throughout Holland America 
that has 12 cruise ships, I found a very low incidence of crime 
compared to what my expectation was. And what I did find was a 
significant amount of our time was spent looking at proactive 
measures on board cruise ships to try to avoid crime. And we 
have many measures in place on cruise ships to deter crime, to 
minimize crime, and we do an extraordinarily good job on that.
    Unfortunately, when we are dealing with a large number of 
people, as any large number of people in any segment of our 
population, there are always going to be incidents that occur 
that are tragic and are unfortunate. And I know in my 
experience of law enforcement where I handled child abductions, 
kidnappings, and other matters, some of them did not turn out 
well. Always the most difficult part of the job was dealing 
with victims, in that they are very tearing, they are very 
tragic, and very difficult to deal with. And all victims on 
this, we would extend our condolences to. But it is our 
objective to provide a safe and secure place for all of our 
guests on board our cruise ships.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Mandigo.
    Captain Wright. You need to hit the button there. There you 
go.
    Captain Wright. Technology.
    Mr. Shays. Great. Thank you, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.136
    
    [GRAPHIC] [TIFF OMITTED] T8532.137
    
    [GRAPHIC] [TIFF OMITTED] T8532.138
    
    [GRAPHIC] [TIFF OMITTED] T8532.139
    
                 STATEMENT OF WILLIAM S. WRIGHT

    Captain Wright. Chairman Shays and members of the 
subcommittee, my name is Bill Wright. I am the senior vice 
president of Marine Operations for Royal Caribbean 
International, a global cruise vacation company operating 19 
ships. Our sister brand is Celebrity Cruises, which operates 
nine ships worldwide. I am pleased to be here today to provide 
testimony on behalf of our two cruise lines and our parent 
corporation, Royal Caribbean Cruises, Limited.
    I have more than 30 years of seafaring experience. I have 
worked for Royal Caribbean International for nearly 14 years, 
including serving as Master on a number of the ships in our 
fleet. In my current role, I am responsible for the maritime 
operations of the Royal Caribbean International fleet. I was 
born and raised in south Florida.
    All of us at Royal Caribbean appreciate the time and 
serious consideration that you are applying to these hearings.
    Mr. Shays. Thank you.
    Captain Wright. We hope that they will improve the public's 
understanding of our industry, and we particularly appreciate 
you giving us this opportunity to appear before you to answer 
the subcommittees questions.
    There are clearly a lot of emotions surrounding the issues 
being raised here today, and our hearts go out to everyone here 
who has suffered a loss. But it is important that the facts and 
only the facts drive decisionmaking by interested parties and 
that the media not be used to distort the facts or to get in 
the way of law enforcement investigations in their search for 
the truth. It is important to the public, the cruise industry, 
and to Royal Caribbean that we discuss the facts completely, 
accurately, and in context.
    My written testimony addresses in detail issues related to 
the hiring and training of our staff, guest behavior policies, 
and crime reporting policies. Due to my limited time today, I 
will touch briefly on those issues and respond to those raised 
by others who have been asked to testify today.
    Providing a safe environment begins with hiring and 
training of our crew members, including crime reporting 
procedures, our safety policies regarding guests, and crew 
member behavior. Our U.S. and foreign national crew member 
applicants are screened carefully, and it is our policy not to 
hire anyone with a criminal past. Each ship has officers with 
specific security responsibilities on board. All crew members, 
regardless of their responsibilities, are trained to report any 
suspicious condition or activities on board to their superiors, 
who are then required to report them up the chain of command.
    Our policies and training require diligent reporting of 
alleged crimes to the FBI and other law enforcement 
authorities. The FBI has identified for the cruise line 
industry those allegations of potential crimes it wants 
reported. We not only report what the FBI requests, but we 
often report additional allegations that fall below FBI 
thresholds or what otherwise would not be reported in a land-
based environment.
    Perhaps this is why FBI Agent John DiPaolo, who oversees 
criminal investigations for south Florida seaports, said the 
following about the cruise industry's crime reporting track 
record in the Miami Herald story on February 12, 2006, and I 
believe the quote is to our right and to your left: ```We have 
very open lines of communication,' DiPaolo said. `We've never 
had an instance where I went to them and said, Hey, you should 
have reported that to us.' ''
    In many cases, we give the FBI more than it requests. As a 
result, the FBI often declines to investigate allegations of 
crimes below certain thresholds. In other words, we report 
incidents to the FBI even though they fall below the thresholds 
the FBI has established for industry reporting. We have also in 
place strong and effective policies that establish appropriate 
behavior for crew members and guests, including crew member 
interaction with guests. We enforce these policies up to and 
including expulsion from the ship or termination of employment.
    Today, you have heard testimony from others regarding 
individual experiences on our cruise ships. We at Royal 
Caribbean and Celebrity Cruises extend our deepest sympathies 
to the Carver family for their loss, and we regret that one of 
our guests, the Leonards, reported that something was stolen 
while sailing with us.
    While we deeply regret that our guests had experiences they 
shared with the subcommittee, we should not lose sight of the 
facts surrounding these incidents, which represent less than 
one-tenth of 1 percent of our guests' experiences.
    The case of Ms. Carver is particularly tragic. We regret 
that the Carver family has experienced this inconsolable loss. 
We know now that one of our supervisors was notified by a room 
steward that Ms. Carver was missing from her cabin. 
Unfortunately, and tragically, that supervisor did not 
recognize the significance of her absence and never reported it 
to his superior, as he should have done. This was wrong and 
inexcusable. He exercised poor judgment and we fired him as a 
result.
    I also regret that, due to the supervisor's failure to 
notify his superiors, we didn't realize that Ms. Carver was 
missing and, therefore, no one from our company had the chance 
to personally inform the Carver family about her disappearance.
    Could we have done anything different to save Ms. Carver 
from apparently committing suicide? We have searched our minds 
and hearts to second-guess ourselves on that. Sadly, the facts 
appear that Ms. Carver went on this cruise with the intent to 
commit suicide. Ms. Carver purchased her passage only 2 days 
before the ship's departure from Seattle and boarded with only 
the clothes she was wearing, two purses, and an envelope 
containing a computer disk. These are not items that would 
prepare her or anyone else for a 7-night Alaska cruise.
    Mr. Leonard alleged that some of his wife's belonging were 
stolen from his cabin. We are genuinely sorry for their loss. 
It is noteworthy, however, that the Leonards declined to use a 
safe deposit box available on board because, as Mrs. Leonard 
has stated, she did not want to be inconvenienced. The Leonards 
have also declined travel insurance. And just if this jewelry 
had been lost at a hotel while on land, Mrs. Leonard could have 
filed suit against the company for her loss. But they have 
never exercised that right. Had the Leonards taken advantage of 
our security precautions, Mrs. Leonard's jewelry would have 
been secure.
    And, finally, I would like to add that our hearts continue 
to go out to Jennifer Hagel-Smith and the Smith family over the 
disappearance of George Smith. I was personally very happy that 
I for the first time have had the opportunity to meet Mr. and 
Mrs. Smith and Bree Smith and extend my condolences for their 
tremendous loss.
    I think it is important for the purpose of this 
subcommittee just to state that in this instance, as in other 
instances, our reporting of the disappearance of George Smith 
was expeditious and complete, and an investigation has been 
conducted, a thorough one, and we continue to cooperate 
entirely with the FBI.
    I thank you for this opportunity, and I am happy to take 
any questions.
    [The prepared statement of Captain Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.140
    
    [GRAPHIC] [TIFF OMITTED] T8532.141
    
    [GRAPHIC] [TIFF OMITTED] T8532.142
    
    [GRAPHIC] [TIFF OMITTED] T8532.143
    
    [GRAPHIC] [TIFF OMITTED] T8532.144
    
    [GRAPHIC] [TIFF OMITTED] T8532.145
    
    [GRAPHIC] [TIFF OMITTED] T8532.146
    
    [GRAPHIC] [TIFF OMITTED] T8532.147
    
    [GRAPHIC] [TIFF OMITTED] T8532.148
    
    [GRAPHIC] [TIFF OMITTED] T8532.149
    
    [GRAPHIC] [TIFF OMITTED] T8532.150
    
    [GRAPHIC] [TIFF OMITTED] T8532.151
    
    [GRAPHIC] [TIFF OMITTED] T8532.152
    
    [GRAPHIC] [TIFF OMITTED] T8532.153
    
    Mr. Shays. Thank you very much. I am going to let my 
colleague jump in, but I just want to ask you, Captain Wright, 
are you comfortable with--I believe sincerely that with the 
case of Mr. Carver and his daughter Merrian, that you all 
deeply regret what happened. But I don't hear any regret for 
the problems he still encountered in trying to get information. 
That is where I am having my big disconnect with your company. 
It would seem to me that the way you would best express your 
sorrow is to do--almost have a situation team, it has been 
suggested, to say how can we help you in any way, get the 
information you need to get--etc.
    So, maybe you could respond to that.
    Captain Wright. Certainly. It is my understanding that we 
did our best once we were aware of the disappearance of Mrs. 
Carver, and it was tragic that the chain of command broke down. 
It was a clear error chain. Things went wrong, Mr. Chairman.
    Mr. Shays. No, but in terms of talking to employees and 
stuff like that, they weren't given the access to do that. I am 
just curious why.
    Captain Wright. Oh. Well, my understanding, Mr. Chairman, 
is that they were. We actually designated a vice president of 
the corporation, Mrs. Lynn White, who is responsible for 
overseeing these types of issues, to personally take that case. 
We provided the Carvers with information that was voluntary. We 
also replied to subpoenas that Mr. Carver mentioned in his 
testimony. So I am not sitting here with the opinion that we 
have been as incooperative as Mr. Carver indicated.
    Mr. Shays. So let me put it in a positive and then give it 
to Mr. Kucinich. Are you saying that you provided all the 
information that the Carver family has asked for, or some of 
the information?
    Captain Wright. Yes, I believe we have attempted to be 
cooperative and I believe that we--my understanding is that we 
have provided information voluntarily above what was requested 
in----
    Mr. Shays. Are you aware of any information that you have 
not provided that they have requested?
    Captain Wright. No, I am not.
    Mr. Shays. OK. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I would like to ask both Mr. Mandigo and Captain Wright, 
since it has already been established that you don't keep 
records for the purpose of police reporting, you just turn 
things over to the FBI, at least with respect to any crimes 
that are committed within the United States, I have a question 
generally. Do you keep records for insurance purposes? Mr. 
Mandigo.
    Mr. Mandigo. I don't know what in reference you are making 
that to, Mr. Kucinich.
    Mr. Kucinich. Well, you know, if you have incidents on your 
ships, do you keep records for insurance purposes of those 
incidents?
    Mr. Mandigo. As a matter of routine, we would keep those 
records. Now, if at a future date it becomes relevant to 
insurance, then that record may be there. And we do not--we 
don't keep records specifically in anticipation of insurance. 
We keep records as a matter of routine and operational 
procedures.
    Mr. Kucinich. See, I just wonder, you know, if throughout 
this hearing this is one area that would be fruitful to 
explore, Mr. Chairman. Because people have testified earlier 
there has been a concern about certain things not being 
reported. And the implication is that there is a lack of 
incident recordkeeping and reporting by the cruise line 
industries. We have heard from the FBI and the Coast Guard they 
don't keep track of the number of incidents on cruise ships. I 
would think that just for insurance purposes companies would 
need to keep records of criminal acts.
    And so I want to ask you again. Do you have records of the 
criminal acts that have taken place on your ships?
    Mr. Mandigo. We have records--anything that is reported to 
us, you know, through our front desk on our cruise ships is 
reported as a matter of record.
    Mr. Kucinich. And this is a matter between you and the 
insurance companies first?
    Mr. Mandigo. No, it is not for insurance companies, it is 
for our own operational procedures.
    Mr. Kucinich. Do you keep records and you file reports with 
your insurers as to the incidents that take place on your 
ships?
    Mr. Mandigo. You are asking about a matter that I do not 
have expertise in as far as, you know, what is filed for 
insurance claim or not an insurance claim.
    Mr. Kucinich. Can you see that this subcommittee receives 
all reports of incidents, criminal incidents, that have 
occurred on your ships that have been filed with insurance 
companies?
    Captain Wright. I am sure that those records are there. 
They are--it is not my area of work. That inquiry would have to 
be directed elsewhere.
    Mr. Kucinich. Captain Wright.
    Captain Wright. Congressman, I would agree with the 
statement that was just made, that we keep a wide variety of 
records. I think your scrutiny of the----
    Mr. Kucinich. Are your ships insured?
    Captain Wright. Of course our ships are insured.
    Mr. Kucinich. Do you have liability insurance for acts that 
take place?
    Captain Wright. Yes, we do.
    Mr. Kucinich. Do you have out-of-court settlements that are 
directed, for instance----
    Captain Wright. I have no knowledge of that. I would assume 
we do, yes. That is an area that is handled by our risk 
management people. I would not be aware of the details. But 
certainly our ships are insured.
    Mr. Kucinich. Mr. Chairman, I think that there is just 
another way at which you can get information, that the 
subcommittee can gain information about what is going on on 
these ships. And that is to go after the records and the 
communications between the company and their insurers.
    If you are telling the insurance companies what is going 
on, there has to be records. Now, if things are going on and 
you are not telling the insurance companies, I am sure the 
insurance companies are going to be very interested in that, 
because that would affect what you are paying for your 
insurance. And it also could, you know, raise some interesting 
other questions that are legal in nature.
    So I think--and the work of the committee, which I know is 
ongoing, Mr. Chairman, I thought I would point out to you that 
it would be helpful for the committee's work to get the records 
of communications between the cruise lines and the insurance 
companies.
    Finally, Mr. Chairman--I know we are getting close to a 
vote here--I have from the Web site of the Royal Caribbean 
Lines a page here that talks about their environmental safety 
and security committee charter. I would like to submit it for 
the record. It says, under ``Safety and Security,'' this 
committee that they have set up shall review safety and 
security programs and policies on board the corporation's 
cruise ships; the committee shall review with management 
significant safety and security incidents on board the 
corporation's cruise ships and obtain reports from members of 
management as the committee deems necessary or desirable in 
connection with the corporation's safety and security matters.
    I would like to submit this for the record, and I would 
suggest to the subcommittee that we also gain copies of those 
reports. They might be really instructive as to what is 
actually going on on that line and any similar reports that 
might be available on any other line.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.154
    
    [GRAPHIC] [TIFF OMITTED] T8532.155
    
    Mr. Shays. Gentlemen, I am going to make a request that, if 
you don't mind staying until after the vote, if you would look 
over--and my staff will give it to you--the recommendations 
that were presented to this subcommittee by the International 
Cruise Victims Association. What I would like is for you to 
tell me what you think is being done right now, what you think 
would be totally impractical or impractical, what you think 
would be very expensive--and let us judge that--and what you 
think might have merit, whether we require it or whether you 
all did it.
    This is the first hearing I have ever conducted where I 
have asked people to stay after a night vote hearing, and I 
apologize. I hope it will be the last.
    Dr. Fox. Will you want me to testify afterwards?
    Mr. Shays. Right. You know, Dr. Fox, I am sorry, I thought 
you were accompanying, and ``accompanying'' means you don't 
testify. So I apologize. That is the understanding. But I am 
happy to have you answer and respond to any questions that we 
have, OK?
    So we will have a temporary adjournment.
    [Recess.]
    Mr. Shays. The subcommittee will come to order.
    Let me just revise what I said before I just ran out. Dr. 
Fox, we had you down as accompanying Captain Wright, but we are 
happy to take testimony, particularly given that it is a little 
after 7 at night and you have been here all day. So your 
testimony is welcomed, valued, and we will look forward to 
hearing from you.
    Dr. Fox. Thank you. And I believe there was also some 
written testimony which has already been submitted. Very short, 
so perhaps lost in the shuffle of the large documents.
    Mr. Shays. It doesn't have to be short. You give your 
testimony as you want.
    Dr. Fox. Oh, my verbal testimony will be short as well--not 
just given the hour, but it is short. And I thank you for 
listening to me and apologize for the confusion about the 
agenda.
    Mr. Chairman, my name is James Allen Fox. I don't mind the 
fact that there was this oversight, not at all. The only thing 
I minded tonight was when someone made reference to the fox 
guarding the henhouse. I took a personal affront to that.
    I am the Lipman Family Professor of Criminal Justice at 
Northeastern University in Boston. I think I heard that you 
were from Boston originally, Mr. Chairman.
    Mr. Shays. I wasn't from Boston and I wasn't from Hartford; 
I was closer to New York City, which makes me a suspect Yankee.
    Dr. Fox. OK. I thought I heard Boston earlier, so I thought 
we would speak the same language here.
    Mr. Shays. No, what I was explaining is Mr. Lynch had no 
trouble hearing our witness from Ireland; I needed a little 
translation.
    Dr. Fox. OK.
    My specialty is crime statistics and crime measurement. I 
have several graduate degrees--doctorate, a couple of masters. 
One of the masters degrees is in mathematical statistics, 
besides the masters and doctorate in criminology. Among my 
books, I also have written seven statistics texts. I was the 
founding editor of the Journal of Quantitative Criminology, 
which is the most prestigious quantitative journal in our 
discipline. I am also a fellow at the Department of Justice 
Bureau of Statistics, maintaining much of the data on homicide. 
I point that out in terms of my role here, which is essentially 
to discuss and comment, and perhaps validate, on some of the 
measurements that have been made about the risk.
    I have also testified on 12 other occasions here in the 
Congress, so it is nice to be back. This time I am back at the 
request of the International Council on Cruise Lines and 
specifically to examine and comment on some of the numbers that 
have floated around--no pun intended--about crimes on board 
ships.
    Before I make my comments, I did listen and I was somewhat 
interested in the exchange earlier about Mr. Rivkind's 
testimony and whether Mr. Mica had heard it correctly or not 
heard it correctly. Actually, I heard it a little bit 
differently. I thought he had said that it is not about the 
statistics. Which to me meant that he wasn't saying statistics 
aren't important but that it is really an issue of human 
suffering and tragedy. And I do understand that and I feel 
quite strongly, as others do here, that we shouldn't lose sight 
of the tragedy and loss and suffering amidst all the numbers.
    Yet it is also interesting, in Mr. Rivkind's oral and 
written testimony he does say, ``There has been increasing 
numbers of criminal activity aboard ships.'' And being a 
numbers person and a quantoid, I sort of looked for some tables 
that--there are none. And I do wonder how he does make the 
statement about there being an increasing number of crimes. I 
suppose he just feels that since there is more ridership, more 
passengership, there would be more crimes, but that is an open 
question.
    I did look at some of the data. And while of course there 
is virtually no place----
    Mr. Shays. Could I just ask? I have asked all the other 
witnesses who testified in the last panel if they represented 
any interest. Are you being in any way paid by the cruise line 
industry? Are you representing them because--I think the 
feeling was that not that what you say isn't valid, but I just 
want to know. You are not an indifferent source here. You are 
paid by the industry or not?
    Dr. Fox. I am being paid as a consultant by the industry, 
yes.
    Mr. Shays. Right. But I respect that you are here with your 
expertise and your knowledge and the requirements that go with 
it, and I thank you.
    Dr. Fox. Yes. And indeed, the request from the industry was 
for me to look at some statistics and do some analyses of those 
numbers and see what they find.
    Now, if the findings--like I don't know if I would be here, 
but I am here and I shall see. I stand behind these 
calculations whether I am paid or not paid.
    Mr. Shays. Fair enough. Thank you.
    Dr. Fox. Now of course there is virtually no place on land 
or on sea that is totally risk-free. Still, Americans traveling 
aboard the major cruise lines that service this country can be 
assured of their personal safety.
    Now, as you know, Mr. Chairman, it is a very difficult task 
to try to derive a statistical matchmate or a standard for 
assessing the relative risk of crime on board a cruise ship 
versus some other location like a local community. A cruise 
ship is an atypical location. It is an atypical composition of 
people. It is not representative of any city in terms of age, 
race, and gender and level of affluence. And indeed, the 
climate on board a ship is sometimes quite spirited and not at 
all like the day-to-day work environment that people have in 
their homes and their home neighborhoods.
    Regardless of the methodological complexities that make it 
difficult to strike these comparisons, what I did find is that 
the number of reported serious crimes aboard cruise ships is 
extremely low no matter what benchmark or standard you use. 
Now, compared against a home community, passengers have an 
appreciably lower risk of sexual assault and robbery while 
enjoying a vacation cruise.
    Now, I recognize, as you pointed out, Mr. Chairman, that it 
is very difficult to take some of these raw numbers about how 
many millions of passengers there are and translate that into a 
comparison with a community. But I think you have done it 
correctly when you say about 200,000 would be the appropriate 
number. And indeed, in the table that is attached to my written 
testimony, I do essentially that. I take the 31-plus million 
passengers over a 3-year period of time and turn that into a--
number of about 10 million and convert that by essentially 
multiplying by 6.9----
    Mr. Shays. I don't have your testimony.
    Dr. Fox. OK. You don't?
    Mr. Shays. No.
    Dr. Fox. It is over there.
    Mr. Shays. OK, the press has it but the subcommittee 
doesn't. So we are going to see if someone will get that for 
us.
    Dr. Fox. So essentially I take that number, 10 million, 
multiply by the average length of a cruise, which is 6.9 days, 
divide that by 52, to essentially convert the ridership, the 
passengership on board to an annualized number comparable to 
the fact that you live in your home community virtually year-
round. And there are indeed not quite 200,000, but 195,000-
196,000 passengers, once you make that adjustment to give you a 
full-time annual equivalent.
    Adding in the size of the crew, because they can of course 
be victims of crime as well as perpetrators, you come up with a 
total population figure.
    That, then, I take the number of sexual assaults--and I 
remove the cases of what is called sexual contact, which is not 
truly a rape--I try to get at the numbers of rapes as well as 
the number of robberies for the cruise lines and that 
population that I have calculated--which turns out to be 
281,000 on an annual basis including crew and passengers, 
converted to full-time equivalent--and convert that into a 
crime rate and compare it to what the crime rate is in the 
United States for forcible rape and robbery.
    And for forcible rape, what you essentially see is that the 
rate of rape on board ships on cruises is about half that of 
the national average.
    Now, in terms of robbery--and I want to point out there is 
a little bit of distinction and clarity about this that is 
needed. In the last panel, there was discussion about thefts of 
10,000 or more and thefts that are lower than 10,000. And once 
in a while the word ``robbery'' was used by a witness. And 
these are robberies. In fact, I believe the request had to do 
with robberies, which is a confrontation between a victim and 
the robber. There is a personal confrontation, there is 
intimidation, threat----
    Mr. Shays. As opposed to theft?
    Dr. Fox. As opposed to theft, when the victim is somewhere 
else and their property is taken. This is robbery, not theft. 
Theft involves your property being taken unlawfully by someone 
when there is no intimidation, no personal confrontation 
between you and the perpetrator. Robbery is when someone 
confronts you, demands money----
    Mr. Shays. Yes, we get it. We get it.
    Dr. Fox. OK. And comparing the incidence of sexual 
assault--rape--and robbery on board cruise ships per 100,000 
population, comparing that to the United States where you do 
find that, as I said, for sexual assault the rate is half that 
of the United States. And for robbery, it is a tiny, tiny 
fraction. Robberies essentially don't happen very often on 
board cruise ships. And that makes sense because of the very 
confined area, where it is very difficult for an offender to 
get away, and the relatively secure environment that you find 
on board ship compared to your local community.
    So to conclude here, I think that the comparison with 
lightning that was struck--again, pardon the pun--before, I 
think, is quite telling. There are four sexual assaults per 
million passengers. So when someone buys a ticket on a cruise 
line, there's four----
    Mr. Shays. Wait a second. Why do you then go to a million 
passengers? Why wouldn't you say so many sexual assaults--this 
is over a 3-year period or--I mean, wouldn't it be over 
200,000, not a million?
    Dr. Fox. This is when--what is the chance that when you buy 
and ticket and you are going to spend a week on a cruise----
    Mr. Shays. Oh, I see. OK.
    Dr. Fox. When you buy a ticket and spend a week on the 
cruise, what is the chance that you will be sexually assaulted 
in that week? An individual.
    Mr. Shays. OK, fair enough. So we are not comparing to 
towns right now, we are--that is not--OK.
    Dr. Fox. Right. I am just comparing to the weather. When 
you buy a ticket for a cruise, you have a 4 in 1 million chance 
of being sexually assaulted. That is identical to the chance of 
being struck by lightning.
    Now, of course, we don't go out in a rainstorm when we take 
that----
    Mr. Shays. Wait a second. Wait a second. Isn't lightning 
over a stretch of a year?
    Dr. Fox. Yes.
    Mr. Shays. This is not a stretch over a year. This is 1 
week.
    Dr. Fox. It is the time period for which you are on that 
cruise. Now, if you spend every day on the cruise and you take 
a year-long cruise, obviously your chances increase, but most 
Americans don't spend a year on a boat, on a ship, they spend a 
week.
    Mr. Shays. I know, but I just wondered if you are being 
fair with your comparison right now. Maybe I am just not 
getting it, but it seems to me you have to multiply times 52.
    Dr. Fox. Except it also doesn't rain every day either. So 
there are a lot of days in the year when you have no chance of 
being struck.
    The reason I bring this up is just people have a sense 
that, yes, there is a certain risk of lightning striking you. 
But it is a risk that we sort of deal with, we take reasonable 
precautions in a rainstorm and a thunder-and-lightning storm. 
And all I am saying here is that, yes, there is a risk of 
sexual assault--4 in a million; there is a risk of robbery, 
which is a very tiny risk, much, much smaller than that. We 
can't--there is probably no place where there is zero risk, but 
these are rather low numbers.
    Mr. Shays. See--yes, OK. Keep going.
    Dr. Fox. Well, that is really what I have to say, is that 
when you adjust for exposure time, the chance of being 
assaulted on a cruise ship is extremely slim.
    Mr. Shays. Yes. I am not comfortable with the statistics. 
So your going through the statistics with me is partially 
valid, but there is another part that hasn't bought into the 
fact that they are legit. But we will satisfy ourselves. I 
don't know how long it will take, but we will satisfy ourselves 
either they are legitimate or they are not.
    I used to be in the Peace Corps in the Fiji Islands. There 
were cruise ships that would come and go. And it was a duty-
free goods port. I was made aware that people would buy cameras 
at the very end and think they were getting an F-stop that was 
lower than what they were getting, and they would get on board 
the ship and the ship is about to go. It is just a different--
you know, and they couldn't run back and quickly exchange and 
they overpaid and all that stuff.
    I just have the feeling that a lot of people don't report 
it because, the next day they are off or that afternoon they 
leave. Then they may report it later, but it doesn't get 
reported by the cruise industry. I just think there are a lot 
of other factors that come into play. It is a suspicion.
    But I would concede that if the statistics are accurate, 
the numbers are pretty low. I think that a witness like Ms. 
Kelly would not show up on the radar screen. And I think that 
when we talk about George Smith, if he was killed he would be 
called ``missing'' and not ``killed.'' So I just have problems.
    Dr. Fox. Well, also, in Greenwich, CT, which I think--is 
that your area? If rapes occur, they are not always reported 
either. There are many reasons why victims of crime don't 
report it. That could happen on land and on sea.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8532.156
    
    Mr. Shays. I just wonder, though, if the nature of just 
being on board a week means that sometimes things just don't 
get reported that would if they were on board for a month, 
would have gotten reported. It is like, what's the point, I am 
leaving tomorrow, who the heck do I speak with, and, and, and.
    So at any rate, I am just telling you what I think and I am 
just a little suspicious of the statistics. Now we have Mr. 
Kaye who said, you know, they are required by law to report it. 
Yet we have the Government telling us they are not required by 
law to report it. That raises questions.
    So at any rate, thank you for your points about the 
statistics. At this time I am going to have Dr. Palarino just 
ask you a few questions for the record and then I am going to 
go through this document that I asked you to look at.
    Dr. Palarino. Thank you, Mr. Chairman. I just have quick 
questions for Mr. Mandigo and Captain Wright.
    I have heard talk about a risk management office. Could you 
both explain what a risk management office is and what it does?
    Mr. Mandigo. Well, I have very little to do with the risk 
management office, but it is basically the people that would 
handle, as I understand it, the people that are making claims 
against the company. Not litigation, but people that, you know, 
feel that they have some grievance with the company. There may 
be damage to equipment that, where we have insurance, where it 
would be repaired. That is my understanding of what those 
people do.
    Dr. Palarino. Captain Wright.
    Captain Wright. Very much the same thing. We have a risk 
management department. It is a very large department that has a 
multitude of responsibilities. They are responsible for our 
insurance. They are responsible for the operation, the running 
of our medical facilities. They maintain a 24-7 watch system in 
terms of the ship's need to contact shoreside either for 
notification purposes, for--quite often and most regularly--for 
the coordination of a medical evacuation, which occurs with 
some degree of regularity. That is the number that we can call 
from the ship and be guaranteed that somebody is there who 
knows the procedures, has the telephone numbers, has the 
contacts, and can respond.
    Dr. Palarino. So the victims and the victims' families that 
testified on panel one, each one of those would have had some 
type of risk management associated with their incident. Is that 
a correct statement?
    Captain Wright. It depends on how it comes through the 
system, that it may have come in. If they filed a civil suit, 
lawsuit, then it is not going to go to risk management, it is 
going to go through a legal counsel, outside counsel, however 
it is handled. But they come in and make a claim against the 
company, yes, it would go to the risk management people.
    Dr. Palarino. So it wouldn't have gone to the risk 
management people initially. Is that a correct statement?
    Captain Wright. Well, quite possibly it could have.
    Dr. Palarino. It could have gone----
    Captain Wright. Yes, we would have--depending on the 
incident that we are referring to, we would provide the 
information, the contact information to the guest saying that 
when you get ashore, here is the contact number to followup 
this incident further.
    Dr. Palarino. Thank you.
    Mr. Gorsline mentioned a casualty assistance team. Are you 
familiar with that team or concept?
    Mr. Mandigo. I am familiar with what that concept is.
    Dr. Palarino. What would a casualty assistance team be?
    Mr. Mandigo. Basically a casualty assistance team would be 
a component of a crisis management plan, and that is when you 
have something happen, that you have designated people that 
would respond to that particular situation.
    Dr. Palarino. Is that same for Royal Caribbean?
    Captain Wright. That is correct. But I think we need to 
characterize it in the framework of being something of a larger 
event, where we need a lot of people at a scene to be able to 
deal with it. A ship was delayed, for example, coming in, if 
there were something other, not an individual incident 
occurring on board.
    Dr. Palarino. Would Mr. Mulvaney have been assigned a 
casualty assistance team?
    Mr. Mandigo. I mean, that is a----
    Dr. Palarino. He told me he was.
    Mr. Mandigo. Yes, and I say it is a mixed question. I mean, 
it just depends on a variety of circumstances.
    Dr. Palarino. Were the other victims or victims' families 
assigned a casualty assistance team?
    Mr. Mandigo. Not all victims would be assigned a, as you 
call it, a victim casualty team or whatever. They may be 
assigned a person in the company as an individual that would 
look after them, but not necessarily a formal-type process.
    Dr. Palarino. OK. That is all I have, Mr. Chairman. Thank 
you.
    Mr. Shays. Thank you.
    This document that you all have looked at, the 
International Cruise Victims Association suggestions, they have 
1, 2, 3, 4, 5, 6, 7, 8, 9, 10 categories from background 
checks, the international police, security, crime scenes, 
structural enhancement, video surveillance, access security 
bracelets, missing or overboard passengers, rape kits, rape 
reporting, excursions sold and promoted, cruise lines' 
accountability, and U.S. Congress intervention.
    Tell me the area that you already do or come closest to 
doing. Which category would you say is already being covered in 
some degree?
    Mr. Mandigo. We already do parts of backgrounds. Security 
crime scenes, we essentially do all of the security crime 
scenes----
    Mr. Shays. I could say you do almost all of these to some 
degree already.
    Mr. Mandigo. That is correct. On security crime scenes, we 
effectively do all of these. For instance, we were talking 
there may be, you know, this particular check-off list, we may 
or may not be doing, but we are essentially doing everything on 
that list.
    Mr. Shays. Do you take pictures of the crime scene?
    Mr. Mandigo. Yes.
    Mr. Shays. You have an official photographer who does that?
    Mr. Mandigo. We have photographers aboard the ship, and 
that is part of the procedure, is to photograph the crime 
scene.
    Mr. Shays. Any other areas that you would say you are 
already doing?
    Mr. Mandigo. The video cameras, I mean, we do in part, not 
all. The rape kits, we do all of what the rape kits currently 
does have reported there.
    Mr. Shays. Let's go through that, then, if you say you do 
all. And it is not a long list. It says doctors who have a 
license to practice medicine must be available 24 hours, 7. 
That is true.
    No request should be refused or taken lightly. That would 
be a matter of judgment.
    Written documentation to be provided, signed and issued to 
the point. That probably you do?
    Mr. Mandigo. Yes.
    Mr. Shays. Any other area that you think you cover pretty 
well on this list?
    Mr. Mandigo. Other areas that we may have small parts of, 
but not necessarily in a majority or in total.
    Mr. Shays. What is the area that would be the most 
difficult to do in terms of being practical. Forget dollars 
right now. And I am Captain Wright as well to join in.
    Captain Wright. Sure. All right, well, I will start off. I 
would say the access security bracelets. The microchips, 
positive identification.
    Mr. Shays. I am sorry, where are we at now?
    Captain Wright. Page 2, Access Security Bracelets.
    Mr. Shays. Yes, OK.
    Captain Wright. I think it is pretty clear that while one 
could conceive that would perhaps provide some benefit, there 
are a lot of civil liberties issues and would be certainly 
something that is almost unprecedented in any other 
application.
    Mr. Shays. Let me just ask. Some folks, what goes in Las 
Vegas, stays in Las Vegas. The sense is you want to give people 
a sense of privacy. If someone goes from one cabin to another 
or something, you don't need someone tracking, hey, this guy 
went to that cabin and this person went to this cabin, or two 
couples swapped or whatever.
    Captain Wright. Sure. I think that is a reasonable 
position, yes,
    Mr. Shays. I am giving that as an example, but there could 
be a lot of examples.
    Captain Wright. Right. The technology is there. Clearly 
today it is doable. It is used in all kinds of industrial 
applications.
    Mr. Shays. It is mostly a privacy issue?
    Captain Wright. Yes, I would say so.
    Mr. Shays. OK. What would be another area?
    Captain Wright. I think there probably are some--and I am 
not the expert, but I think from a jurisdictional perspective, 
we discussed this with marshals. I mean, certainly if you had 
marshals on board, they would perhaps have some jurisdiction on 
a certain segment of the ship's population, but due to our 
international makeup on a typical cruise, both of our guests 
and of our crew members, they would most likely not have 
authority for enforcement of anything with a certain percentage 
of the crew members or passengers.
    Mr. Shays. Are most of the folks who are on a cruise ship 
Americans? I mean, are they the predominant number?
    Mr. Mandigo. Yes. I mean, we have a subsidiary line out of 
Europe where, when they sail in Europe, a majority of the 
passengers would not be American. But for the most part, they 
are U.S. citizens.
    Mr. Shays. What do you think is--I realize you can't speak 
for your company in--well, maybe you can somewhat. But what are 
the areas that you found the most intriguing? I mean, would you 
agree that this is a fairly good list?
    Captain Wright. Yes, it is an excellent document, as you 
earlier said. I think it is----
    Mr. Shays. Just give me a taste of something that you might 
feel was a logical--whether it is required by the Government or 
whether you decide to do it, if you were to take this list to 
your folks and say, you know, there is some merit here, I would 
kind of like--you know, am intrigued by this idea, what would 
be those areas that you might see that?
    Mr. Mandigo. One intriguing area, and of course this is, 
again, that authority that cruise lines don't have is this 
proposal on marshals. I mean, that is clearly well outside the 
scope of the cruise lines.
    Captain Wright. Mr. Chairman, I would agree. I would say 
that the upgrading--and we are in the process of doing that on 
an ongoing basis--of both the technologies that we are using 
and the number of CCTV cameras that are positioned around the 
ship is an area that I am sure we could improve on. Although we 
have hundreds and hundreds of cameras presently on board the 
ships, I think an audit and a review of the areas--again, going 
back to certain privacy issues--that we could perhaps increase 
some of the coverage on the vessels.
    Mr. Shays. I mean, bottom line is you are not going to have 
a camera on someone's individual balcony.
    Captain Wright. No, clearly not.
    Mr. Mandigo. No.
    Mr. Shays. But I would think in the places where other 
people would have access in public, then there would be a logic 
to the fact that you could have, and probably do have, a number 
of cameras.
    Mr. Mandigo. Correct.
    Captain Wright. Correct.
    Mr. Shays. I would appreciate it if both your companies 
would--I am requesting a more formal response in writing to 
this document because we would be looking at this document as a 
discussion vehicle.
    Captain Wright. Sure.
    Mr. Shays. If you could provide a response in the next 3 to 
4 weeks, that would be helpful.
    Captain Wright. Absolutely.
    Mr. Shays. Dr. Fox, did you want to say something?
    Dr. Fox. I was going to add something, because I heard 
earlier a discussion of changing some of the statistical 
criteria for what is to be reported and what is not to be 
reported. May I make a comment about that?
    Mr. Shays. Absolutely.
    Dr. Fox. OK. As Mr. Kaye had said previously, it is 
somewhat arbitrary as to whether you use $10,000 or $6,000 or 
$5,000, but I do urge that if a change is considered, that 
there be some reasonable threshold. I mean, for example, 
Captain Wright here inadvertently has taken my pen. Now, it is 
not really a theft because he had no intent to deprive me of 
this. And I am sure on board ship there are sunglasses and 
cameras and lots of things get lost and may get reported as 
something--someone stole my camera. That maintaining a certain 
level of threshold, make sure that what is reported is 
substantial. One of the problems that the FBI has had and now 
has is that a lion's share of the Part 1 crimes, the serious 
crimes, aren't serious. They are larcenies of $25 or $50. You 
don't want to be the victim of that, but it is not a homicide.
    Mr. Shays. Dr. Fox, I totally agree with you. But I am 
struck by the fact that a more significant statistic are not 
robberies. I saw you give him back the pen, sir.
    Dr. Fox. I am just letting him borrow it.
    Mr. Shays. After you basically dissed him. [Laughter.]
    I just wanted to make a point. You need counseling. He is 
the one who is paying your bill here.
    Dr. Fox. Yes.
    Mr. Shays. But what seems more logical to me is that a 
theft is more significant and more likely on board a ship than 
a robbery, and yet thefts are not reported unless they reach to 
a level--I mean, they don't appear to be reported.
    Dr. Fox. But there should be some level. We should not do 
like the FBI did, which is to remove the minimum threshold. 
There should be a minimum threshold or else you just are 
getting swamped with lots of very small numbers. I mean, lots 
of crimes that are very low-level severity. So whether it be 
$10,000 or $5,000 or $3,000, some decision can be made, but I 
would urge that it be some reasonable threshold.
    Mr. Shays. Now, dealing with statistics, we are told that 
the industry will go, Dr. Fox, from 10.5 million to 20 million 
in about 5 years, which is a huge increase. And Captain Wright, 
is that statistic pretty accurate?
    Captain Wright. I am not familiar with it myself, but we 
are certainly going through some remarkable growth.
    Mr. Shays. Let me just say that the statistic that has been 
thrown around to us--and maybe ``throw'' is the right word, 
because it is an estimate--that it will grow significantly in 
the next 5 years, almost double. And if that is true, Dr. Fox, 
what is your sense of what happens to the statistics? Do they 
go up proportionally, or is it likely that we would see a shift 
one way or the other?
    Dr. Fox. Well, if nothing different is done in terms of 
prevention, then one would expect that as the passenger count, 
as the number of--actually, as the number of ships increases in 
the--that the crimes on ships would increase. That is the raw 
number, the incidents. The rate shouldn't change. Hopefully, 
you know, as some of these do make sense and there are other 
ideas that the industry implements on their own, that the rate 
will decline even as the number of passengers increases.
    Mr. Shays. I believe a previous year we were told a 
statistic of 13 missing and it has jumped to 24. What happened 
to move that number up?
    Mr. Mandigo. You increased the number of years, sir, Mr. 
Chairman.
    Mr. Shays. I thought it was 3 to 3. Is it----
    Mr. Mandigo. Originally it was 2 years.
    Mr. Shays. Oh, 2 to 3?
    Mr. Mandigo. That is correct.
    Mr. Shays. OK, thank you.
    Oh, just the last point of questioning. I leave with a 
sense that we have gone from saying statistics aren't reported, 
that were reported voluntarily, to where there is a law that 
requires it. But the industry also led me to believe that it 
was voluntary. Is this a change in tactic or a new discovery or 
what, in terms of its presentation to this committee, Captain 
Wright?
    Captain Wright. It appears to me--I was not present during 
the first hearing--however, it seems to me it was just a 
miscommunication, if you will, that we do have voluntary 
standards, we are reporting above and beyond what the law and 
the FBI specifically requests, whereas there is a component of 
our reporting that is also mandatory, as Mr. Kaye expressed 
today.
    Mr. Shays. So what we need to sort out as the subcommittee 
is what is the legal requirement and what are those 
statistics--and Dr. Fox, we may get back to you on that--versus 
what they do above and beyond. So what would be helpful is for 
both of your companies to tell us what is required by law and 
then what you do above and beyond. That would be helpful. And, 
you know, within 3 to 4 weeks would be helpful--sooner, 
obviously, but--and let me just conclude by saying, so, I have 
listened to a lot in this hearing that would tend to add to 
your side of the argument, except for the fact that we had six 
witnesses who basically felt in very real terms, and I tend to 
buy into their view, that they were and still are not treated 
with the respect you would want yourselves to be treated if you 
were going through the same experience. And so what I would 
request is we are going to monitor what kind of problems they 
continue to have. Part of our feeling of a sense that you all 
are hearing what we are saying is how they are treated. I am 
not talking in any way about financial compensation, nothing in 
that direction. I am just talking about information that 
enables them to understand what happened or didn't happen.
    So that would be my request.
    Is there any closing comment that anyone wants to make? Dr. 
Fox.
    Dr. Fox. What I would suggest--now, I am going to add an 
item which isn't on this list. And maybe it is done by some 
cruise lines, maybe it is not, but I will throw it out. It is 
based on my understanding of what we did in the criminal 
justice system. Of course, historically it had been problem of 
do victims feel like they are being listened to and do they 
feel that the criminal justice system cares about their rights? 
One of the best things was the development of victim/witness 
advocates, essentially individuals who were trained at 
communicating, listening to victims. It may not be a bad idea, 
when you have a crew size of over 1,000 or 900 or whatever the 
number is, that at least one of those individuals be trained as 
a victim/witness advocate who specifically understands how to 
communicate with victims and be their advocate.
    Mr. Shays. You know, I would like to add it to the list 
that was presented, because frankly, whether that person is on 
board ship would be helpful, an ombudsman--maybe you have 
them--but in your company. If the New York Times and other 
papers have someone who analyzes how well they are doing to 
report the news fairly, it might be, given that you represent, 
both of you together, your companies represent a huge part of 
the market. You are almost a monopoly in one sense. And I tend 
to believe when you get this big, you tend to become a little 
insensitive. And this may be a way to deal with some very real 
problems and do it on your own without the Government injecting 
itself. But someone who would be actually empowered to present 
a strong position on the part of the victim to your company.
    Captain Wright. Sure.
    Mr. Shays. If you would consider that, I think it would be 
an interesting idea.
    Captain Wright. Mr. Chairman, I think that is an excellent 
recommendation. The irony of this entire discussion is that our 
whole business, our whole product is treating people fabulously 
and making sure they have a great vacation. And the victims who 
spoke today and the experiences that they have had, the 
tragedies that they have incurred, it is inexcusable from our 
side. And each one of them, I believe, had its own element of 
wrongdoing on our part, where we did not follow our procedures, 
we did not perform as we should have performed. But these 
incidences do not represent the bulk of our operations.
    We are very proud on the statistics that are out there. And 
we are always looking for ways to improve. There is a big part 
of our maritime philosophy, if you will, of having a habit of 
continuous improvement and looking at lessons learned. And I 
can assure you that every one of these events, at least from 
our company's perspective, will be analyzed as to where did we 
mess up and how can we avoid doing that in the future. Because 
it is certainly the last thing that we want to see happen, but 
unfortunately there are examples where it has occurred.
    Typically, when you go and do an investigation--I know the 
NTSB, NASA, the military is very familiar with this--you 
discover almost always there is an error chain. Very rarely is 
it one single mistake that one single person or crew member 
made that resulted in something happening. If you go back and 
do the detail work, you are going to find it is a series of 
things where the system failed, there was a systemic failure. 
And you need to understand that. That is something that we do 
on a regular basis, and I think the chairman's subcommittee is 
helping to that end.
    Mr. Shays. Thank you. Any other comments before we adjourn?
    Mr. Mandigo. No, Mr. Chairman.
    Mr. Shays. Let me again thank you for staying so late and 
being so patient. We do appreciate it. And if there are still 
any families here who have had some experiences that they would 
like for me to know about and my staff, we will just stay 
around and talk to you privately about anything that you may 
want to tell us.
    So with that, this hearing is adjourned.
    [Whereupon, at 7:47 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8532.157

[GRAPHIC] [TIFF OMITTED] T8532.158

[GRAPHIC] [TIFF OMITTED] T8532.159

[GRAPHIC] [TIFF OMITTED] T8532.160

[GRAPHIC] [TIFF OMITTED] T8532.161

[GRAPHIC] [TIFF OMITTED] T8532.162

[GRAPHIC] [TIFF OMITTED] T8532.163

[GRAPHIC] [TIFF OMITTED] T8532.164

[GRAPHIC] [TIFF OMITTED] T8532.165

[GRAPHIC] [TIFF OMITTED] T8532.166

[GRAPHIC] [TIFF OMITTED] T8532.167

[GRAPHIC] [TIFF OMITTED] T8532.168

                                 <all>

</pre></body></html>
